<html>
<title> - PRIVACY IN THE COMMERCIAL WORLD</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                    PRIVACY IN THE COMMERCIAL WORLD

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2001

                               __________

                           Serial No. 107-16

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
71-496                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma              BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                    ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia             BART STUPAK, Michigan
BARBARA CUBIN, Wyoming               ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois               TOM SAWYER, Ohio
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING,          KAREN McCARTHY, Missouri
Mississippi                          TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
TOM DAVIS, Virginia                  BILL LUTHER, Minnesota
ED BRYANT, Tennessee                 LOIS CAPPS, California
ROBERT L. EHRLICH, Jr., Maryland     MICHAEL F. DOYLE, Pennsylvania
STEVE BUYER, Indiana                 CHRISTOPHER JOHN, Louisiana
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

NATHAN DEAL, Georgia                 EDOLPHUS TOWNS, New York
  Vice Chairman                      DIANA DeGETTE, Colorado
ED WHITFIELD, Kentucky               LOIS CAPPS, California
BARBARA CUBIN, Wyoming               MICHAEL F. DOYLE, Pennsylvania
JOHN SHIMKUS, Illinois               CHRISTOPHER JOHN, Louisiana
JOHN B. SHADEGG, Arizona             JANE HARMAN, California
ED BRYANT, Tennessee                 HENRY A. WAXMAN, California
STEVE BUYER, Indiana                 EDWARD J. MARKEY, Massachusetts
GEORGE RADANOVICH, California        BART GORDON, Tennessee
CHARLES F. BASS, New Hampshire       PETER DEUTSCH, Florida
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan,
W.J. ``BILLY'' TAUZIN, Louisiana       (Ex Officio)
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Cate, Fred H., Professor of Law, Indiana University School of 
      Law........................................................    17
    Feldblum, Chai R., Professor of Law, Georgetown University 
      Law Center.................................................    67
    Rotenberg, Marc, Executive Director, Electronic Privacy 
      Information Center.........................................    61
    Rubin, Paul, Professor of Law and Economics, Emory University 
      School of Law..............................................    47
    Singleton, Solveig, Senior Policy Analyst, Competitive 
      Enterprise Institute.......................................    57
    Volokh, Eugene, Professor of Law, UCLA Law Center............    26
Material submitted for the record by:
    Cate, Fred H., Professor of Law, Indiana University School of 
      Law, letter dated march 8, 2001, enclosing material for the 
      record.....................................................   103
    Singleton, Solveig, Senior Policy Analyst, Competitive 
      Enterprise Institute, response for the record..............   108

                                 (iii)

  

 
                    PRIVACY IN THE COMMERCIAL WORLD

                              ----------                              


                        THURSDAY, MARCH 1, 2001

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Upton, Shimkus, 
Bryant, Buyer, Terry, Tauzin (ex officio), DeGette, Doyle, 
John, Harman, Markey, Gordon, Rush, Eshoo, and Dingell (ex 
officio).
    Staff present: Ramsen Betfarhad, majority counsel; Yong 
Choe, majority clerk; Bruce Gwinn, minority professional staff; 
and Courtney Johnson, minority clerk.
    Mr. Stearns. The subcommittee will come to order. I want to 
thank all of you for attending this morning the first hearing 
of the Subcommittee on Commerce, Trade, and Consumer 
Protection. In particular, I would like to thank Diana DeGette 
from Colorado, who is substituting for Eddie Towns, who had to 
go back to New York City. And I want to thank, of course, all 
of the members of the subcommittee.
    I want to thank, of course, our distinguished witnesses for 
appearing before this panel, and I look forward to their 
testimony and hearing their answers to our questions.
    I plan on and expect that this subcommittee, all of us 
working together, will create a productive and distinguished 
record for the 107th Session. I look forward to working with 
each and every subcommittee member.
    The subcommittee's jurisdiction is broad and encompasses 
areas which pose some difficult and complicated questions. 
Privacy is just one such question. I'd like to take a moment to 
briefly outline my priorities for this subcommittee. They are, 
one, privacy and other e-commerce issues; two, international 
trade, specifically as it relates to e-commerce; and three, 
discrete consumer protection issues, such as continued work on 
tire safety, car safety; and, four, these mega-mergers that we 
see today.
    The subcommittee is the front-line subcommittee on the 
topical issue of privacy. We, I believe, must create a forum 
for open and honest discussion on the subject. Moreover, I 
think the subcommittee must also advance the cause of e-
commerce by examining and, if need be, addressing some of the 
more significant issues confronting e-commerce, both at home 
and abroad.
    The international dimensions of e-commerce will be another 
focal point of our subcommittee's actions. Developments beyond 
our shores, in particular in the European Community, relating 
to e-commerce necessitate our careful examination and 
heightened vigilance on the matter. Finally, there are a myriad 
of consumer protection issues that we will pursue.
    Today, we begin to address what may be one of the most 
difficult and important issues confronting Congress this 
session. That issue is information privacy in the commercial 
world. Today's hearing is the first in a series addressing the 
issue of information privacy. I believe it is incumbent upon us 
to create a forum for open and honest discussion.
    Precisely for these reasons, we must ask today's witnesses, 
a distinguished group of scholars and thinkers on the matter, 
to place the issue in its proper historical context. It is rare 
that you have a hearing without legislation in place. And so, 
today, I seek to establish this forum to have the proper 
historical, intellectual and jurisprudential contexts before we 
even begin.
    We must raise the fundamental issues that are implicated in 
this discussion. It would not be an understatement to suggest 
that information privacy in the commercial context is a complex 
and indeed a vexing issue. The testimony today will attest to 
its complexity, scope and breadth. For example, the issue of 
privacy transverses such varied areas of common law as 
contracts, torts and property, and information privacy as it 
relates to commercial activities carries with it an implication 
well beyond the world of commerce.
    Today, we will hear testimony advising us to be vigilant 
and careful when contemplating information privacy fixes for 
the commercial world, for we may risk triggering serious 
Constitutional questions and violations. In addressing the 
issue of information privacy, we must be mindful of the First 
Amendment, a cornerstone of the American democracy. The 
testimony also informs us of the tremendous benefits that have 
accrued to our economy and the American consumer from the 
tradition of a free flow of information within the commercial 
context, and we are warned of the negative repercussions that 
attach to a restrictive information regime in the commercial 
world. On the other hand, we must also be advised that 
information privacy rights have enabled the development of new 
commercial services.
    I have highlighted just a few interesting observations 
extrapolated from today's testimony. There are many more, my 
colleagues. But today's testimonies are a testimony to the 
richness and complexity of the debate we as a subcommittee are 
embarking upon this morning. So I encourage all members to take 
the time to carefully examine the issues before us, and I hope 
you will find, as I am sure you will, this hearing helpful as 
we move this process forward.
    In closing, I would like to reiterate my commitment to 
having a close working relationship with all subcommittee 
members. I look forward to bipartisanship and a willingness to 
put together legislation that is meaningful.
    With that, I will call upon Ms. DeGette for her opening 
statement.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, I was privileged to work with Mr. Towns on 
the previous Financial Services Subcommittee and know I can 
speak for both of us in saying that all of the members of the 
minority, particularly myself and Mr. Towns, look forward to 
working with you on these important issues of privacy. I want 
to commend you for quickly holding this first hearing on the 
topic. I know it is a very complex topic, and those pesky 
little Constitutional issues do creep up. I am glad that you 
recognize that, too.
    We all know that it is an important subject and one that 
needs to be addressed. I also want to welcome the witnesses 
here today. I know I speak for all of the members in saying we 
look forward to hearing your testimony.
    Over the past few years, my constituents have become more 
and more interested and concerned about personal privacy 
protections. I personally believe that the diversity of views 
among different industries and consumer groups, coupled with 
the complexity of the issue, will make it a very challenging 
task for policymakers. However, I think that there is a 
consensus that we need to address both the perceived and real 
fears that people have with respect to their privacy, 
particularly in this electronic age.
    As I mentioned, I was on the Financial Services 
Subcommittee and was privileged to be a conferee on the Gramm-
Leach-Bliley legislation that overhauled the financial services 
industry. Privacy was a big issue during those negotiations. 
Some think that the final language was a good compromise; some 
think it went too far; and many think it didn't go far enough.
    One thing everyone has an agreement on: it was no easy feat 
to try to strike a balance between preserving the 
competitiveness of business and protecting the privacy of 
consumers. I think that that is an issue that the Federal 
legislators will struggle with for many years to come. I do 
think, though, that there are two dirty little secrets in the 
context of this issue. The first is privacy can actually be 
good for business. The second is information sharing can 
actually be good for consumers.
    Certainly, the issue of privacy can be a new opportunity 
for increased consumer confidence and trust in business. I know 
there are many companies that are already busily working 
customers with their own privacy policies. Every consumer who 
participates in the new economy has privacy concerns on one 
level or another, and I know that everyone will work together 
who has a stake in privacy issues to ensure that the rights and 
responsibilities of consumers are balanced with that of 
business.
    Privacy should and needs to be at the top of every 
company's priority list. It should be noted that more than one 
expert on this topic has called privacy not just a social or 
moral issue but the single most important business decision a 
company can make today. And I want to talk just a moment about 
medical privacy. Congress acted in a bipartisan fashion in 1996 
when it mandated that a sweeping medical records privacy bill 
be passed by 1999. The goal was not met, and as everyone here 
knows, the Clinton administration wrote the new HIPAA 
regulations at the end of last year.
    I have heard from many constituents back home who are in 
the health care industry that these new regulations are too 
burdensome, and the bar has been set too high. I am sympathetic 
with those concerns, but I do believe that the administration 
needs to work with this subcommittee and the rest of Congress 
to modify the regulations rather than simply withdrawing them, 
because I do believe that medical records privacy is a critical 
issue.
    Mr. Chairman, again, I look forward to hearing from the 
witnesses today, and I particularly look forward to working 
with you and the rest of these members on these complex issues 
over the next 2 years.
    Mr. Stearns. Thank you.
    And now, we have our distinguished chairman of the 
committee here for his opening statement. Mr. Chairman?
    Mr. Tauzin. Thank you, Mr. Chairman. Good morning.
    I want to welcome everyone here today, especially the panel 
of witnesses. I remember when I first entered the Louisiana 
legislature, Cliff, and I had my first chance to examine my own 
law professors----
    What a wonderful experience that was to be able to ask them 
a few tough questions for a change.
    I want to also acknowledge to all of you: this is the first 
official action of the Subcommittee on Commerce, Trade, and 
Consumer Protection, and I particularly want to welcome 
Chairman Stearns to this endeavor. This committee is going to 
be an extremely busy committee this year, and information 
privacy is obviously one of many big concerns of this 
committee, but it is a huge one, and I want to congratulate 
you, Cliff, for making it the first inquiry of this session.
    I also want to welcome two members who are not here now, 
but your ranking member, Mr. Towns, who has been a dear friend 
for a long time, and he and the vice-chairman of the committee, 
Deal, are going to be great assets to you as you move forward 
with this and other hearings, and I want to wish you all well, 
particularly the new members of the subcommittee, as they are 
new members of the committee. This issue is particularly 
intriguing, and I am glad you are starting with an examination 
of the legal foundations, philosophical basis. We need to think 
through what privacy has meant in this country and how it has 
been applied in the context of the various jurisdictions and 
the U.S. Constitution. Hearing from professors who have thought 
about, written about and understand many of the complex issues 
is a good start. I want to thank you for that.
    But I also want to point out, as did Ms. DeGette, that this 
is not a new issue for us. I think if you looked at the books, 
you would see about 17 statutes on privacy that have been 
enacted by the Congress over the years: consumer credit--not 
just the financial services bill and medical privacy but quite 
a host of smaller but nevertheless important privacy bills that 
were written in the brick and mortar world to protect people's 
privacy and, at the same time, protect free speech and the free 
flow of information. It is a delicate balance.
    The other thing I want to point out to you is that while 
the last administration certainly had a great interest in this 
subject matter, that we asked the GAO to look at Federal online 
sites and discovered that the Federal Government was not doing 
a very good job of protecting people's privacy, in fact, 
ironically onsites that people don't necessarily visit 
voluntarily. For example, the IRS site, which is sort of a site 
you have got to go to if you don't want to file on paper, and 
we discovered they even had a cookie on that site.
    So we discovered some bad features of our own Federal 
protection of privacy on Federal Websites, and we need to pay 
attention, and I know you will look at that, Cliff, as you go 
forward with these hearings.
    I also wanted to point out that every time we have hearings 
on this, people's positions start shifting. I was just in 
Silicon Valley the last week or so, and I have seen a different 
tone. There was a don't do anything attitude for a long time 
now, and at the conference we had at Landsdowne and meetings I 
am having lately with folks in the Valley, there is a different 
attitude. The attitude is you better do something, because we 
will have 50 states acting and 1,000 other jurisdictions 
acting, and we will have so many policies and conflict that 
interstate commerce will get bogged down. And maybe we need to 
have a common policy that we all understand.
    Second, I know you will focus on the great advances made in 
the private sector, the new self-policing organizations; the 
new seal of approval organizations, the things that private 
industry is doing to better inform and give consumers a better 
chance to protect their own information when they want to. 
Particularly, I hope you will examine the technological 
advances that give consumers more security in the information 
age in regards to information they want to keep private.
    And finally, punting might be good in football, but this 
committee is finished punting. As we meet in this room, 
downstairs, we are meeting on the Patients First project, a 
project to deeply involve this committee in the health care 
issues of this country again. Here on this level, this 
amazingly complex set of issues that face you, I am excited 
that you are not punting either. The last thing we ought to do 
is turn this one over to regulators. We ought to make the 
policy here. We ought to make it carefully; we ought to make it 
targeted; we ought to make sure it helps, not impedes, e-
commerce. We ought to make sure that when we get through, 
consumers feel like they are getting a good deal out there, and 
they have got better control of the information that is 
pertinent but nevertheless important and sometimes very 
personal to them.
    Mr. Stearns and members of the committee, I want to wish 
you well. I am delighted, frankly, that you are engaged like 
this, and Cliff, you know you will have my full support and the 
support of the entire staff, as I know Mr. Towns will offer his 
support and his staff to you as well. Good luck and bon voyage.
    Mr. Stearns. Mr. Chairman, thank you for your confidence, 
and, of course, we look forward to your continued support and 
your input in this very awe-inspiring attempt to try to come up 
with a fair, balanced approach that weighs the risk for 
consumers but also providing the opportunity for technology 
advancement. So I appreciate your support.
    Mr. Dingell, the ranking member of the full committee.
    Mr. Dingell. Thank you, Mr. Chairman.
    This is an important hearing, and I commend you for having 
it. Privacy is not only important to those who don't have it, 
but it is an essential need of electronic commerce and 
communication if they are to fulfill their promise. It is not a 
new issue to this committee. For more than 20 years, we have 
had privacy provisions for sensitive business information in 
virtually every major bill that has gone through the committee. 
For example, in the Safe Drinking Water Act in 1975, the 
committee gave business strong privacy protections not unlike 
those advocated today by consumers, Internet users and most of 
us in our relationships with our health care providers, our 
financial institutions and our employers.
    The act limited information that EPA could collect from 
business. It also required that EPA give business the ability 
effectively to opt out or to prevent the agency from publicly 
releasing sensitive business information. We had a choice to 
make, and the committee chose to satisfy industry's concerns 
about sensitive information, so that EPA could get reliable 
access to the information it needs but not to intrude 
excessively into the privacy of business or to impair the needs 
of business to protect business and trade secrets or other 
matters of concern to business.
    Today, individuals need the same kind of assurances that 
business has gotten and demanded so that the commercial 
potential of the Internet and the benefits of electronic 
communication can be fully realized. Without public trust as to 
the protection of privacy, there will be no ability of business 
to utilize electronic communications the way they can and 
should be.
    There are a lot of stories about harm that individuals can 
suffer when privacy is abused today. I would commend to the 
committee a recent article entitled ``Gene Gap Creates New 
Frontier for Discrimination.'' This article makes the point 
that there are strong possibilities that women, for example, 
who are being examined for breast cancer will refuse to get 
genetic testing. This has already happened. And their reason, 
of course, is fear of genetic discrimination;.
    There are privacy problems in the financial area, and these 
are extreme. They are exacerbated by the unfortunate action 
which the Congress took during the prior session with regard to 
the financial deregulation legislation that passed last year. 
Already, we are hearing that there are major problems in 
banking. Plaintiffs' attorneys now say that fewer than one 
quarter of the people involved in one case against the Bank of 
America, the Nation's third-largest bank, have ever been Bank 
of America customers. But nonetheless, the bank is being sued 
for having obtained thousands of credit reports and then 
selling them to entities that were not affiliated with the 
bank.
    So if you want your financial privacy, you better be 
starting to be concerned about this matter and about the 
defects and failures, because it appears that the Congress has 
permitted Pandora to open the box, and the devils which attack 
privacy are now moving widely through our society. Individuals 
must have power to control how and when and with whom their 
personal information is shared. To accomplish this task, the 
efforts and cooperation of many are going to be needed, and 
active supervision of this subcommittee and of this committee 
will be required.
    Business is going to have to establish strong self-policing 
practices and procedures to ensure compliance with privacy 
guidelines. The Government is going to have to see that honest 
men are kept honest by a good statutory framework that will 
punish wrongdoing, which hurts ordinary citizens, and failing 
that, we can look forward to nothing but trouble in this area.
    Mr. Chairman, I look forward to working with you and other 
members of the subcommittee on this important issue. Thank you.
    Mr. Stearns. I thank you, Mr. Dingell.
    Mr. Shimkus, opening statement?
    Mr. Shimkus. Thank you, Mr. Chairman. I just want to echo 
what my good friend and colleague Diana DeGette said, and I'm 
going to use it from now on, Diana. Privacy will be very good 
for business, and information sharing is and will be found to 
be very good for the consumer. Marrying those two so that they 
don't bleed into each other, and we have legal and the 
Constitutional debate, that is the challenge. That is why you 
are there to help us, really educate us, on these difficulties. 
I look forward to hearing your testimony and welcome, and I 
yield back my time, Mr. Chairman.
    Mr. Stearns. Mr. Doyle?
    Mr. Doyle. Thank you, Mr. Chairman. I want to thank you for 
convening this hearing to examine individual and consumer 
privacy protection issues in our growing high-tech economy.
    This hearing should provide a forum to address privacy 
concerns in cyberspace as our Internet and electronic commerce 
sectors continue to expand and evolve. In recent years, we've 
witnessed more and more traditional old economy industries and 
businesses offer their goods and services online, speaking to 
the fact that e-commerce provides a never-before-seen ease of 
accessibility and convenience to an increasing volume of 
consumers.
    Newly minted companies immediately turn to the Internet as 
an effective resource to reach potentially unlimited numbers of 
customers worldwide. The sudden serve in e-commerce popularity 
demonstrated a public confidence and willingness to indulge in 
this innovative medium. Although the recent slowdown in the 
high-tech and e-commerce industries have created some financial 
headaches for businesses and investors alike, utilizing the 
capabilities of the Internet for commerce will remain high on 
the priority list for competitive industries in the Twenty-
First Century.
    As more households in America turn to online entities for 
goods and services, protecting the privacy of users has 
exploded to the forefront of discussions. In my view, one of 
the fundamental issues governing the evolution of a thriving 
high-tech and e-commerce sector in the American economy will be 
the level of consumer trust in online institutions and 
communication. Without trust in digital systems and networks, 
the benefits of this growing economy will be severely limited, 
and the American public will miss a golden opportunity.
    Information privacy concerns are a double-edged sword for 
e-commerce. Routine information about users and their usage 
might be used to assist online service providers in government, 
business and medical areas to provide efficient, informed and 
highly personalized customer service. Lacking the trust and 
assurance that their information is truly protected online, 
consumers will turn away from online resources. Ensuring 
consumer trust in online transactions means enhancing online 
security measures and information sharing practices, thus 
creating a need for highly trained software and system 
engineers and companies, spawning more economic growth.
    I believe that we in Congress must continue to examine the 
best means possible to foster and promote sustained economic 
growth in the high-tech sectors of our economy. Realizing that 
a critical component of any sustainable growth is high consumer 
confidence and trust in the available services, we must look at 
the role the Federal Government must assume to achieve 
effective results.
    I am aware that in the past, far-reaching Federal 
regulations have created unnecessary burdens on business, to 
the point where some industries found it economically 
unfeasible to continue without significant restructuring or 
downsizing. That is not to say that Federal agencies design to 
choke firms out of business by promulgating excessive 
regulations; rather, the Government responded to a definite 
need to ameliorate certain abusive practices and situations by 
those industries. But at times, we simply reacted too harshly. 
It would be unfortunate if a similar situation was to occur 
with our budding high-tech economy.
    In closing, Mr. Chairman, it is my sincere hope that we may 
find a happy medium from today's discussions in which the 
privacy and trust of concerned citizens is protected and 
upheld, while industry practices responsible utilization of 
consumer information sources as a means to enhance and develop 
online e-commerce assets.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank my colleague, and I want to welcome 
one of the newest members to our full committee at Commerce, 
and I enjoy having him on my subcommittee, Mr. Buyer.
    Mr. Buyer. No, I pass.
    Mr. Stearns. Okay.
    Mr. Buyer. I want to hear the witnesses.
    Mr. Stearns. Mr. Markey, for an opening statement?
    Mr. Markey. Thank you, Mr. Chairman very much, and thank 
you for having this very important hearing today.
    We have come a long way in 1 year. A year ago, the industry 
generally was saying don't tax us; don't force us to give 
privacy protections; don't pass laws that protect us engaging 
in fraud, or else, you will ruin the industry. And thank God we 
didn't do anything on anything, because the industry did it to 
itself obviously. I will also add another thing: don't expect 
us to make money or have any revenues, you know.
    And the stock market has reflected their view of that. 
Although it was belated, it obviously has now taken at least 
half of the air out of that bubble, and so, at least, now, we 
can discuss these issues without fear that anything we might do 
in the privacy front would be then responsible for knocking 
half of the value off of the Nasdaq.
    Because obviously, privacy had nothing to do with it. It 
had to do with the irrational exuberance of those who were 
investing in the Nasdaq.
    So without question, privacy is a looming legislative issue 
in this Congress. At today's hearing, we can get a brief 
glimpse of the simmering policy issues that are of increasing 
concern to Americans throughout many segments of our society, 
including financial privacy; Internet privacy; medical privacy 
and genetic discrimination.
    Let me briefly just touch on a few of these issues. With 
respect to financial privacy, this committee approved 
legislation which would have given consumers the ability to say 
no to having their banking, their brokerage or their insurance 
records shared with affiliates of a huge financial holding 
company or with third parties. Unfortunately, the House 
Republican leadership gutted this provision, replacing it with 
a loophole-ridden privacy provision. We need to close those 
loopholes so that consumers have control over how their most 
sensitive financial secrets are disseminated.
    With respect to medical privacy, what we have right now is 
the story of medical privacy on hold. The red light is 
blinking, but nobody seems to be picking up on the fact that 
the American people want medical privacy standards. And by law, 
these protections should have been established a whole year 
ago. In 1996, Congress promised Americans that specific health 
privacy protections would be in place by February of 2000. We 
are over a year late with our promise. I think we have put 
medical privacy on hold for long enough.
    For this reason, I am particularly concerned that the 
Department of Health and Human Services has recently announced 
a recent decision to open up the Health Insurance Portability 
and Accountability Act privacy regulation for a 30-day comment 
period. I am drafting a letter to be sent to the Secretary, and 
I hope to get bipartisan support urging the rule's timely 
implementation.
    While this rule isn't perfect, it is a carefully crafted 
first step toward a comprehensive privacy standard, and once 
implemented, I plan to introduce legislation to improve it.
    With respect to online privacy, it is no secret that I have 
long been advocating action to put common sense privacy rules 
on the books to protect privacy in cyberspace. I believe that 
such action will be good for business, and it will increase 
consumer confidence in the medium. It is clear that industry 
self-regulation alone is a failure and is insufficient. Our 
current policymakes absolutely no sense. It is anti-consumer 
because it doesn't afford anything remotely resembling 
comprehensive protections consumers deserve.
    Beyond undermining consumer confidence, however, the lack 
of legal privacy requirements also creates an inverse system of 
rewards and risks for the industry. If a company posts a 
privacy policy and then subsequently violates it, the FTC can 
take action under its authority to police unfair and deceptive 
practices. Conversely, if a company posts no policy at all and 
then engages in personal information hijacking, it is legally 
able to continue on its merry way. The company is shielded by 
the privacy paradox: as long as it never promises to protect 
privacy, it can never be accused of deceiving its customers.
    Again, I have argued that what we must have is a national 
privacy policy that continues and urges self-regulatory efforts 
but complements such efforts with the promotion of 
technological tools and enhanced privacy as well as a set of 
meaningful, enforceable privacy guidelines that protect all 
Americans in the online environment.
    I think at this point, everyone is familiar with the 
essential ingredients of fair information practices. What we 
need to do now is proceed with a more detailed, rigorous 
examination of how these principles can be fleshed out 
legislatively so that beyond our discussion of privacy 
principles, we can better explain to consumers and industry of 
how these key privacy rights will work operationally in the 
online environment.
    I encourage both the industry and privacy advocates to 
articulate in a more detailed fashion what they would like to 
see in any legislation that this committee considers. I want to 
commend you, Mr. Chairman. I think we are at the beginning of a 
very, very important process that I hope will produce, by the 
end of this year, an online privacy bill of rights that will 
give every American the protection which they need for their 
family's secrets.
    Thank you, Mr. Chairman.
    Mr. Stearns. I thank my colleague.
    Mr. Terry?
    Mr. Terry. I am going to pass, but I want to hear what a 
privacy bill of rights entails. But I want to flesh out my 
philosophy on privacy through questions to the panel.
    Thank you.
    Mr. Stearns. Ms. Harman for an opening statement?
    Ms. Harman. Thank you, Mr. Chairman.
    One of the primary reasons I sought to join the Energy and 
Commerce Committee was to serve on this subcommittee, and I am 
very pleased to see that this subject is first up. I represent 
a district which 10 years ago was heavily dependent on defense 
and aerospace. In the last 5 or 10 years, it has transformed 
itself into the heart of Southern California's digital coast. 
The new industrial base is e-commerce, multimedia, Web design, 
telecommunications and other high-tech businesses, and all of 
them have significant presence in Venice, El Segundo and the 
South Bay of California.
    The success and future of those businesses depends to a 
large degree on consumer confidence in the Internet, and 
confidence requires control, giving consumers control over the 
information that consumers reveal when they are online. How to 
achieve real consumer control or real consumer choice is 
tricky, and numbers of our members have just commented on that. 
I believe that industry self-regulation and code-based 
solutions like the P3P protocol have a role, but they are 
probably not the entire answer.
    The Federal Government also has a role, and one component 
of that role needs to be, in my opinion, to preempt some State 
regulations so that interstate commerce is not impeded. The 
proliferation of multiple State standards has prompted industry 
to seek Federal Government help; to seek partnerships. That, in 
my view, is good, and so is drawing bright lines around 
personal health and financial records.
    Numbers of members this morning have talked about potential 
abuses. I would just like to mention one real abuse that I 
learned of last fall while holding hearings on this subject in 
my district. One woman told me that her husband had been 
diagnosed with cancer and in this regard was also tested for 
HIV/AIDS. While he was in the hospital, she happened to sneak a 
look at his medical chart which, instead of saying HIV pending, 
because he had been tested, said HIV positive.
    Of course, the test turned out to be negative. She insisted 
that the chart be changed. But imagine if that information was 
routinely used by insurance companies, employers or credit card 
companies. That man's future would have been seriously affected 
by an inaccurate statement on his medical chart. And so, it is 
absolutely critical that we find the right ways to protect 
medical privacy and the related issue of financial privacy.
    I am looking forward to this hearing, Mr. Chairman, and to 
future hearings and to playing as important a role as I can on 
fashioning a balanced and bipartisan piece of legislation that 
deals with this critical issue.
    Thank you very much.
    Mr. Stearns. I thank my colleague.
    Mr. John, opening statement if you have one?
    Mr. John. Thank you, Mr. Chairman.
    I have a copy of my statement that I would like to submit 
for the record, and in the interest of time, I would just like 
to say thank you for this hearing. I think this is very 
important. And my comments reference, among other things, an 
article that was in the Wall Street Journal on February 20 that 
talks about and compares Europe's Web privacy with the United 
States and how, over the last 5 years, the European Commission 
has put a wealth of regulations on the books, and they 
commissioned a study that basically said that there is a 
balance between what happens in the United States; that self-
regulation is not that bad; that some of these regulations have 
been overburdening, and actually, in the United States, 
according to the study, there are a lot more privacy 
protections for consumers without the regulations.
    Although I don't think it is absolute, I think it is an 
interesting read to start us off and to see where we are going 
and learn from a case study that was actually funded by the EU 
to learn about privacy and government and private industry's 
involvement in how you get to that ultimate goal of which I 
don't think any of us really know or have our finger on, which 
is consumer protection and also not stifling economic growth.
    So I would urge each member of the committee to take a look 
at this article. It is very interesting. With that, I yield 
back my time and look forward to the witnesses.
    [The prepared statement of Hon. Christopher John and the 
Wall Street Journal article follow:]

  PREPARED STATEMENT OF HON. CHRIS JOHN, A REPRESENTATIVE IN CONGRESS 
                      FROM THE STATE OF LOUISIANA

    Mr. Chairman, thank you for assembling today's panel of experts on 
privacy matters. I believe that this Subcommittee's focus on privacy 
will be one of the most important issues that this Congress faces, and 
I look forward to their testimony.
    Mr. Chairman, recent analysis has shown that as goes the NASDAQ, so 
goes consumer confidence in this country. Granted, these movements have 
not been rigorously tested statistically, but the point that is 
relevant to this Subcommittee and this hearing remains: consumer trust 
and confidence are fundamental to the success of the increasingly 
global Internet economy and privacy is a critical component of the 
``trust and confidence'' measure that consumers hold. It applies to 
both e-commerce in general and the practices of specific companies in 
particular. We have an opportunity during the 107th Congress to ensure 
that we provide the best environment for future economic growth while 
ensuring adequate consumer protections in this regard. I do not believe 
that these are mutually exclusive goals.
    Having said that, I do not have the equation that solves the vexing 
problem we are dealt here today--resolving American's desire for one-
stop shopping on the Internet without making themselves more vulnerable 
to tracking by criminals, businesses and even the government. However, 
I would like to submit for the record a recent Wall Street Journal 
article entitled, ``Europe Lags Behind U.S. on Web Privacy.'' It 
suggests, via a European consumer's organization study, that Internet 
users' privacy is better protected in the U.S. than in Europe, despite 
the privacy directive that exists there. In all fairness, it does not 
endorse the private sector solution that we have allowed in the U.S. 
and it is critical of our lack of provisions regarding right to 
redress. However, I think the lessons and challenges that the article 
outlines should be paramount on all of our minds as we move forward in 
discussing privacy matters in this Subcommittee and in this Congress.
    Thank you, again, Mr. Chairman for holding this hearing. These 
matters are of extreme importance to my constituents in the 7th 
Congressional District of Louisiana. I look forward to the hearing 
today.
                                 ______
                                 

         [Tuesday, February 20, 2001--The Wall Street Journal]

                 Europe Lags Behind U.S. on Web Privacy

       MORE AMERICAN FIRMS LET CUSTOMERS GUARD DATA, STUDY FINDS

                             By Ben Vickers
    Internet users' privacy is better protected in the U.S. than in 
Europe, despite the raft of privacy regulations that have been approved 
by the European Commission over the past five years, according to 
European consumers organizations.
    The U.S. model of voluntary self-regulation of the use of private 
data collected online appears to work better, according to a 
commission-funded study by United Kingdom-based Consumers 
International, a federation of more than 250 consumer organizations in 
110 countries.
    The study reveals, for example, that 80% of European Web sites 
don't comply with current EU law that requires the sites to give online 
customers the chance to opt out of allowing their personal data to be 
stored and reused. In the U.S., however, almost 60% of most-popular 
sites offer their users the chance of opting out of having their data 
stored and reused.
    Fewer sites in Europe collect data on users, compared with the U.S. 
overall. But of those that do, the study says, only about a third 
comply with the EU rule on offering public privacy policies. More than 
63% of European Web sites collect information on users, but only 32% 
point them to their privacy policy, which explains that company's use 
of private data. In the U.S. a massive 90% of sites collect information 
on users, but 62% of these point users to their privacy policy, 
according to the study.
    ``Despite tight EU legislation . . . U.S.-based sites tend to set 
the standard for decent privacy, policies,'' the survey of 751 Web 
sites, concludes.
    There are five separate EU Directives that regulate online privacy, 
plus sections of the European Treaties and Charters, such as the 
recently finalized European Charter of Fundamental Rights.
Privacy Directive
    Two-thirds of the 15 EU-member states have passed the Privacy 
Directive into their national law. Those who haven't done so yet have 
until January next year to complete the process. Most of the other 
directives are already being applied, and some will soon be due for 
revision.
    Each EU member state now has a data-privacy commissioner and a 
national enforcement agency that monitors compliance with the new laws. 
But many countries are still adapting their existing agencies to enable 
them to carry out the work of monitoring the Internet.
    And Europe is taking a long time to get around to applying its 
privacy regulations.
    ``The evidence is that enforcement [of the regulations] is simply 
not happening,'' says Anna Fielder, director of Consumers International 
in London. ``When you talk to the national regulators who are supposed 
to make sure the rules are applied, they always complain of a lack of 
funding and a lack of staff for an enormous amount of work,'' she says.
    Although references to the Fundamental Rights and the threat 
represented by privacy abuses pop up in any parliamentary debate on the 
privacy issue, the resources for enforcement of privacy rules are not 
adequate, Consumers International says.
    But consumers' organizations, which lobbied hard for the privacy 
regulations, consider the EU on the right track, despite the lack of 
enforcement now and the lead the U.S. appears to have in self-
regulation.
`A Right to Redress'
    ``Consumers in the EU have a right to redress. There is a law, 
there is an enforcement agency in each state . . . Redress in the case 
of abuse is not available in the U.S. with the voluntary systems they 
have,'' says Ms. Fielder. In Europe, consumers have someone who will 
represent them in the case of a dispute and laws to back up their 
claims, she says.
    At a debate on the need for updating EU privacy regulations last 
January, Gregory Rohde, the U.S. assistant secretary of commerce for 
communications and information, told members of the European Parliament 
that there was a need for ``clear, consistent, and enforceable rules.''
    Mr. Rohde pointed out that while the U.S. has taken very limited 
action in regulating privacy protection, it has only regulated for 
financial services, health-care information and for the protection of 
child privacy online.
    ``But we are starting to see a shift towards stronger governmental 
action in the U.S.,'' Mr. Rohde told members of the European 
Parliament. ``Up to this point, the U.S. has chosen to allow the 
emerging Internet and new communications systems to develop without 
broad-scale government regulation,'' he said.
Online Trading
    A focus of the commission's electronic commerce strategy this year 
is to increase consumer confidence in online trading, according to EU 
Health and Consumer Protection Commissioner David Byrne. ``E-commerce 
in Europe is being held back by several key worries,'' Mr. Byrne told 
European Parliament members. ``These are related to the risk of online 
fraud and data protection.''
    One solution being encouraged in Europe is a code of conduct and 
trustmarks--a certification offered by third parties that guarantees 
minimum standards in areas such as respect of privacy and protection 
of, personal data. Similar initiatives exist in the U.S., where the 
private sector has produced third-party verification of privacy 
policies like Truste (www.truste.org) or Better Business Bureau Online 
(www.bbb.org). Almost all sites using third-party certification are 
based in the U.S., according to the commission survey.
    The commission says it hopes to encourage their development in 
Europe. Meanwhile, it has posted a first version of e-commerce ``best 
practices'' that resulted from consultations with industry players on 
its ``e-confidence'' forum on the Internet, (http://
econfidence.jrc.it).
    Online consumer-confidence building is also one of the objectives 
of the recently approved ``Brussels Regulation,'' which allows online 
consumers to settle disputes in the courts of their country of 
residence, as is the case for online consumers who are resident in the 
U.S.
    The commission has also recognized the need for introducing credit-
card charge-back systems in Europe. Online consumers using credit cards 
in Europe aren't able to call on card companies to mediate in the case 
of a dispute with an online supplier, as in the U.S. The charge-back 
system has given a major boost to the credit-card sector in the U.S., 
according to Mr. Byrne, who has had contacts with credit-card issuers 
to look at promoting the system in Europe.
    But privacy remains a major concern to online consumers. A survey 
by American Express Co., covering 10 countries, found 79% of the 
financial-services company's clients considered privacy and security as 
major issues in online shopping.
Unwanted E-Mail
    The scale of the problem is indicated by the volume of unwanted e-
mail dispatched over the Internet. The abuse of private data feeds the 
turnover of unsolicited e-mail messages, and is expected to cost 
Internet users 10 billion euros ($9.2 billion) world-wide this year, 
according to figures just released by the commission, which is also 
preparing regulations for this area. America Online estimates that one 
third of the e-mail messages arriving on its servers are unwanted.
    The balance between consumer protection and marketplace freedoms 
that both the EU and the U.S. say they are seeking--though with 
different approaches--is exemplified in the Safe Harbor certification 
scheme for U.S. companies willing to Comply with EU Privacy laws in 
their dealings with EU clients. Companies that don't adhere to the 
Department of Commerce Plan could find themselves facing court cases in 
Europe over private-data abuse.

    Mr. Stearns. I thank my colleague, and just for members' 
information, we have a copy of that study. If anybody on the 
committee would like it, we would be glad to provide that to 
them.
    Ms. Eshoo?
    Ms. Eshoo. Thank you, Mr. Chairman, and as you are talking 
about copies of things, it might be well for the committee 
staffs on the majority and minority sides of the aisle to 
provide for the new members a copy of or summaries of the 
copies of the testimony of the Federal Trade Commission when 
they gave testimony in 1999 and then last year before our 
subcommittee, because it is highly instructive about what they 
found and how they changed their minds, and I think new 
members, wherever you land on this, would really benefit for 
it.
    So I would ask for unanimous consent that that be provided 
for our members.
    Mr. Stearns. I was advised by counsel: this whole thing is 
on the FTC Website. So, I mean, we are welcome to put this in 
by unanimous consent, but I think any member, if he or she 
would like, they can just go on the Website and read it, and 
they can go back to 1999 and get that testimony.
    Ms. Eshoo. What? The testimony that they gave?
    Mr. Stearns. The testimony.
    Ms. Eshoo. Good; well, I just wanted to make that 
suggestion.
    Thank you for holding this hearing and for promptly 
initiating our discussion and a debate on the issue of privacy. 
The right to privacy is really so highly valued by all 
Americans. I always say to my staff that I think privacy runs 
through the veins of the American people. We have a healthy 
suspicion of government and Big Brother. We don't want anyone 
and are resentful of anyone ever looking over our shoulders 
into anything that we believe just belongs to us, to ourselves.
    I speak as an American whose privacy I really think was 
highly violated when, 2 years ago, I found that someone had not 
only gotten my Social Security number but had filed a 
fraudulent tax return in my name. So if you don't think that 
you're vulnerable to something out there, there are stories 
that can go on and on. And it really brings home very, very 
quickly what can be done today because of so many of our 
successes and our breakthroughs relative to technology. But, 
boy, when it hits the human being, it still has the same 
effect.
    So I think that the Congress is poised today or should be 
poised today not only in the examination of this issue but also 
to take the right kind of action. This right that Americans 
have has evolved through the years of judicial examination and, 
indeed, civic demand, because again, this is an all-American 
idea and right.
    Now, we are in the midst of the information revolution, and 
the parameters have certainly changed. We are faced with 
complex issues, such as finding the correct balance between the 
protection of our personal information and the level of freedom 
necessary for the Internet--because the Internet is different--
to continue to flourish so that we can continue enjoying its 
benefits. As both a personal communication tool and as an 
electronic marketplace for consumers and businesses, the 
Internet has become a significant part of the lives of 
Americans, and it will continue to in a much larger and 
profound way.
    So the privacy of the information that is exchanged is 
really very, very important to the continued expansion of the 
Internet. So obviously, we have to find a balance. Members have 
said that. Balance is a funny word in public policy, because 
what some people consider to be skewed, other people see it as 
just right.
    In January, January 20, when we had just a very small 
window of opportunity to introduce legislation, the day the new 
President was inaugurated, Representative Chris Cannon and 
myself introduced the Consumer Internet Privacy Enhancement 
Act. We obviously think that this is a prudent way to go. It 
establishes a floor, not a ceiling. It mirrors the Kerry-McCain 
legislation that was introduced in the Senate last year, and I 
believe the Senators will introduce that mirror legislation 
again.
    Our laws, I believe, need to catch up with and reflect 
where we are today. They should, in my view, require Website 
operators to provide clear and conspicuous notice of how they 
will use personal information. Moreover, consumers should then 
have the opportunity to make a choice as to whether they want 
to comply with the operator's stated use of their information. 
Websites that violate any of these protections should face 
rigorous penalties, and our bill addresses each of these needs.
    Today, for all of the new members, you know this of the 
committee, it is strictly a voluntary situation. So if someone 
wants to, fine. Now, the industry, I think, has moved, but the 
FTC found that there was a need for the Congress to step in. 
Still, as we protect consumer security, we have to also be sure 
that we don't legislate an impediment to the free flow of 
information across the Internet. That is what the Internet is 
all about. The Consumer Internet Privacy Enhancement Act 
addresses this factor as well.
    I want to just summarize and say, Mr. Chairman, that I look 
forward to being key in this debate and the shaping of 
legislation. I don't think there is Republican privacy and 
Democratic privacy. And I think if there is an area that this 
Congress can certainly--this subcommittee and our full 
committee--can come up with is something that consumers will 
hail and say they got it; they understood it; we now have 
protections that have some teeth in them. If, in fact, it is 
necessary to have the teeth to sink in; we also have fully 
recognized what the Internet represents: the free flow of 
information without damaging an individual and their privacy.
    So with these considerations in mind, I thank you once 
again, and if I have any time left, I yield it back. And thank 
you to the witnesses. We have a wealth of information in front 
of us. So thank you for being here to enlighten us.
    Mr. Stearns. I thank my colleague.
    Mr. Gordon?
    Mr. Gordon. Thank you, Mr. Chairman.
    This is an important issue. I am glad that you have 
targeted it as a high priority for this subcommittee, and I am 
confident that if we will work hard and listen to the advice of 
a lot of folks and try to put that through our system here that 
we are going to have a good bill that will find Anna's balance. 
Thank you for this hearing.
    [Additional statements submitted for the record follow:]

PREPARED STATEMENT OF HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF NEW YORK

    Thank you Mr. Chairman for holding this hearing on one of the most 
important issues under the Subcommittee's jurisdiction--the issue of 
PRIVACY.
    I also want to join my good friend from Florida in welcoming the 
witnesses on the panel today, and I look forward to hearing their 
testimony.
    Over the past several years, my constituents have become more and 
more interested and concerned about personal privacy protections. While 
I personally believe that the diversity of views and the complexity of 
this issue could make it difficult for us to pass a ``one size fits 
all'' policy, I do believe that we need to address the perceived or 
real fears people have with respect to privacy. Mr. Chairman, I also 
believe we need to act this Congress in the most deliberate and 
responsible way possible.
    Recently, I read an account in the press where an industry leader 
said that we in society have no privacy anyway and that we should just 
``GET OVER IT.'' That is an unacceptable view in my mind and one that 
does not sit well with my constituents. Privacy protection is not only 
very important but very necessary as well.
    I would like to encourage my friends who see privacy as a 
burdensome issue to look at this process as a new opportunity for 
increased consumer confidence and trust in your businesses. Every 
consumer who participates in the new economy has privacy concerns on 
one level or another. I look forward to working with the involved 
parties to ensure that the rights and responsibilities of consumers are 
balanced with those of business.
    Privacy should and needs to be at the top of every company's 
priority list. It should be noted that more than one expert on this 
topic has called privacy not a social or moral issue, but the single 
most important business decision a company can make today.
    We in Congress acted in a bipartisan fashion in 1996 when we 
mandated that Congress pass a sweeping medical records privacy bill by 
1999. This goal was not met and so the Clinton Administration had the 
responsibility to write the HIPPA regulations at the end of last year. 
Some in the Healthcare industry have been critical of the new 
regulations, stating that the bar has been set too high and have 
lobbied the new administration to re-open the regulation writing 
process. I believe that this would be a grave mistake in judgment by 
the administration. People need to be given complete control over their 
personal medical records and now is not the time to turn back the 
clock.
    In closing, it is critical that we act in moderation as we delve 
into this issue. I do not want to see premature, knee-jerk legislation 
pass just so that we can all go home and say we did something that may 
turn out to be the wrong decision a week, a month or a year from now. 
If we are going to pass legislation on this issue, lets be sure to get 
it right--THE FIRST TIME. Again, I look forward to hearing from all of 
our witnesses today, and I yield back the balance of my time.
                                 ______
                                 
PREPARED STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN CONGRESS 
                       FROM THE STATE OF ILLINOIS

    Mr. Chairman, thank you for holding this important hearing on 
privacy in the commercial world. This subject is extremely far-reaching 
and complex and I am glad to see that we have such an esteemed panel of 
experts here before us. However, before turning it over to the panel, I 
would like to express my concern over one area which seems to be 
attracting greater and greater attention lately: medical privacy.
    As we are all aware, the previous administration issued final 
regulations last December which would protect the privacy of an 
individual's medical records from undue intrusion. Those regulations 
have been re-opened for comment for 30 days by the current 
administration.
    While we may disagree on how to protect the privacy of medical 
records, I think we can all agree on the over-arching need for medical 
privacy.
    With recent advances in medical technology, such as the mapping of 
the human genome, it has become increasingly evident that the privacy 
of one's medical records is the best defense against genetic 
discrimination. Since we all can agree on the need for medical privacy, 
I think it is important to discuss how we can obtain that goal without 
overburdening the health care community responsible for providing care 
or establishing a system without adequate enforcement mechanisms such 
as a private right of action. I look forward to working with my 
colleagues to ensure that whatever action is taken on the medical 
privacy regulations, it strikes a balance between operational 
feasibility for providers and health care facilities and protection of 
our most sensitive information.

    Mr. Stearns. I thank my colleagues. We are ready for our 
panel, the first panel we have and only panel. We have 
Professor Fred Cate, professor of law, Indiana University 
School of Law; we have Professor Eugene Volokh, professor of 
law, UCLA School of Law; Professor Paul Rubin, professor of law 
and economics, Emory University School of Law; Ms. Solveig 
Singleton, senior policy analyst at the Competitive Enterprise 
Institute; Mr. Marc Rotenberg, executive director, Electronic 
Privacy Information Center; and Professor Chai Feldblum, 
professor of law at Georgetown University Law School.
    I welcome all of you here, and we look forward to your 
opening statements, which, as you understand, are generally 5 
minutes.
    Professor Cate?

     STATEMENTS OF FRED H. CATE, PROFESSOR OF LAW, INDIANA 
UNIVERSITY SCHOOL OF LAW; EUGENE VOLOKH, PROFESSOR OF LAW, UCLA 
 LAW CENTER; PAUL RUBIN, PROFESSOR OF LAW AND ECONOMICS, EMORY 
  UNIVERSITY SCHOOL OF LAW; SOLVEIG SINGLETON, SENIOR POLICY 
  ANALYST, COMPETITIVE ENTERPRISE INSTITUTE; MARC ROTENBERG, 
EXECUTIVE DIRECTOR, ELECTRONIC PRIVACY INFORMATION CENTER; AND 
 CHAI R. FELDBLUM, PROFESSOR OF LAW, GEORGETOWN UNIVERSITY LAW 
                             CENTER

    Mr. Cate. Thank you very much, Mr. Chairman, members of the 
committee.
    First, let me thank you both for the opportunity to be here 
but especially for holding a hearing such as this. It is really 
quite remarkable to have the chance to be part of the hearing 
where there isn't a particular bill on the table and in an area 
as complex as privacy in which the ramifications of regulating 
too much or too little are so great. The opportunity to look at 
the issue in its entirety, without breaking it into some small 
subset, some particular area, is particularly appropriate. So I 
am very grateful for that.
    Let me also acknowledge your courage in organizing a panel 
of primarily law professors, people who, for our very 
livelihood, never answer a question. This will be an 
interesting change for us today. In fact, we, of course, 
normally ask them.
    I would like to make just three points today in order to 
stay within the time limit; first, to talk about the critical 
roles that information plays in our economy and our society; 
second, the extent to which privacy laws inevitably are in 
tension with those roles. Many of you and many other people 
have noted that they would like privacy laws that did not 
interfere with the flow of information, and those just don't 
exist. The question is how you draw that balance, how you 
balance that tension between the two. And finally, I would like 
to speak just briefly about some of the limits of consent; that 
consent is not a way out of this dilemma; consent often, 
instead, exacerbates this dilemma.
    So to start first with what I have called the information 
infrastructure, it merely recognizes what I believe the Federal 
Reserve Board and many others have testified before this 
committee and others repeatedly: that the accessibility of 
personal information has created a profound transformation of 
commerce and the economy in this country. Commerce now depends 
increasingly on complete, objective and reliable information, 
and the accessibility, the availability of that information 
makes it possible to treat consumers as individuals, not as 
groups. It makes it possible to target services to their 
specific needs, and it makes it possible to evaluate them for 
service based on their own records, not on their race or gender 
or who they know or what they have access to but rather their 
own demonstrated record in the market.
    Now, although I have included in my written testimony 
numerous examples of this, let me suggest just two now. One is, 
of course, the whole market for consumer credit, where we see 
in this country, unlike in Europe, which does have restrictive 
privacy laws, much wider availability of credit; much faster 
granting of credit; and much cheaper credit, credit available 
at much lower costs. This is, of course, because information 
about consumers is routinely collected, subject to Federal law. 
It is available so that when a decision needs to be made, it 
does not have to be put together from scratch; and it is 
available in a reliable form, so that lenders do not have to 
insure themselves against bad information or missing 
information as they do in Europe and therefore charge higher 
interest rates, fees or other charges.
    Now, maybe a second example of this use of information is, 
of course, the ability to target interested consumers, and you 
may wonder why anyone in their right mind would ever speak to 
Congress about what you are certainly going to interpret as 
junk mail. But the irony is that the argument that information 
should not be available for targeting marketing opportunities 
to consumers means not less junk mail but, of course, more and 
not less satisfying--not more satisfying communications but 
less, because they will not have been targeted; they will not 
reflect that consumer's likely interest.
    I dare say not one of you here or many people elsewhere in 
the Congress or in State legislatures have ever run a campaign 
without contacting people based on knowing what party they 
belong to; what their likely interest, their likely past 
donating record has been. This is precisely the type of 
information that makes it possible to communicate efficiently 
and effectively with individuals.
    Now, against these and many other benefits, we have the 
privacy tension, the tension that if information is not 
available or it cannot be used, then it is inevitably going to, 
as one State attorney general put it, interfere with 
information flows and cause consumers to pay the price in terms 
of either higher prices or a restricted set of choices offered 
to them in the market. This is the inevitable effect of this 
tension. There is no way around it.
    This leads, then, to the third and final point on the limit 
of consent, because we have heard the argument many times in 
the privacy debate that all we are seeking in privacy law is 
that consumers be given a chance to consent. But there are many 
reasons why consent does not alleviate these concerns; for 
example, the difficulty of obtaining consent; the difficulty, 
in many instances, of even reaching consumers, particularly 
when the information flow, as in the credit example, is largely 
among parties whom the consumer may not directly see; the cost 
of reaching consumers; and also the fact--and one that is often 
overlooked--that many uses of information are interrelated. So 
if we want information available for, say, fraud detection and 
crime detection, the way the cost of that is often borne is by 
other users who use that information for other purposes. If you 
eliminate those other purposes, you inevitably affect the 
availability of that information for those purposes.
    I see my time is up, so I will stop.
    [The prepared statement of Fred H. Cate follows:]

   PREPARED STATEMENT OF FRED H. CATE, DIRECTOR, INFORMATION LAW AND 
          COMMERCE INSTITUTE, INDIANA UNIVERSITY SCHOOL OF LAW

     Mr. Chairman: My name is Fred Cate, and I am a professor of law 
and director of the Information Law and Commerce Institute at the 
Indiana University School of Law in Bloomington. For the past 12 years, 
I have researched, written, and taught about information laws issues 
generally, and privacy law issues specifically. I directed the 
Electronic Information Privacy and Commerce Study for the Brookings 
Institution, served as a member of the Federal Trade Commission's 
Advisory Committee on Online Access and Security, and currently am a 
visiting fellow, addressing privacy issues, at the American Enterprise 
Institute.
    I appreciate the opportunity to testify today and, more 
importantly, I want to acknowledge you and the Members of the 
Subcommittee for holding such a broad hearing on the subject of 
``Privacy in the Consumer World.'' It is a rare pleasure to participate 
in a hearing that is not restricted to a particular bill or event, but 
rather inquires widely about the uses of personal information, the need 
for further legislation, and the potential impact of adopting new 
privacy laws. Such an open-minded approach in an area as complex and 
important as privacy is desperately needed, and I applaud your 
leadership in providing it.
    I would like to take advantage of the presence of the other 
distinguished members on this panel, who I believe will address a 
number of the issues posed by privacy laws, and limit my testimony to 
three points: the critical roles that information plays in our economy 
and society; the extent to which privacy laws inevitably interfere with 
the benefits that consumers enjoy as a result of accessible personal 
information; and the ways in which requiring consumer ``consent'' 
exacerbates, rather than ameliorates, the harmful impact of many 
privacy laws on consumers.

                   1. THE INFORMATION INFRASTRUCTURE

    Information is the lifeblood of our 21st century economy. In the 
words of the Federal Reserve Board: ``[I]t is the freedom to speak, 
supported by the availability of information and the free-flow of data, 
that is the cornerstone of a democratic society and market economy.'' 
\1\ These simple words reflect a profound transformation: Consumers are 
increasingly evaluated today according to more complete, objective, and 
reliable information about them than was ever before possible. As a 
result, consumers can now expect--and the law can meaningfully 
require--that they be treated as individuals and judged on their own 
records, not by their race, gender, who they know, or other subjective 
prejudices. This is the result of the information revolution: Routine, 
comprehensive information collection has contributed to unprecedented 
prosperity, and allows more Americans than ever before to share in that 
prosperity, and to do so on a more equitable basis. Consider the 
following examples of benefits that this ``information infrastructure'' 
makes possible.
---------------------------------------------------------------------------
    \1\ Board of Governors of the Federal Reserve System, Report to the 
Congress Concerning the Availability of Consumer Identifying 
Information and Financial Fraud 2 (1997).
---------------------------------------------------------------------------

a. Expanding the Availability, Enhancing the Speed, and Lowering the 
        Cost of Consumer Credit
    The routine sharing of reliable, standardized personal information 
has greatly expanded the availability, increased the speed, and reduced 
the cost of consumer credit. So, for example, when a consumer applies 
for a mortgage, car loan, or instant credit, the lender makes its 
decisions about whether, how much, and on what terms to lend based on 
information collected from a wide variety of sources over time. The 
lender can have confidence in that information because it has been 
assembled routinely--not just for the purpose of one loan application--
and presents a complete picture of the borrower's financial situation--
not just one moment in time or information from just a selective sample 
of the businesses with which the borrower deals. Because of that 
confidence, lenders provide more loans to a wider range of people than 
ever before. Between 1956 and 1998, the number of U.S. households with 
mortgage loans more than trebled. The same trend is true for credit 
card products; today, the average American adult carries 13 credit 
cards.
    Consumers benefit by obtaining the funds they need to buy homes and 
cars and finance educations. The ``almost universal reporting'' of 
personal credit histories, in the words of economist Walter Kitchenman, 
is the ``foundation'' of consumer credit in the United States and a 
``secret ingredient of the U.S. economy's resilience.'' \2\ In 
addition, because the necessary information does not have to be 
collected from scratch, loan applications are reviewed and approved 
faster than ever before. In 1997, 82% of automobile loan applicants 
received a decision within an hour; 48% of applicants received a 
decision within 30 minutes.\3\ Many retailers open new charge accounts 
for customers at the point of sale in less than two minutes. This is 
unheard of in countries where restrictive laws prevent credit bureaus 
and other businesses from routinely collecting the information on 
consumer activities required to maintain the accurate, up-to-date files 
necessary to support rapid and accurate decision making.
---------------------------------------------------------------------------
    \2\ Walter F. Kitchenman, U.S. Credit Reporting: Perceived Benefits 
Outweigh Privacy Concerns 1 (The Tower Group 1999).
    \3\ Consumer Bankers Association, 1998 Automobile Finance Study at 
19.
---------------------------------------------------------------------------
    The greater accuracy, speed, and efficiency of the credit system, 
and the greater confidence of lenders also drives down the cost of 
credit. Lenders don't have to charge higher interest rates and fees to 
guard against bad or missing information. And it is easier for lenders 
to pool loans according to risk and sell them in the secondary market--
a process known as ``securitization.'' This makes more capital 
available for new loans and further reduces the cost of credit in the 
United States by an estimated $80 billion per year for mortgages 
alone.\4\ Most importantly, consumers benefit from the knowledge that 
loan decisions will now be based on their own financial situation, not 
on local biases or prejudices. Readily available, standardized personal 
information not only makes this possible, it also facilitates easy 
analysis of lender compliance with fair lending laws.
---------------------------------------------------------------------------
    \4\ Kitchenman, supra, at 7.
---------------------------------------------------------------------------

b. Identifying and Meeting Consumer Needs
    Businesses use personal information to identify and meet customer 
needs. According to Federal Reserve Board Governor Edward Gramlich: 
``Information about individuals' needs and preferences is the 
cornerstone of any system that allocates goods and services within an 
economy.'' The more such information is available, he continued, ``the 
more accurately and efficiently will the economy meet those needs and 
preferences.'' \5\ In short, information-sharing allows businesses to 
ascertain customer needs accurately and meet those needs rapidly and 
efficiently. Detailed consumer information is at the heart of new 
individualized offerings that provide each customer with the 
recognition and personalized service that she desires.
---------------------------------------------------------------------------
    \5\ Financial Privacy, Hearings before the Subcomm. on Financial 
Institutions and Consumer Credit of the House Comm. on Banking and 
Financial Services, July 21, 1999 (statement of Edward M. Gramlich).
---------------------------------------------------------------------------

c. Enhancing Customer Convenience and Service
    Information-sharing also enhances customer convenience and service. 
For example, many services are provided through a myriad of companies. 
A customer may have a checking account, a savings account, a credit 
card, and an investment account all with the same bank, but the four 
services will likely be provided by four completely separate 
affiliates. The customer's checks will be printed by a separate company 
altogether. Billing for the credit card may be handled by still another 
company. Because of information-sharing, the customer can deal with all 
six entities as if they were one. Her high savings balance may be used 
to qualify her for free checking. Overdrafts on her checking account 
can be covered automatically with her credit card. She can call one 
customer service number with questions, and if her credit card or 
checks are stolen, a single call is all that is needed to protect all 
of her accounts.
    Many retailers provide specialty services and products, such as 
fine jewelry, photographic studios, vision services, hair care, and 
product repair or installation through independent companies that 
license the retailer's name, but are not the retailer's affiliates. 
This approach is required because of the nature of the service, 
efficiencies that come with specialization, insurance factors, and 
federal and state tax and licensure laws. Due to routine information-
sharing, these independent companies provide services to customers 
under the retailer's name, accept the retailer's credit card, include 
information and coupons in the retailer's mailings and advertisements, 
participate in the retailer's loyalty programs, and, from a customer 
perspective, are simply another department of the retailer's 
operations.

d. Targeting Interested Consumers
    Information-sharing also allows consumers to be informed rapidly 
and at low cost of those opportunities in which they are most likely to 
be interested. As a result, information on second mortgages and home 
improvement services can be targeted only to home owners. Information 
on automotive products and services are targeted only to car owners. 
The American Association of Retired People can target its offers only 
to older Americans, veteran's organizations can appeal only to people 
who have served in the armed forces, and political campaigns can target 
their solicitations to registered members of their party.
    In the absence of information-sharing, these organizations either 
(1) could not afford to communicate with potential customers or 
members, or (2) they must contact even more households--meaning more 
unsolicited mail, e-mail, and telephone calls--to find people 
interested in their offer. The first alternative would mean the death 
of many organizations. In fact, the cost of alerting consumers about a 
new product or opportunity can be a major obstacle to the launch of new 
businesses and prevent innovative products from ever reaching the 
marketplace. The second alternative means that the public is peppered 
with more mail, e-mail, and telephone calls, a higher percentage of 
which will be of no interest to the recipient. This would truly be 
``junk mail,'' because it would have been generated without regard for 
the recipient's demonstrated interests. Targeting marketing to consumer 
interests lowers the volume, cost, and environmental impact of that 
marketing while increasing consumer satisfaction.

e. Promoting Competition and Innovation
    Information-sharing is especially critical for new and smaller 
businesses, which lack extensive customer lists of their own or the 
resources to engage in mass marketing to reach consumers likely to be 
interested in their products or services. This may help explain why 
some large European national banks and industrial concerns supported 
new privacy laws there: By restricting the availability of information 
about their customers, privacy laws help to protect established 
businesses from competition from other countries or start-ups. Open 
access to third-party information and the responsible use of that 
information for targeted marketing is essential to level the playing 
field for new market entrants.
    Similarly, businesses offering specialized products and services 
rely on accessible information to help them identify and reach those 
customers most likely to be interested in their offerings, wherever 
those customers are located. Many businesses in today's markets never 
see their customers because transactions are conducted exclusively by 
telephone, Internet, or mail. These businesses are able to serve the 
needs of potential customers they have never met because of the free 
flowing information that allows them to identify who those likely 
customers are. In a global market, information-sharing is key to 
connecting far-flung customers and businesses.

f. Preventing and Detecting Fraud
    Another key use of personal information is to prevent and detect 
fraud. More than 1.2 million worthless checks are cashed at retailers, 
banks, and other U.S. businesses every day, accounting for more than 
$12 billion in annual losses.\6\ Treasury Department officials 
estimated that credit card fraud losses would be between $2 billion and 
$3 billion in 2000.\7\ The insurance industry paid $24 billion--10% of 
all claims--in 1999 for fraudulent property and casualty claims.\8\ The 
GAO found that Medicare made improper payments of $13.5 billion in 
fiscal year 1999 alone, and has estimated that health care fraud 
accounts for up to 10% of national health care spending each year.\9\ 
Across the economy, business losses due to all forms of document fraud 
and counterfeiting exceed $400 billion--6% of annual revenue of 
American businesses--per year.\10\ Although businesses paid for 
virtually all of these losses, they ultimately affect consumers through 
higher prices, inconvenience, and lost time and productivity.
---------------------------------------------------------------------------
    \6\ Barry Flynn, ``In Search of Security, Some Banks Are Giving the 
Thumbs up to Fingerprinting New Customers,'' Orlando Sentinel, March 
2000, at B1; Steven Marjanovic, ``Banks Tap ATM Systems To Banish 18B 
Checks,'' American Banker, June 14, 2000, at 1.
    \7\ Gary Fields, ``Victims of Identity Theft Often Unaware They've 
Been Stung,'' USA Today, March 15, 2000, at 6A (quoting Undersecretary 
James Johnson of the U.S. Treasury Department).
    \8\ ``Insurance Fraud,'' III Insurance Issues Update, Oct. 2000.
    \9\ General Accounting Office, Medicare Improper Payments: While 
Enhancements Hold Promise for Measuring Potential Fraud and Abuse, 
Challenges Remain (GAO/AIMD/OSI-00-281) at 4 (2000).
    \10\ Association of Certified Fraud Examiners, Report to the Nation 
on Occupational Fraud and Abuse <http://www.cfenet.com/newsandfacts/
fraudfacts/reporttothenation/reportsection4.shtml>.
---------------------------------------------------------------------------
    Personal information is one of the most effective tools for 
stemming these losses. Such information is used every day to identify 
consumers cashing checks and seeking access to accounts. Close 
monitoring of account activity also allows credit providers, insurance 
companies, and other businesses to recognize unusual behavior that may 
indicate that someone is using a credit card or debit card without 
authorization or making improper claims. Moreover, because of 
information-sharing, companies share alerts about lost or stolen credit 
or debit cards and information about fraud schemes so that they can 
prevent further losses and improve the odds of apprehending the thief.
g. Informing the Electorate and Protecting the Public
    Personal information is also used for a wide variety of purposes 
central to democratic self-governance and protecting public health and 
safety. For example, information is used to elect and monitor public 
officials and to facilitate public oversight of government employees 
and contractors. The Supreme Court has found that these uses are so 
critical that it has virtually eliminated any recourse by public 
officials or public figures for the publication of true information, 
even if defamatory or highly personal.\11\
---------------------------------------------------------------------------
    \11\ Monitor Patriot Co. v. Roy, 401 U.S. 265 (1971).
---------------------------------------------------------------------------
    Law enforcement officials rely on collected personal information to 
prevent, detect, and solve crimes. Journalists and other researchers 
use accessible information to inform the public about matters of public 
importance. Personal information is also used for product safety 
warnings and recall notices, such as when Firestone and Ford Motor 
Company used databases to identify and obtain current addresses for 
people who own recalled Firestone tires.
    Medical researchers rely heavily on personal information to conduct 
``chart reviews'' and perform other research that is critical to 
evaluating medical treatments, detecting harmful drug interactions, 
uncovering dangerous side effects of medical treatments and products, 
and developing new therapies. Such research cannot be undertaken with 
wholly anonymous information, because the detailed data that 
researchers require will always include information that could be used 
to identify a specific person, and when that information indicates that 
a given therapy or drug poses a real health risk, researchers must 
notify the affected individuals.
    Even information as mundane as citizen addresses is used to locate 
missing family members, owners of lost or stolen property, organ and 
tissue donors, and members of associations and religious groups and 
graduates of schools and colleges; and to identify and locate suspects, 
witnesses in criminal and civil matters, tax evaders, and parents who 
are delinquent in child support payments. (This same information is 
used to help verify the identity of consumers who apply for instant 
credit, begin new utility service, or seek other valuable products and 
services.)
    These examples are not exhaustive; they are mere illustrations of 
the extent to which personal information constitutes part of this 
nation's essential infrastructure, the benefits of which are so 
numerous and diverse that they impact virtually every facet of American 
life.

                         2. THE PRIVACY TENSION

    All of the benefits outlined above flow from readily accessible 
information about consumers. To provide those and other benefits, 
access to data is essential. Laws and regulations designed to protect 
privacy interfere with that access and therefore with the benefits that 
result from open information flows. As a result, those laws--although 
motivated by the best of intentions--inevitably harm consumers. In the 
words of one state Attorney General, because privacy laws interfere 
with information flows, consumers ultimately pay the price for those 
laws ``in terms of either higher prices for what they buy, or in terms 
of a restricted set of choices offered them in the marketplace.'' \12\ 
But the harm to consumers is also experienced through reduced 
convenience and service, an increased number of less well-targeted 
commercial solicitations, limited competition and innovation, and even 
diminished public health and safety.
---------------------------------------------------------------------------
    \12\ Bill Pryor (R-Ala.), Protecting Privacy: Some First 
Principles, Remarks at the American Council of Life Insurers Privacy 
Symposium, July 11, 2000, Washington, DC, at 4.
---------------------------------------------------------------------------

                        3. THE LIMITS OF CONSENT

    Proponents of new privacy laws often argue that these costs can be 
avoided because most privacy laws do not block information flows 
outright, but rather condition them on consumer consent. This reflects 
the recent dominant trend in privacy legislation--to invest consumers 
with near absolute control over information, what Alan Westin, in his 
path-breaking study Privacy and Freedom, described as ``the claim of 
individuals, groups, or institutions to determine for themselves when, 
how, and to what extent information about them is communicated to 
others.'' \13\ The National Association of Attorneys General's December 
2000 draft statement on Privacy Principles and Background sets forth as 
its core principle: ``Put simply, consumers should have the right to 
know and control what data is being collected about them and how it is 
being used, whether it is offline or online.'' \14\ And virtually all 
of the privacy bills pending before Congress reflect this goal: ``To 
strengthen control by consumers'' and ``to provide greater individual 
control.'' \15\
---------------------------------------------------------------------------
    \13\ Alan F. Westin, Privacy and Freedom 7 (1967).
    \14\ National Association of Attorneys General, Draft Statement on 
Privacy Principles and Background at 7 (Dec. 11, 2000) (emphasis 
added).
    \15\  S. 30, 107th Cong. Sec. 2 (2001); H.R. 89, 107th Cong. 
Sec. 2(b)(1) (2001); H.R. 347, 107th Cong. Sec. 2(b)(1)(A) (2001) 
(emphasis added)
---------------------------------------------------------------------------
    As a result, proponents of privacy laws argue that the costs of 
these laws can be avoided, because if consumers are persuaded that they 
benefit from information flows, they will consent to the collection and 
use of information about them. The simple, straightforward nature of 
this argument has made it very powerful. However, in addition to 
conflicting with Supreme Court precedent on the ownership of 
information \16\ and the protection of expression, \17\ this approach 
ignores the practical difficulty and burden to consumers of attempting 
to exercise control over the vast amount of data that they generate and 
disclose about themselves in a increasingly networked economy, and 
ignores the many powerful reasons why society permits access to 
information about others.
---------------------------------------------------------------------------
    \16\ See, e.g., United States v. Miller, 425 U.S. 435 (1976).
    \17\ See, e.g., Martin v. Struthers, 319 U.S. 141 (1943); Lamont v. 
Postmaster General, 381 U.S. 301 (1965); Denver Area Educational 
Telecommunications Consortium, Inc. v. Federal Communications Comm'n, 
518 U.S. 727 (1996).
---------------------------------------------------------------------------

a. Unanticipated Benefits
    The benefits of personal information are often unanticipated. For 
example, many retailers collect information about consumer purchases 
and then access that information so that consumers can return 
merchandise without a receipt, order supplies and replacement parts 
without knowing the exact model number or specific product information, 
obtain information about past purchases for insurance claims when fire 
or other disasters destroy or damage those goods, and receive immediate 
notification about product recalls and other safety issues. These are 
tangible benefits that many consumers take advantage of every day, but 
few consumers would anticipate in advance that they were going to need 
information about a past transaction for insurance purposes or to order 
replacement parts. The benefit is exceptionally valuable when it is 
needed, but often illusory before that time.

b. Lack of Consumer Contact
    Many benefits result from uses of personal information that do not 
involve the consumer directly. For example, credit bureaus update 
consumer credit files--the files that are used to obtain rapid, low 
cost access to credit of all forms--without ever dealing directly with 
the consumer. In fact, few Americans will ever deal directly with a 
credit bureau. To require the credit bureau to establish contact with 
the consumer every time it needed to collect or use information about 
him or her would be expensive and burdensome to the consumer. 
Similarly, most mailing lists are obtained from third parties, not the 
people whose names are on the list. For a secondary user to have to 
contact every person individually to obtain consent to use the 
information would cause delay, require additional contacts with 
consumers, and increase costs.

c. Value of Standardized and Third-Party Information
    There are many beneficial uses of personal information where the 
benefit, frankly, is derived from the fact that the consumer has not 
had control over the information. This is certainly true of credit 
information: Much of its value derives from the fact that the 
information is obtained routinely, over time, from sources other than 
the consumer. Allowing the consumer to block use of unfavorable 
information would make not only that credit report useless, but all 
others, because lenders, merchants, employers, and others who rely on 
credit reports would not know which ones contained only selective 
information. Even when information is not particularly ``positive'' or 
``negative,'' its value may depend on it being complete. Many 
businesses monitor accounts for suspicious activity that may indicate 
fraudulent activity. Often credit card companies will call a card 
holder whose account has experienced unusual charges to verify that the 
card has not been stolen. Identifying the unusual requires knowing what 
is usual and that, in turn, requires access to a complete set of data.

d. Consumer Preferences
    Most consumers do not want to be deluged with repeated requests for 
consent. The ultimate result is that consumers will either not consent, 
and thereby diminish the benefits that flow from information-sharing 
both for themselves and others, or they will consent to everything, 
just to avoid further calls, letters, and e-mails. The Los Angeles 
Times reported in December 1999 that banking customers are 
understandably ``irritated if the bank fails to inform them that they 
could save money by switching to a different type of checking 
account.'' As the newspaper noted, however, ``to reach such a 
conclusion, the bank must analyze the customer's transactions.'' \18\ 
One major U.S. bank reported that its customers who participated in a 
test of various privacy policies were annoyed at the very idea of being 
contacted by the bank to obtain permission to contact them again in the 
future to offer selected opportunities. Customers expected that the 
bank would use their information to offer them appropriate offers. The 
last thing they wanted was another phone call or letter asking 
permission to do what they perceived to be the very foundation of their 
relationship with the institution.
---------------------------------------------------------------------------
    \18\ Edmund Sanders, ``Your Bank Wants to Know You,'' Los Angeles 
Times, Dec. 23, 1999, at A1.
---------------------------------------------------------------------------

e. The Practical Obstacles to Consumer Contact
    Conditioning use of personal information on specific consent may 
also harm consumers because of the practical difficulties of reaching 
them. Consider the experience of U.S. West, one of the few U.S. 
companies to test an ``opt-in'' system. To obtain permission to utilize 
information about its customer's calling patterns (e.g., volume of 
calls, time and duration of calls, etc.), the company found that it 
required an average of 4.8 calls to each customer household before they 
reached an adult who could grant consent. In one-third of households 
called, U.S. West never reached the customer, despite repeated 
attempts. Consequently, many U.S. West customers received more calls, 
and one-third of their customers were denied opportunities to receive 
information about valuable new products and services.\19\
---------------------------------------------------------------------------
    \19\ Brief for Petitioner and Interveners at 15-16, U.S. West, Inc. 
v. Federal Communications Comm'n, 182 F.3d 1224 (10th Cir. 1999) (No. 
98-9518).
---------------------------------------------------------------------------

f. The Cost of Obtaining Consent
    There is always a price to obtaining consent and recent experience 
has shown that those costs are often quite significant. For example, 
the privacy provisions of the Gramm-Leach-Bliley Financial Services 
Modernization Act require financial institutions to ``clearly and 
conspicuously'' provide customers with a notice about its policies and 
practices for disclosing personal information and informing customers 
about their right to ``opt-out'' of certain sharing of that 
information.\20\ That disclosure must be made ``[a]t the time of 
establishing a customer relationship with a consumer and not less than 
annually during the continuation of such relationship.'' \21\ By July 
1, 2001, approximately 40,000 financial institutions will be sending as 
many as 2-5 billion notices to their various customers. Households will 
receive an average of 20 or more notices each. Printing and mailing 
costs alone will run into the billions of dollars. Internal compliance 
costs are certain to be much higher.
---------------------------------------------------------------------------
    \20\ Gramm-Leach-Bliley Financial Services Modernization Act tit.V, 
106 Pub. L. No. 102, 113 Stat. 1338 (1999) (codified at various 
sections of 15 U.S.C.).
    \21\ 15 U.S.C. Sec. 503(a).
---------------------------------------------------------------------------
    ``Opt-in'' systems cost even more. The Department of Health and 
Human Services calculates that compliance with its recently released 
Health Insurance Portability and Accountability Act privacy rules will 
cost $3.2 billion for the first year, and $17.6 billion for the first 
ten years.\22\ Based on the prior, less complicated draft of the rules, 
health care consulting companies have calculated that the cost will be 
much higher--between $25 and $43 billion (or three to five times more 
than the industry spent on Y2K) for the first five years for compliance 
alone, not including impact on medical research and care or liability 
payments.
---------------------------------------------------------------------------
    \22\ Standards for Privacy of Individually Identifiable Health 
Information, 65 Fed. Reg. 82,462 (2000) (HHS, final rule) (to be 
codified at 45 C.F.R. pt. 160, Sec. Sec. 164.502, 164.506).
---------------------------------------------------------------------------
    These costs are inevitably passed on to consumers. If the market 
will not bear the added cost, then these costs mean that the service or 
product will not be offered.

g. The Interconnectedness of Consent
    Many of the beneficial uses of information that consumers now enjoy 
depend on spreading the cost of collecting and maintaining the 
information for a variety of uses. For example, commercial 
intermediaries collect, organize, and make accessible to the public 
government records. Those records are used for countless socially 
valuable purposes: monitoring government operations, locating missing 
children, preventing and detecting crime, apprehending wanted 
criminals, securing payments from ``deadbeat'' parents and spouses, and 
many others. In fact, in 1998 the FBI alone made more than 53,000 
inquiries to commercial online databases for ``public record 
information'' that led to the arrest of 393 fugitives wanted by the 
FBI, the identification of more than $37 million in seizable assets, 
the locating of 1,966 individuals wanted by law enforcement, and the 
locating of 3,209 witnesses wanted for questioning.\23\ The Association 
for Children for Enforcement of Support uses information from public 
records, provided through commercial vendors, to locate over 75% of the 
parents they sought.\24\ Access to these records is possible, as well 
as convenient and inexpensive, precisely because commercial 
intermediaries assemble the information for such a wide variety of 
other uses. If the law restricted the other valuable uses of public 
records, or made those uses prohibitively expensive, then the data and 
systems to access them would not be in place for any use. In as much as 
the beneficial uses of information outlined above are interconnected, 
and often depend on common systems and spreading the cost of acquiring 
and managing data over many uses, consent-based laws may only create 
the illusion of consent, because they will lead to consumers having 
fewer opportunities made available to them to which they can consent.
---------------------------------------------------------------------------
    \23\ Hearings before the Subcomm. for the Departments of Commerce, 
Justice, and State, the Judiciary and Related Agencies of the Senate 
Comm. on Appropriations, March 24, 1999 (statement of Louis J. Freeh).
    \24\ Hearings before the House Committee on Banking and Financial 
Services, July 28, 1998 (statement of Robert Glass, Vice President and 
General Manager of the Nexis Business Information Group of Lexis-
Nexis).
---------------------------------------------------------------------------

h. Required Consent
    The opportunity for consent may also be illusory because many 
services or products cannot or will not be provided without personal 
information. HIPAA, for example, requires that physicians provide 
extensive disclosures and obtain explicit consent concerning 
information collection and use prior to treating a patient. If a 
patient wishes to be treated, she must consent. The law is effectively 
irrelevant, because the physician cannot treat the patient without 
information about his or her condition. Moreover, as a practical 
matter, signing the consent form is likely to become just another 
procedural hurdle, like signing an insurance authorization form, to 
getting in to see a doctor. Experience suggests that few people will 
shop for physicians based on information policies; rather, their 
decisions about from whom to seek service will be driven by price, 
location, insurance coverage, specialty, and other considerations. So 
the expense of crafting, providing, and storing consent forms will 
likely achieve little in terms of enhancing consumer choice or privacy.

i. Consumer Ignorance and Lethargy
    Finally, even if the request gets through to the intended adult 
recipient, the typical response to requests for consent to use personal 
information, to judge by the extensive experience of businesses and 
not-for-profit organizations, is that the customers will simply ignore 
them. Most unsolicited mail in this country is discarded without ever 
being read and most unsolicited commercial or fund-raising telephone 
calls are terminated by the consumer without the offer ever being made. 
It will not matter how great the potential benefit resulting from the 
information use, if the request is not read or heard, it cannot be 
acted on. Even where mail is actually read and the offer appeals to the 
consumer, lethargy and the competing demands of busy lives usually 
conspire to ensure that no action is taken. It is difficult to imagine 
that promises of potential future benefits from information use will 
command greater attention or activity.
    These considerations suggest that simply conditioning the use of 
personal information on specific consent is tantamount to prohibiting 
outright many beneficial uses of information, because of the cost of 
obtaining consent, the extent to which consent may undermine 
information's usefulness, the degree to which uses of information are 
interconnected, and the many impediments to consumers receiving and 
acting on the request, even when it is in their best interest to do so.

                               CONCLUSION

    The fact that information flows constitute a central part of our 
economic and social infrastructure, and that privacy laws--by 
interfering with those information flows--inevitably harm consumers and 
businesses, does not suggest that there is no role for the government 
or for law in protecting privacy. Far from it.
    The government plays many critical roles in helping to protect 
individual privacy. One of the most important responsibilities of the 
government is assuring that its own house is in order. Only the 
government has the power to compel disclosure of personal information 
and only the government operates free from market competition and 
consumer preferences. As a result, the government has special 
obligations to ensure that it complies with the laws applicable to it; 
collects no more information than necessary from and about its 
citizens; employs consistent, prominent information policies through 
public agencies; and protects against unauthorized access to citizens' 
personal information by government employees and contractors.
    Similarly, there are many steps that only the government can take 
to protect citizens against privacy-related harms, such as identity 
theft: Make government-issued forms for identification harder to 
obtain; make the promise of centralized reporting of identity thefts a 
reality; make it easier to correct judicial and criminal records and to 
remove permanently from one individual's record references to acts 
committed by an identity thief. The government alone has this power.
    Regulators and law enforcement officials should enforce existing 
privacy laws vigorously, and legislators should ensure that they have 
the resources to do so.
    The government should also help educate the public about privacy 
and the tools available to every citizen to protect her own privacy. 
Many privacy protections can only be used by individuals--no one else 
can protect their privacy for them. Yet few individuals will recognize 
the importance of their responsibility or have the knowledge to fulfill 
it without education.
    Finally, should you conclude that new laws or regulations are 
necessary, it is critical to identify and articulate clearly the 
purpose of the proposed privacy law or regulation, and whether it will 
in fact serve that purpose: In sum, what public benefit justifies the 
government's action? Only after having answered this question can the 
benefits of the proposed law or regulation be balanced against both the 
beneficial uses of information with which it interferes and the other 
costs of implementing and complying with the law. Armed with this 
information, you can then ask whether the law is worth its cost or 
whether there are other less intrusive, less expensive, or more 
effective tools for achieving the same purpose.
    I address these and related issues in greater detail in a report 
that will forthcoming soon from the American Enterprise Institute. 
Because that document is so directly responsive to the subject of this 
hearing, with your permission, I append the complete draft report to my 
testimony.
    Thank you again for the opportunity to testify.

    Mr. Stearns. Thank you.
    Professor Volokh?

                   STATEMENT OF EUGENE VOLOKH

    Mr. Volokh. Thank you. Mr. Chairman, members of the 
subcommittee, it is a great pleasure and honor to be invited to 
testify here. I will limit my remarks to the First Amendment 
questions posed by certain kind of privacy rules and will not 
speak to whether they are a good policy or bad policy but 
solely to the Constitutional questions.
    Why are there First Amendment problems involved here? I 
mean, isn't privacy sort of one of those wonderful, warm, fuzzy 
things that sort of everybody should be in favor of? Well, the 
right to control information about ourselves sounds very 
appealing until you realize that what it means, literally what 
it means is the right to stop others from speaking about us, 
the right to stop others from communicating about us.
    So let's look at what would happen if the right were taken 
to its logical conclusion, just read by its terms. If people 
had the right to control information about themselves, that 
means they could perhaps sue us if we gossip about them to our 
friends. They could sue newspapers, as some people have tried 
to do, if they publish information that for whatever reason the 
subject of the information doesn't like--accurate information, 
but still, it's information about them. If the subject has the 
right to control information about himself, he should be able 
to stop newspapers from reporting it or stop his business 
partners, people who have done business with him, discussing 
the outcome and the terms of that transaction.
    The right to control information about ourselves is the 
right to stop others from communicating this information, and 
whenever you start talking about rights to stop others from 
communicating, you run up against the First Amendment. In fact, 
people have talked about codes of fair information practices, 
and I would like to suggest that at least as to many kinds of 
practices, the First Amendment is our code of fair information 
practices, just as if you wanted to talk about a code of fair 
journalism practices or a code of fair political debate 
practices. You know, we're all in favor of fair journalism, of 
fair political debate, of fair information management. But in 
the case of fair journalism practices, of fair political debate 
practices, I would take it we would say it is not up to the 
Government to set up this code; this code already exists, and 
it is the First Amendment.
    It seems to me that the same is, in large measure, true 
about other kinds of communication of information. Just to give 
a couple of very brief examples of where this tension comes up, 
there is a case from California where California courts 
recognized the so-called disclosure tort, which really does 
give people control of information about themselves. There is a 
Reader's Digest article that was published about somebody who 
was an armed robber. Ten years before, he had engaged in armed 
robbery involving a gun battle with the police, but the courts 
allowed him to sue when Reader's Digest reported this fact in 
kind of a story saying, you know, here is a story from the past 
about this formerly notorious crime.
    The theory was, well, he has a right to privacy. And the 
court said, well, right-thinking people shouldn't want to know 
this information, and it used the term right-thinking people. 
And I submit that under the First Amendment, it is up to each 
of us to decide, using our own thinking, whether we want to 
know certain information and whether we want to communicate 
certain information that we have acquired, whether as a result 
of reading public records; a result of doing business with 
somebody; or as a result of talking to people about this 
person.
    Now, it seems to me, as I said, that similar things arise 
in the context of many--not all--some of the proposals that I 
think might be quite sound, but many cyberspace information 
privacy speech restrictions are, indeed, speech restrictions.
    Let me briefly make, I think, one distinction that I think 
is very important in this context, and that is between 
restrictions that merely enforce contracts, either expressed or 
implied contracts, and distinctions that go beyond that; that 
we do not have and should not have a right to control people 
from speaking about us, but we should have a right to insist 
that they keep their promises to us. So if somebody on their 
Website says I promise to keep your information private, it is 
certainly quite legitimate for the government, either through a 
normal contract lawsuit or through, perhaps, FTC action and 
such, to enforce that. It seems to me, again, there might be 
policy questions as to what the best way of doing it is, but it 
would be quite Constitutional.
    In certain situations, I think it is also legitimate for 
the government to say that we will infer a term, a privacy 
term, into the contract. I think that is how we can best 
understand things like attorney-client privilege and a variety 
of other such things; that when you go to an attorney, 
implicitly, the attorney is promising to keep certain 
information secret. And I think the government can establish 
these defaults in certain situations so long as the defaults 
are waiveable; so long as the person can say or the Website can 
say I stand on my rights as a speaker to communicate this 
information.
    And I warn you up front: you know about it. If you deal 
with me, you have to understand that I am going to feel free to 
communicate information about you.
    So if it is a truly contractual thing, including default 
terms, including more aggressive enforcement, then, it seems to 
me that would be a Constitutional thing. But if it goes beyond 
it, if it says we will impose this speech restriction, even in 
the noble name of privacy, we will impose this speech 
restriction on you even without any contractual understanding, 
that, it seems to me, poses very serious First Amendment 
problems.
    My time is up, but I would be happy to discuss some of the 
doctrinal issues having to do with things like intellectual 
property arguments, which I think are unsound; commercial 
speech arguments, which I think don't apply here; and other 
First Amendment doctrines that I think ultimately support 
rather than contradict my conclusions.
    [The prepared statement of Eugene Volokh follows:]

PREPARED STATEMENT OF EUGENE VOLOKH,<SUP>1</SUP> PROFESSOR OF LAW, UCLA 
                               LAW SCHOOL

---------------------------------------------------------------------------
    \1\ Professor of Law, UCLA Law School (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="790f16151612113915180e570c1a1518571c1d0c">[email&#160;protected]</a>). This 
testimony is largely based on an article with the same title in 52 
Stanford Law Review 1049 (2000), Copyright 2000 by Eugene Volokh and 
the Board of Trustees of the Leland Stanford Junior University.
---------------------------------------------------------------------------

                              INTRODUCTION

    Privacy is a popular word, and government attempts to ``protect our 
privacy'' are easy to endorse. Government attempts to let us ``control 
. . . information about ourselves'' <SUP>2</SUP> sound equally good: 
Who wouldn't want extra control? And what fair-minded person could 
oppose requirements of ``fair information practices''? <SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ See, e.g., Charles Fried, Privacy, 77 Yale L.J. 475 (1968); 
Susan E. Gindin, Lost and Found in Cyberspace: Informational Privacy in 
the Age of the Internet, 34 San Diego L. Rev. 1153, 1155 (1997).
    \3\ See, e.g., Joel R. Reidenberg, Setting Standards for Fair 
Information Practice in the U.S. Private Sector, 80 Iowa L. Rev. 497 
(1995); Paul M. Schwartz, Privacy and Participation: Personal 
Information and Public Sector Regulation in the United States, 80 Iowa 
L. Rev. 553 (1995).
---------------------------------------------------------------------------
    The difficulty is that the right to information privacy--my right 
to control your communication of personally identifiable information 
about me--is a right to have the government stop you from speaking 
about me. We already have a code of ``fair information practices,'' and 
it is the First Amendment, which generally bars the government from 
controlling the communication of information (either by direct 
regulation or through the authorization of private lawsuits 
<SUP>4</SUP>), whether the communication is ``fair'' or 
not.<SUP>5</SUP> While privacy protection secured by contract is 
constitutionally sound, broader information privacy rules are not 
easily defensible under existing free speech law.
---------------------------------------------------------------------------
    \4\ Cf., e.g., New York Times v. Sullivan, 376 U.S. 254, 265 (1964) 
(holding that the First Amendment applies to ``civil lawsuit[s] between 
private parties,'' because such lawsuits involve ``[state] courts . . . 
appl[ying] a state rule of law'').
    \5\ If ``fair information practices'' applied only to the 
government's control of its own speech, I would have had no objection 
to them. But governmental restriction of supposedly ``unfair'' speech 
by nongovernmental entities raises serious First Amendment problems.
---------------------------------------------------------------------------
    Consider, for instance, the ``disclosure of private facts'' tort, 
which bars the media from reporting supposedly ``nonnewsworthy'' 
personal information that most people would find highly 
private.<SUP>6</SUP> On the one hand, it sounds appealing; by 
definition, if the information is ``nonnewsworthy'' and ``private,'' 
why should anyone print it?
---------------------------------------------------------------------------
    \6\ See Restatement (Second) of Torts Sec. 652D (1977).
---------------------------------------------------------------------------
    But under our free speech regime, should a government agency (such 
as a court) really be able to decide what is ``newsworthy'' or ``of 
legitimate public concern''? Should, for instance, courts be able to 
hold--as California courts did--that the media may be punished for 
reporting that a college student politician is a transsexual, or that a 
person had committed armed robbery and engaged in a shootout with 
police ten years before?
    True, some citizens might think that such reporting, in the words 
of one court, has no ``public purpose'' and was not ``of legitimate 
public interest,'' that there was no ``reason whatsoever'' for it, and 
that ``we, as right-thinking members of society, should permit [a 
person] to continue in the path of rectitude rather than throw him back 
into a life of shame or crime'' by revealing his past.<SUP>7</SUP> 
Others, though, may disagree. And under the First Amendment, it should 
be up to each of us, as readers and publishers, to decide what we think 
is ``of legitimate public interest,'' and not to have the government 
make the decision for us, even in the name of ``privacy.'' The Supreme 
Court has never fully considered the constitutionality of the 
disclosure tort, but many courts have recognized the serious First 
Amendment problems that the tort poses.
---------------------------------------------------------------------------
    \7\ Briscoe v. Reader's Digest Ass'n, 483 P.2d 34, 36, 41 (Cal. 
1971).
---------------------------------------------------------------------------
    Consider also Bartnicki v. Vopper, a currently pending Supreme 
Court case. In Bartnicki, an unknown person tape-recorded a cellular 
phone conversation in which two union officials were discussing the 
possibility of ``blow[ing] off the[] front porches'' of management. The 
tape eventually made its way to a radio station, which played it on the 
air. The station was then sued under a federal statute banning the 
media from publishing or even paraphrasing intercepted cellular phone 
conversations, even when the media entity was entirely innocent of the 
actual interception.<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Bartnicki v. Vopper, 200 F.3d 109 (3rd Cir. 1999).
---------------------------------------------------------------------------
    Again, the law serves noble purposes: it seeks to protect people's 
privacy, and to deter illegal interception of cellular conversations 
(and everyone agrees that the interception itself should be illegal). 
But it does this by restricting the press's freedom to publish--the 
right to control information, we again see, is a right to stop others 
from speaking.
    And the logic of the law of course doesn't stop at the rather 
unusual context of intercepted cell phone conversation: The same sort 
of law could easily be enacted to ban the publication of any material 
that's illegally leaked (for instance, in violation of an employer's 
nondisclosure agreement or a fiduciary duty of loyalty) as well as to 
the publication of material that's illegally gathered. The 
understandable desire to protect people's privacy can thus dramatically 
interfere with the media's freedom to report the news, and to the 
public's access to the news.
    The same First Amendment objections apply, I will argue, to many 
recent proposals for laws securing information privacy on the Internet. 
Some people have argued that these proposals are different from the 
examples I give above, because they fall into some exceptions to First 
Amendment protection. And I agree that some such proposals, if they are 
framed as default contractual rules (such as true ``opt-in'' or ``opt-
out'' provisions), or as disclosure requirements, are constitutional.
    But other proposals are not constitutional, and the defenses which 
are most often given for them--the intellectual property argument, the 
commercial speech argument, the private concern argument, and the 
compelling government interest argument--are not sound under current 
First Amendment doctrine. And while one can urge courts to narrow 
current First Amendment law to accommodate these new proposals, I think 
that would be a serious mistake. If free speech principles are diluted 
in the attractive case of information privacy speech restrictions, such 
a decision will be a powerful precedent for still more restraints that 
might be proposed in the future.
    Such slippery slope concerns are still quite sensible, because 
accepting a proposed speech restriction entails accepting a principle 
that is broader than the particular proposal and that can logically 
cover many other kinds of restraints.<SUP>9</SUP> Our legal system is 
based on precedent. Our political life is in large measure influenced 
by arguments by analogy. And many people's normative views of free 
speech are affected by what courts say: If the legal system accepts the 
propriety of laws mandating ``fair information practices,'' people may 
becomes more sympathetic to legal mandates of, for instance, fair news 
reporting practices or fair political debate practices.<SUP>10</SUP>
---------------------------------------------------------------------------
    \9\ One of the most eloquent American expressions of this concern 
with uncabinable principles is also among the earliest:
    [I]t is proper to take alarm at the first experiment on our 
liberties. We hold this prudent jealousy to be the first duty of 
citizens, and one of [the] noblest characteristics of the late 
Revolution. The freemen of America did not wait till usurped power had 
strengthened itself by exercise, and entangled the question in 
precedents. They saw all the consequences in the principle, and they 
avoided the consequences by denying the principle. We revere this 
lesson too much, soon to forget it. Who does not see that the same 
authority which can establish Christianity, in exclusion of all other 
Religions, may establish with the same ease any particular sect of 
Christians, in exclusion of all other Sects? That the same authority 
which can force a citizen to contribute three pence only of his 
property for the support of any one establishment, may force him to 
conform to any other establishment in all cases whatsoever?
    James Madison, Remonstrance Against Religious Assessments (1786). I 
likewise fear that the same authority which can force a citizen to stop 
speaking on one matter by, for instance, defining it out of the zone of 
``legitimate public concern'' may in time do the same as to speech on 
other matters.
    \10\ For some examples of past attempts to restrict such ``unfair'' 
speech, see, e.g., Hustler Magazine v. Falwell, 485 U.S. 46 (1988) 
(rejecting attempt to impose liability for a publisher's vicious parody 
of a political enemy); Miami Herald v. Tornillo, 418 U.S. 241 (1974) 
(rejecting attempt to require a newspaper to publish rebuttals of 
attacks on a consolidate); Keefe v. Organization for a Better Austin, 
402 U.S. 415 (1971) (rejecting attempt to enjoin leafletting aimed at 
pressuring a local resident to change his business practices); Mills v. 
Alabama, 384 U.S. 214 (1966) (rejecting attempt to ban election-day 
political editorials in the interests of preventing unrebuttable 
attacks).
    The European Personal Data Directive, which is often praised by 
privacy advocates, does require countries to create a code of fair news 
reporting practices: It on its face applies to journalism that reveals 
personal data such as ``racial or ethnic origin, political opinions, 
religious or philosophical beliefs, trade-union membership, and the 
processing of data concerning health or sex life,'' and mandates that 
governments create exemptions for journalism, art, or literature ``only 
if they are necessary to reconcile the right to privacy with the rules 
governing freedom of expression.'' Directive 95/46/EC, 1995 O.J. (L 
281) 31, arts. 8(1), 9. What this provision will ultimately mean is so 
far unclear. Cf. James R. Maxeiner, Freedom of Information and the EU 
Data Protection Directive, 48 Fed. Comm. L.J. 93, 102 (1995) (stating 
that the ``only if they are necessary'' language was added to prevent 
``the balance [from] fall[ing] too much in favor of the media,'' and 
concluding that the scope of the journalism exception is uncertain); 
Paul Eastham, I Would Have Gagged the Press Over Cook, London Daily 
Mail, Feb. 5, 1998, at 2 (quoting the senior English Law Lord as taking 
the view that the privacy directive would have barred certain news 
stories about a cabinet minister's alleged affair).
    The disclosure tort, of course, has always been an attempt to 
mandate fair news reporting practices.
---------------------------------------------------------------------------
    I ultimately conclude that these risks of watering down important 
free speech protections are troubling enough that I must reluctantly 
oppose such information privacy rules. But I hope my views will also be 
useful to those who are committed to supporting information privacy 
speech restrictions, but would like to design their arguments in a way 
that will minimize the risks that I identify.
    Thinking ahead about the possible unintended implications of a 
proposal--even, and perhaps especially, if it seems viscerally 
appealing--is always worthwhile.

               I. INFORMATION PRIVACY SPEECH RESTRICTIONS

    My analysis focuses on the government acting as sovereign, 
restricting what information nongovernmental speakers may communicate 
about people. I thus exclude restrictions that the government imposes 
on its own agencies, such as Freedom of Information Act provisions that 
prevent government revelation of certain data, or IRS or census rules 
that prohibit the communication of some tax or census data to other 
government agencies or to the public. By focusing on communication by 
nongovernmental speakers--reporters, businesspeople, private 
detectives, neighbors--I limit the inquiry to people and organizations 
that indubitably have free speech rights.
    I also exclude restrictions that the government imposes as an 
employer (e.g., telling its employees that they may not reveal 
confidential information learned in the course of employment), or as a 
contractor putting conditions on the communication of information that 
it has no constitutional duty to reveal (e.g., telling people who want 
certain lists from the Federal Election Commission that they may only 
get them if they promise not to use those lists for certain purposes, 
or telling litigants that they will get discovery materials only if 
they promise not to reveal them). The government has long been held to 
have much broader powers when it's acting as employer or contractor, 
imposing constraints on those who assume them in exchange for 
government benefits or for access to government records, than when it's 
acting as sovereign, controlling the speech of private citizens.
    I also focus only on restrictions on communication. Other things 
that are often called privacy rules--the right to be free from 
unreasonable governmental searches and seizures, the right to make 
certain decisions about one's life without government interference, the 
right not to have people listen to you or watch you by going onto your 
property, the right not to have people electronically eavesdrop on your 
conversations, the requirement that credit bureaus notify consumers 
when credit reports about them are prepared, and the like--are outside 
the scope of my discussion.
    Some of these laws, for instance restraints on government snooping 
or control, pose no First Amendment problems. For other laws, such as 
restrictions on nongovernmental gathering of information through 
nonspeech means, the First Amendment rules are unclear; but it is clear 
that the analysis of restrictions on information gathering is different 
from the analysis of restrictions on speech. It is the latter doctrine 
that is most fully developed, and that provides the most protection 
against government restrictions.
    These three exclusions merely reflect the fact that the strongest 
protection of free speech has long been seen as arising when the 
government is acting as sovereign, restricting the speech of private 
parties. And within this zone lie a variety of current and proposed 
speech restrictions, including both older rules such as the disclosure 
tort, and newer ones such as some proposed restrictions on businesses 
revealing information about their customers.

                              II. CONTRACT

A. Permissible Scope
    To begin with, one sort of limited information privacy law--
contract law applied to promises not to reveal information--is 
eminently defensible under existing free speech doctrine. The Supreme 
Court explicitly held in Cohen v. Cowles Media that contracts not to 
speak are enforceable with no First Amendment problems.<SUP>11</SUP> 
Enforcing people's own bargains, the Court concluded (I think 
correctly), doesn't violate those people's rights, even if they change 
their minds after the bargain is struck. Insisting that people honor 
their bargains is a constitutionally permissible ``code of fair 
practices,'' whether information practices or otherwise.
---------------------------------------------------------------------------
    \11\ 501 U.S. 663 (1991).
---------------------------------------------------------------------------
    And such protection ought not be limited to express contracts, but 
should also cover implied contracts (though, as will be discussed 
below, there are limits to this theory). In many contexts, people 
reasonably expect--because of custom, course of dealing with the other 
party, or all the other factors that are relevant to finding an implied 
contract--that part of what their contracting partner is promising is 
confidentiality.
    Furthermore, though Cohen v. Cowles Media involved traditional 
enforcement of a promise through a civil suit, there should be no 
constitutional problem with the government enforcing such promises 
through administrative actions, or using special laws imposing presumed 
or even punitive damages for breaches of such promises.
    I suspect that even with purely contractual remedies, the threat of 
class action suits could be a powerful deterrent to breaches of 
information privacy contracts by e-commerce sites, especially since the 
suits would create a scandal: In the highly competitive Internet world, 
a company could lose millions in business if people hear that it's 
breaking its confidentiality promises. But I think it would be 
constitutional for the government to try to increase contractual 
compliance either by providing an extra incentive for aggrieved parties 
to sue or by bringing a complaint itself.
    The great free speech advantage of the contract model is that it 
does not endorse any right to ``stop people from speaking about me.'' 
Rather, it endorses a right to ``stop people from violating their 
promises to me.'' One such promise may be a promise not to say things, 
and perhaps there may even be special defaults related to such promises 
or special remedies for breaches of such promises.
    The government may enforce obligations that the would-be speaker 
has himself assumed. And such enforcement, in my view, poses little 
risk of setting a broad precedent for many further restrictions, 
precisely because it is founded only on the consent of the would-be 
speaker, and thus cannot justify the other speech restraints to which 
the speaker has not consented.

B. Limitations
    Contract law protection, though, is distinctly limited, in two 
ways.
    First, it only lets people restrict speech by parties with whom 
they have a speech-restricting contract, express or implied. If I make 
a deal with a newspaper reporter under which he promises not to 
identify me as a source, I can enforce the deal against the reporter 
and the reporter's employer, whom the reporter can bind as an agent. 
But if a reporter at another news outlet learns this information, then 
that outlet can publish it without fear of a breach of contract 
lawsuit.
    Second, Cohen v. Cowles Media cannot validate speech-restrictive 
terms that the government compels a party to include in a contract; the 
case at most validates government-specified defaults that apply unless 
the offeror makes clear that these terms aren't part of the offered 
deal. Thus, while the government may say ``Cyberspace sales contracts 
shall carry an implied warranty that the seller promises not to reveal 
the buyer's personal information,'' it may not add ``and this implicit 
warranty may not be waived, even by a prominent statement that is 
explicitly agreed to by a customer clicking on an `I understand, and 
agree to the contract in spite of this' button.''
    This flows directly from the rationale on which Cohen v. Cowles 
Media rests: ``The parties themselves . . . determine the scope of 
their legal obligations, and any restrictions which may be placed on 
the publication of truthful information are self-imposed.'' A 
merchant's express promise of confidentiality is ``self-imposed''; so, 
one can say, is an implicit promise, when the merchant had the 
opportunity to say ``by the way, I am not waiving my rights to speak 
about this transaction and am thus not promising confidentiality'' but 
didn't do so. But when someone is legally barred from communicating, 
even if he explicitly told his contracting partner that he was making 
no such promise, then such an obligation is hardly ``self-imposed'' or 
determined by mutual agreement.
    Thus, I certainly do not claim that a contractual approach to 
information privacy, even with a large dollop of implied contract, is a 
panacea for information privacy advocates. There is much that 
information privacy advocates may want but that contract will not 
provide. I claim only that contractual solutions are a constitutional 
alternative and may be the only constitutional alternative, not that 
they are always a particularly satisfactory alternative.

C. Contracts with Children
    Finally, this discussion of contracts presupposes that both parties 
are legally capable of entering into the contract and of accepting a 
disclaimer of any implied warranty of confidentiality. If a cyber-
consumer is a child, then such an acceptance might not be valid. This 
is also a difficult issue, but one that is outside the scope of this 
Article.<SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Cf. Children's Online Privacy Protection Act of 1998, 15 
U.S.C. Sec. Sec. 6501 et seq.; Justin Matlick, Governing Internet 
Privacy: A Free-Market Primer (Pacific Research Institute, July 1999), 
(visited March 3, 2000) <http://www.pacificresearch.org>; Solveig 
Singleton, Privacy as Censorship: A Skeptical View of Proposals to 
Regulate Privacy in the Private Sector, Cato Policy Analysis No. 295 
(Jan. 22, 1998) <http://www.cato.org/pubs/pas/pa-295.html>, text 
accompanying nn.76-79.
---------------------------------------------------------------------------

                             III. PROPERTY

A. Intellectual Property Rules as Speech Restrictions
    Partly because of the limitations of the contract theory, many 
information privacy advocates argue that people should be assigned a 
property right in personal information about themselves.<SUP>13</SUP> 
Such a property approach would bind everyone, and not just those who 
are in contractual privity with the person being talked about.
---------------------------------------------------------------------------
    \13\ See, e.g., Lawrence Lessig, The Architecture of Privacy, Vand. 
J. Ent. L. & Prac., April 1999, at 56, 63.
---------------------------------------------------------------------------
    Database operators would have to stop communicating information 
about people unless people give permission, even though the database 
operators have never promised, expressly or implicitly, to keep silent. 
Likewise, people could stop newspapers from publishing stories about 
them, even if the information was gleaned through interviews with third 
parties or was taken (with no contractual constraints) from public 
records.<SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ See Edward J. Bloustein, Privacy Is Dear at Any Price: A 
Response to Professor Posner's Economic Theory, 12 Ga. L. Rev. 429, 
439-40 (1978).
---------------------------------------------------------------------------
    Calling a speech restriction a ``property right,'' though, doesn't 
make it any less a speech restriction, and it doesn't make it 
constitutionally permissible. Broad, pre-New York Times v. Sullivan 
libel laws can be characterized as protecting a property right in 
reputation; in fact, some states consider reputation a property 
interest.<SUP>15</SUP> The right to be free from interference with 
business relations, including interference by speech urging a boycott 
as in NAACP v. Claiborne Hardware,<SUP>16</SUP> is often seen as a 
property right.<SUP>17</SUP>
---------------------------------------------------------------------------
    \15\ Reputation is generally not a property interest for purposes 
of the federal Due Process Clause, Paul v. Davis, 424 U.S. 693 (1976), 
but it can be a property right for other purposes. E.g., Marrero v. 
City of Hialeah, 625 F.2d 499, 514 (5th Cir. 1980).
    \16\ 458 U.S. 886 (1982).
    \17\ E.g., Leonard Duckworth, Inc. v. Michael L. Field & Co., 516 
F.2d 952, 955 (5th Cir. 1975).
---------------------------------------------------------------------------
    Restrictions on speech that uses cultural symbols in ways that the 
cultures find offensive might likewise be reframed as property rights 
in those symbols.<SUP>18</SUP> A ban on all unauthorized biographies, 
whether of former child prodigies, movie stars, or politicians, can be 
seen as securing a property interest in the details of those people's 
lives. Similarly, an early right of publicity case took the view that 
people who aren't public figures have the exclusive right to block all 
photos and portraits of themselves, with no exceptions for news 
stories.<SUP>19</SUP>
---------------------------------------------------------------------------
    \18\ Cf. Hornell Brewing Co. v. Rosebud Sioux Tribal Court, 133 
F.3d 1087 (8th Cir. 1998) (involving the descendants of the Sioux 
leader Crazy Horse, then 115 years dead, trying to use right of 
publicity law to stop the marketing of Crazy Horse Malt Liquor; the 
malt liquor company won on procedural grounds).
    \19\ Corliss v. E.W. Walker Co., 64 F. 280, 282 (C.C.D. Mass. 
1894).
---------------------------------------------------------------------------
    Each of these ``property rights,'' though, would remain a speech 
restriction. A property right is, among other things, the right to 
exclude others; <SUP>20</SUP> an intellectual property right in 
information is the right to exclude others from communicating the 
information--a right to stop others from speaking. Like libel law, 
intellectual property law is enforced almost entirely through private 
litigation, but like libel law, it's still a government-imposed 
restriction on speech.<SUP>21</SUP> Some such restrictions may be 
permissible because there's some substantive reason why it's proper for 
the government to restrict such speech, but not because they are 
intellectual property rights.
---------------------------------------------------------------------------
    \20\ See, e.g., Kaiser Aetna v. United States, 444 U.S. 164, 179-80 
(1979) (``the `right to exclude' [is] universally held to be a 
fundamental element of the property right'').
    \21\ See, e.g., New York Times Co. v. Sullivan, 376 U.S. 254, 265 
(1964); see also Hustler Magazine v. Falwell, 485 U.S. 46 (1988) (same 
as to intentional infliction of emotional distress); NAACP v. Claiborne 
Hardware, 458 U.S. 886 (1982) (same as to intentional interference with 
business relations).
---------------------------------------------------------------------------
    The question isn't (as some suggest) ``who should own the property 
right to personal information?'' <SUP>22</SUP> Rather, it's whether 
personal information should be treated as property at all--whether some 
``owner'' should be able to block others from communicating this 
information, or whether everyone should be free to speak about it.
---------------------------------------------------------------------------
    \22\ See, e.g., Richard S. Murphy, Property Rights in Personal 
Information: An Economic Defense of Privacy, 84 Geo. L.J. 2381, 2393 
(1996).
---------------------------------------------------------------------------

B. Existing Restrictions as Supposed Precedents
    The Court has, of course, upheld some intellectual property rights 
against First Amendment challenge, acknowledging that they are speech 
restrictions but holding that those restrictions were constitutional. 
In all these precedents, though, the Court has stressed a key point: 
The restrictions did not give the intellectual property owners the 
power to suppress facts. And this power to suppress facts is exactly 
the power that information privacy speech restrictions would 
grant.<SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ See generally, e.g., Rochelle Cooper Dreyfuss, Warren and 
Brandeis Redux: Finding (More) Privacy Protection in Intellectual 
Property Lore, 1999 Stan. Tech. L. Rev. VS 8, available at <http://
stlr.stanford.edu/STLR/Symposia/Privacy/99__VS__8/> (concluding that 
traditional intellectual property law provides little support for 
informational privacy speech restrictions); Pamela Samuelson, Privacy 
as Intellectual Property?, 52 Stan. L. Rev. 1125, 1136-46 (2000) 
(same).
---------------------------------------------------------------------------
    Harper & Row v. Nation Enterprises, which held that copyright law 
is constitutional, <SUP>24</SUP> is the best example of this. Under 
copyright law, I may not publish a book that includes more than a 
modicum of creative expression from your book, even though my book is 
neither obscene nor libelous nor commercial advertising; such a 
restriction, Harper & Row held, is indeed a speech restriction, but a 
permissible one.
---------------------------------------------------------------------------
    \24\ 471 U.S. 539 (1985).
---------------------------------------------------------------------------
    But the main reason Harper & Row gave for this conclusion is that 
copyright law does not give anyone a right to restrict others from 
communicating facts or ideas. ``[C]opyright's idea/expression dichotomy 
strike[s] a definitional balance between the First Amendment and the 
Copyright Act by permitting free communication of facts while still 
protecting an author's expression.'' ``No author may copyright his 
ideas or the facts he narrates.''
    Copiers ``possess[] an unfettered right to use any factual 
information revealed in [the original],'' though they may not copy 
creative expression. There ought not be ``abuse of the copyright 
owner's monopoly as an instrument to suppress facts.'' ``In view of the 
First Amendment protections already embodied in the Copyright Act's 
distinction between copyrightable expression and uncopyrightable facts 
and ideas,'' copyright law is constitutional. Under the copyright 
exception to free speech protection, then, speech that borrows creative 
expression is restrictable, but speech that borrows only facts remains 
free.
    The same goes for other intellectual property rights in speech, 
such as trademark law, right of publicity law, and trade secret law. 
For space reasons, I will not discuss them in detail here; a thorough 
discussion is available in Parts III.B.2-4 of http://www.law.ucla.edu/
faculty/volokh/privacy.htm. But the bottom line is that all these 
restrictions create a fairly narrow right that may affect the form of 
people's speech but ought not prevent people from communicating facts. 
Any putative property right in one's personal information can thus be 
adopted by analogy only if one is willing to relax this limitation, a 
limitation that is critical to protecting free speech.

C. Functional Arguments for Upholding Information Privacy Speech 
        Restrictions Under a Property Theory
    1. Avoiding ``free-riding'' and unjust enrichment.
    Some argue for property rights in personal information on 
functional grounds: Those who communicate personal information about 
others are engaging in a sort of free riding, enriching themselves 
without compensating the people whose existence makes their enrichment 
possible; and property rights, the argument goes, are the way to avoid 
this free riding. As one article argued, in 1988 three leading credit 
bureaus made almost $1 billion put together from selling credit 
information, but ``[h]ow much did these credit bureaus pay consumers 
for the information about them that they sold? Zero.'' <SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ Scott Shorr, Personal Information Contracts: How to Protect 
Privacy Without Violating the First Amendment, 80 Cornell L. Rev. 1756, 
1793 (1995).
---------------------------------------------------------------------------
    This, though, cannot be the justification for restricting speech, 
unless we are willing to dramatically redefine free speech law. 
Newspapers and radio and TV news programs, after all, make billions 
from stories that are made possible only by the existence of their 
subjects.
    The essence of news is precisely the reporting of things done or 
discovered by others; the essence of the news business is profiting 
from reporting on things done or discovered by others. But news 
organizations generally don't pay a penny to the subjects of their 
stories--in fact, it is seen as unethical for news organs, though not 
entertainment organs, to pay subjects. Likewise, unauthorized 
biographers and historians make money from publishing information about 
others, information that only exists because those people exist. 
Comedians who tell jokes about people make a living from those they 
mock.<SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ In some of these examples, some subjects of the speech do 
profit from the speech, albeit indirectly. The subject of a story may 
be pleased by his newfound fame; the manufacturer of a product that's 
covered favorably in the newspaper may make money as a result of the 
coverage. But of course other subjects of news stories are hurt, either 
financially or emotionally, by those stories; in such cases, the news 
organ may be making a profit at the same time that the subjects of the 
stories, without whom the stories would never have existed, are 
suffering a loss. Free speech law's response to these subjects is 
``tough luck,'' at least unless the stories say something false.
    And in this respect, distribution of personal information databases 
is no different from the publishing of news. Many, perhaps most, of the 
subjects of these databases derive indirect benefits just like the 
subjects of news stories do. If I have a good credit history, I am 
benefited by the credit history databases--if the databases didn't 
exist and would-be creditors had no way of knowing my record, I'd have 
to pay a higher interest rate. Likewise, while many people are annoyed 
by having their personal information available to marketers, some 
people apparently find the targeted marketing useful, or else they 
wouldn't buy as a result of this marketing and the marketing would 
become unprofitable and stop. Thus, some (but not all) people 
indirectly benefit as a result of information about them being stored 
in databases--just as some (but not all) people indirectly benefit as a 
result of news stories about them or their businesses.
---------------------------------------------------------------------------
    All these speakers are free-riding: They are taking advantage of 
something that relates to someone else and that exists only because of 
that other person's existence, and they aren't paying that person for 
it (though they are usually investing a good deal of time, money, and 
effort in the project--this free-riding is certainly not mere literal 
copying). But our legal system correctly allows a great deal of free-
riding. It has never been a principle of tort law that all free-riding 
is illegal, or that all such enrichment is unjust.
    Intellectual property law has generally tried to prevent not free-
riding as such, but free-riding of a particular kind: the use not just 
of something that relates to another, but the use of the product of 
another's substantial labor, and even that only in limited cases. Such 
a use runs the risk of dramatically diminishing the incentive to engage 
in such labor, which is what makes the defendant's enrichment socially 
harmful rather than merely unjust in some abstract moral sense.
    This concern is at the heart of copyright law, <SUP>27</SUP> of the 
right to prevent the unauthorized transmission of an entire act, 
<SUP>28</SUP> and to a large extent of trade secret law. But this 
concern does not apply to personal information about people, where the 
incentive arguments don't really apply.
---------------------------------------------------------------------------
    \27\ See Feist Publications, Inc. v. Rural Tel. Serv. Co., 499 U.S. 
340, 349 (1991).
    \28\ Zacchini v. Scripps-Howard Broad. Co., 433 U.S. 562, 576 
(1977).
---------------------------------------------------------------------------

    2. Internalizing costs and maximizing aggregate utility.
    Another functional argument often made on behalf of a property 
rights theory of information privacy speech restrictions is that the 
property rights model is the best way to require speakers to 
``internalize th[e] cost'' of their speech ``by paying those whose data 
is used.'' <SUP>29</SUP> Such internalizing, the theory goes, would 
maximize aggregate social utility: By ``recogniz[ing the] diversity'' 
of people's desires for information privacy, the property rule could 
make sure that information about each person is communicated only if 
the benefit to the speaker exceeds the felt cost to the 
subject.<SUP>30</SUP>
---------------------------------------------------------------------------
    \29\ Lessig, supra note 12, at 63.
    \30\ See, e.g., id.; Bloustein, supra note 12, at 439-40; Murphy, 
supra note 12, at 2395-96.
---------------------------------------------------------------------------
    The principle of free speech law, though, is that speakers do not 
have to internalize all the felt costs that flow from the communicative 
impact of their speech. The NAACP didn't have to internalize the 
tangible economic (not just emotional) cost that its boycott imposed on 
the Claiborne County merchants.<SUP>31</SUP> Movie producers don't have 
to internalize the tangible cost that their movies impose on victims of 
viewers who commit copycat crimes.<SUP>32</SUP> Cohen, Johnson, and 
Hustler didn't have to internalize the emotional distress cost that 
their speech inflicted on passersby or on its subject.<SUP>33</SUP>
---------------------------------------------------------------------------
    \31\ NAACP v. Claiborne Hardware Co., 458 U.S. 886 (1982).
    \32\ E.g., Olivia N. v. NBC, Inc., 178 Cal. Rptr. 888 (Ct. App. 
1981) (barring recovery where child was sexually abused by minors who 
allegedly copied a similar crime shown on television).
    \33\ Cohen v. California, 403 U.S. 15 (1971) (public profanity 
constitutionally protected); Texas v. Johnson, 491 U.S. 397 (1989) 
(public flag burning constitutionally protected); Hustler Magazine v. 
Falwell, 485 U.S. 46 (1988) (vicious personal attack constitutionally 
protected).
---------------------------------------------------------------------------

D. The Potential Consequences
    Of course, despite the arguments given above, the Court is always 
free to broaden the intellectual property exception to allow people to 
restrict facts; but this, I think, would be a bad idea.
    Speech that reveals private information is not the only speech that 
some want to restrict under the property rights model. As many leading 
commentators have recently argued, we are now in the midst of a broad 
movement that uses intellectual property rhetoric to broaden people's 
rights to restrict others' speech.<SUP>34</SUP> The proposed database 
protection legislation would give database owners a form of property 
right in collections of information.<SUP>35</SUP>
---------------------------------------------------------------------------
    \34\ See, e.g., Yochai Benkler, Free as the Air to Common Use: 
First Amendment Constraints on Enclosure of the Public Domain, 74 
N.Y.U. L. Rev. 354, 354 (1999) (``We are in the midst of an enclosure 
movement in our informational environment.'').
    \35\ See id. at 358, 440, 445-46.
---------------------------------------------------------------------------
    Some recent cases have revived the misappropriation tort, 
recognizing a property right in news.<SUP>36</SUP> Many recent cases 
have broadened trademark owners' rights to restrict parodies and other 
transformative uses (though fortunately some courts seem to be 
resisting this trend).<SUP>37</SUP> The right of publicity is growing 
to include any advertising, merchandising, and even interior decor that 
reminds people of a celebrity, even if it doesn't use the celebrity's 
name or likeness.<SUP>38</SUP>
---------------------------------------------------------------------------
    \36\ See, e.g., NBA v. Motorola, Inc., 105 F.3d 841, 853 (2nd Cir. 
1997) (fortunately limiting the tort to only a narrow range of hot 
news).
    \37\ See generally Mark A. Lemley, The Modern Lanham Act and the 
Death of Common Sense, 108 Yale L.J. 1687 (1999).
    \38\ See, e.g., White v. Samsung Elecs. Am., Inc., 989 F.2d 1512, 
1520 (9th Cir.) (Kozinski, J., dissenting from denial of rehearing en 
banc); Wendt v. Host Int'l, 125 F.3d 806 (9th Cir. 1997).
---------------------------------------------------------------------------
    Many have criticized this creeping propertization of speech, often 
on First Amendment grounds.<SUP>39</SUP> But if the arguments that 
``it's not a speech restriction, it's an intellectual property rule'' 
or ``the Supreme Court has upheld property rights in information, so 
property rights in information are constitutional'' are accepted for 
information privacy speech restrictions, they will be considerably 
strengthened as to the other restrictions, too.
---------------------------------------------------------------------------
    \39\ See, e.g., Lemley, supra note 36, at 1710-12 (``The expansive 
power that is increasingly being granted to trademark owners has 
frequently come at the expense of freedom of expression. As trademarks 
are transformed from rights against unfair competition to rights to 
control language, our ability to discuss, portray, comment, criticize, 
and make fun of companies and their products is diminishing.'').
---------------------------------------------------------------------------
    Now perhaps my parade of horribles isn't so horrible; maybe we 
should have more property rights in facts, which is to say restrictions 
or speech that communicates facts. Nonetheless, people who are worried 
about the general trend towards propertization of information should 
look very carefully at even those proposals that might at first seem 
benign and even just; such proposals could have effects far beyond the 
context in which they are first suggested.

                         IV. COMMERCIAL SPEECH

 A. What ``Commercial Speech'' Means
    Some argue that sale of information about customers is restrictable 
because it fits within the ``commercial speech'' doctrine.<SUP>40</SUP> 
The Court's definition of ``commercial speech,'' though, isn't (and 
can't be) simply speech that is sold as an article of commerce: Most 
newspapers, movies, and books are articles of commerce, too, but they 
remain fully protected.<SUP>41</SUP> Likewise, speech can't be 
commercial just because it relates to commerce, or else the Wall Street 
Journal, union leaflets and newsletters, <SUP>42</SUP> newspaper 
reviews of commercial products, <SUP>43</SUP> and speech by disgruntled 
consumers criticizing what they consider poor service by producers 
would be deprived of full constitutional protection.
---------------------------------------------------------------------------
    \40\ See, e.g., United Reporting Publ'g Corp. v. California Highway 
Patrol, 146 F.3d 1133, 1137 (9th Cir. 1999), rev'd on other grounds sub 
nom. Los Angeles Police Dep't v. United Reporting Publ'g Corp., 120 S. 
Ct. 483 (1999).
    \41\ See, e.g., Smith v. California, 361 U.S. 147, 150 (1959) (``It 
is of course no matter that the dissemination [of speech by the 
claimant] takes place under commercial auspices'').
    \42\ See, e.g., Debartolo Corp. v. Florida Gulf Coast Trades 
Council, 485 U.S. 568 (1988).
    \43\ See, e.g., Bose Corp. v. Consumers Union, 466 U.S. 485 (1984).
---------------------------------------------------------------------------
    Rather, the Court's most now-standard definition of commercial 
speech is speech that explicitly or implicitly ``propose[s] a 
commercial transaction.'' <SUP>44</SUP> Commercial advertisements for 
products or services are classic examples. So are stock prospectuses, 
which propose the purchase of stock; this is why fairly heavy SEC 
regulation of speech in such prospectuses is largely permissible, while 
similar SEC regulation of newsletters or newspapers that discuss stocks 
is not.<SUP>45</SUP>
---------------------------------------------------------------------------
    \44\ Virginia State Bd. of Pharmacy v. Virginia Citizens Consumer 
Council, Inc., 425 U.S. 748, 761 (1976).
    \45\ See Lowe v. SEC, 472 U.S. 181, 211 (1985) (White, J., 
concurring in the judgment).
---------------------------------------------------------------------------
    Under the ``speech that proposes a commercial transaction'' 
analysis, communication of information about customers by one business 
to another is not commercial speech. It doesn't advertise anything, or 
ask the receiving business to buy anything from the communicating 
business.<SUP>46</SUP> It poses no special risk of the speaker 
misleading or defrauding the listener, beyond those risks present with 
fully protected speech generally. The recipient business does intend to 
use the information to more intelligently engage in commercial 
transactions, but that's equally true of businesspeople reading Forbes.
---------------------------------------------------------------------------
    \46\ Sometimes, of course, a business will use customer information 
that it has bought from another business to send out commercial 
advertisements to prospective clients. These advertisements would 
indeed be commercial speech, though the original communication of the 
customer information is not. See U.S. West, Inc. v. FCC, 182 F.3d 1224 
(10th Cir. 1999).
---------------------------------------------------------------------------
    Of course, even if speech that communicates personal information is 
seen as ``commercial speech,'' restrictions on such speech will still 
have to face considerable scrutiny. Whether they will pass such 
scrutiny is hard to tell, since commercial speech scrutiny is so 
notoriously vague. But this question is actually somewhat tangential to 
my main point. To me, the main problem with treating speech that 
communicates personal information as ``commercial speech'' is not that 
this will put such speech at more risk of restriction. Rather, it is 
that stretching the definition of ``commercial speech'' will put a wide 
range of other speech at risk, too.

B. The Risks to Other Speech
    Consider a recent example of the government trying to regulate 
cyberspace speech about economic matters on the grounds that it's 
``commercial speech.'' In Taucher v. Born, several operators of 
commodities-themed Web sites successfully sued to set aside a prior 
restraint system which bars people from distributing for profit any 
unlicensed speech that relates ``to the value of or the advisability of 
commodity trading'' or that contains ``analyses or reports'' about 
commodities.<SUP>47</SUP>
---------------------------------------------------------------------------
    \47\ 7 U.S.C. Sec. 6m(1).
---------------------------------------------------------------------------
    And the license that speakers must get to be allowed to speak isn't 
just a modest tax; the Commodities Futures Trading Commission can 
refuse a license if it finds ``good cause'' to do so, and speaking 
without a license is illegal. Nor is this speech restriction limited to 
individualized, person-to-person professional advice: The regulation is 
broad enough to cover people who ``never engage in individual 
consultations with their customers'' and who ``under no circumstances 
make trades for their customers.'' <SUP>48</SUP>
---------------------------------------------------------------------------
    \48\ Taucher v. Born, 53 F. Supp. 464, 478 (D.D.C. 1999).
---------------------------------------------------------------------------
    The law essentially restricts the Web equivalent of books and 
newspapers about commodity training--it's as if the government claimed 
the right to refuse the Wall Street Journal a license to publish 
articles about the market. As it happens, the law specifically excludes 
publishers who publish such data ``incidental[ly]'' as part of a 
broader news enterprise of ``general and regular dissemination,'' 
<SUP>49</SUP> so the Journal can sleep easy. But under the logic of the 
law, newspapers and book publishers could also be subject to a prior 
restraint system, just as the small commodities-focused electronic 
publishers were subject to it until the court's ruling.
---------------------------------------------------------------------------
    \49\ 7 U.S.C. Sec. Sec. 1a(5)(B)(iv), 1a(5)(C).
---------------------------------------------------------------------------
    The CFTC argued that speech about commodities is mere ``commercial 
speech,'' but the court correctly rejected this: <SUP>50</SUP> ``The 
plaintiffs' publications in this case do not propose any commercial 
transaction between the plaintiffs and their customers.'' <SUP>51</SUP> 
If, however, the commercial speech doctrine had been extended to cover 
the sale of speech about a business's clients, the court's decision 
might well have been different.
---------------------------------------------------------------------------
    \50\ The CFTC's other argument was that the government may regulate 
speech in the context of a professional-client relationship, but the 
court adopted the response to a similar argument given by Justice White 
in his SEC v. Lowe, 472 U.S. 181 (1985), concurrence: Whatever extra 
power the government may have to regulate the professional-client 
relationship, this power arises only when the professional exercises 
individualized judgment on behalf of a particular client. Personal 
advice may to some extent be restricted, but books, newsletters, and 
the like may not be.
    \51\ Taucher v. Born, 53 F. Supp. at 480.
---------------------------------------------------------------------------
    After all, the Web business journalist who writes about commodities 
is likewise selling information that's primarily of economic concern, 
and that has little to do with broad political debates. If that's 
enough to deny free speech protection to communications about 
customers, it may be enough to deny such protection to communications 
about commodities.
    Consider another example: disgruntled homebuyers putting up signs 
criticizing the developer that sold them their homes, or consumers 
leafleting outside a business that they claim sold them defective 
goods, often hoping that the business will give them a refund or at 
least will do a better job in the future. In cyberspace, the analogy 
would be consumers putting up a http://www.[businessname]sucks.com site 
or circulating messages to a long list of acquaintances or to a Usenet 
newsgroup.
    In my view, the First Amendment fully protects such speech that is 
aimed at creating public pressure on someone to do what you think is 
right, even in economic contexts--that, after all, is what much 
advocacy is about.<SUP>52</SUP> The fact that the speech exposes 
alleged problems with a product and aims at redressing an economic harm 
should not strip it of protection. For many people problems with their 
homes and redress for shoddy wares are more important than problems 
with politicians and redress for shoddy policies, and far more 
important than art, entertainment, or many other kinds of fully 
protected speech.
---------------------------------------------------------------------------
    \52\ See, e.g., Debartolo Corp. v. Florida Gulf Coast Trades 
Council, 485 U.S. 568 (1988); NAACP v. Claiborne Hardware, 458 U.S. 886 
(1982); Keefe v. Organization for a Better Austin, 402 U.S. 415 (1971).
---------------------------------------------------------------------------
    If the consumer's speech is an intentional lie (or perhaps in some 
circumstances if it's merely negligently false), the business can sue 
for libel; false statements of fact, whether on economic matters or 
not, lack constitutional protection. But the law shouldn't impose extra 
restrictions on the speech just because the speech deals with economic 
issues.
    Again, though, a broadening of the commercial speech doctrine would 
jeopardize speech of this sort. If communicating information about a 
person's bad credit record is mere ``commercial speech,'' then 
communicating information about a business's bad service record should 
be, too.
    Both, after all, involve speech on economic matters. Both involve 
speech that's primarily of economic interest to listeners. Both are 
motivated by the speaker's economic interest--either a desire to get 
money from the buyer of the information, or a desire to get redress 
from the business. Either both are commercial speech or neither is.
    In a free and competitive economy, people naturally want to talk 
about economic matters. Giving the government an ill-defined but 
potentially very broad power to restrict such speech--not just speech 
that proposes a commercial transaction between speaker and listener and 
thus directly implicates the risk of fraud--risks exposing a great deal 
of speech to government policing.

                V. SPEECH ON MATTERS OF PRIVATE CONCERN

A. The Argument
    One feature of virtually all information privacy proposals (except 
those built on a contract model) is their distinction between speech on 
matters of public concern and speech on matters of private 
concern.<SUP>53</SUP> Even people who argue that newspapers should be 
forbidden from publishing a private person's long-ago criminal history 
or a politician's sexual orientation would probably agree that they 
have a right to publish the politician's criminal history, no matter 
how old. ``Political speech'' or ``speech on matters of public 
concern'' or ``newsworthy'' material, they would argue, is 
constitutionally protected, while speech that is merely of private 
concern is not protected, at least against information privacy speech 
restrictions.
---------------------------------------------------------------------------
    \53\ See, e.g., among many others, Peter B. Edelman, Free Press v. 
Privacy: Haunted by the Ghost of Justice Black, 68 Tex. L. Rev. 1195, 
1229-30 (1990); Julie Cohen, Examined Lives: Informational Privacy and 
the Subject as Object, 52 Stan. L. Rev. 1373, 1414, 1417 (2000).
---------------------------------------------------------------------------
    But this approach, I will argue, is theoretically unsound; it is 
precedentially largely unsupported; in the few circumstances in which 
it has been endorsed, it has proven unworkable; and, if adopted, it 
would strengthen the arguments for many other (in my view improper) 
speech restrictions.

B. The Dangers of the Argument
    Under the First Amendment, it's generally not the government's job 
to decide what subjects speakers and listeners should concern 
themselves with.<SUP>54</SUP> A private concern exception essentially 
says ``you have no right to speak about topics that courts think are 
not of legitimate concern to you and your listeners,'' a view that's 
inconsistent with this understanding.
---------------------------------------------------------------------------
    \54\ See, e.g., Police Dep't v. Mosley, 408 U.S. 92, 95 (1972) 
(``[A]bove all else, the First Amendment means that government has no 
power to restrict expression because of its message, its ideas, its 
subject matter, or its content.''). The Court has recognized some 
exceptions to this principle, but this presumption is still the basis 
for the Court's analysis of speech restrictions imposed by the 
government as sovereign.
---------------------------------------------------------------------------
    A clear example of the danger of such government power comes in a 
disclosure tort case, Diaz v. Oakland Tribune.<SUP>55</SUP> Diaz, the 
first woman student body president at a community college, was a 
transsexual, and the Oakland Tribune published this fact. Diaz sued, 
and the court of appeals held that her lawsuit could go forward; if a 
jury found that Diaz's transsexuality wasn't newsworthy, she could 
prevail.<SUP>56</SUP>
---------------------------------------------------------------------------
    \55\ 188 Cal. Rptr. 762 (Ct. App. 1983).
    \56\ The court set aside the verdict for Diaz because of a jury 
instruction error, but remanded for a new trial.
---------------------------------------------------------------------------
    As usually happens in these cases, the court didn't define 
newsworthiness but left it to the jury, subject only to the instruction 
that ``[i]n determining whether the subject article is newsworthy you 
may consider [the] social value of the fact published, the depth of the 
article, [its] intrusion into ostensibly private affairs, and the 
extent to which the plaintiff voluntarily acceded to a position of 
public notoriety.'' But the court did stress that a jury could find 
that the speech wasn't newsworthy: ``[W]e find little if any connection 
between the information disclosed and Diaz's fitness for office. The 
fact that she is a transsexual does not adversely reflect on her 
honesty or judgment.''
    Now I agree with the court's factual conclusion; people's gender 
identity strikes me as irrelevant to their fitness for office. But 
other voters take a different view. Transsexuality, in their opinion, 
may say various things about politicians: It may say that they lack 
attachment to traditional values, that they are morally corrupt, or 
even just that they have undergone an unnatural procedure and therefore 
are somehow tainted by it.
    These views may be wrong, but surely it is not for government 
agents--whether judges or jurors--to dictate the relevant criteria for 
people's political choices, and to use the coercive force of law to 
keep others from informing them of things that they may consider 
relevant to those choices. I may disagree with what you base your vote 
on, but I must defend your right to base your vote on it, and the right 
of others to tell you about it.
    This is the clearest example of a court using the public concern 
test to usurp what should be a listener's and speaker's choice, but 
other public disclosure cases raise similar problems. Consider, for 
instance, the criminal history cases, in which some courts held that it 
was illegal for newspapers to print information about ``long past'' 
criminal activity by people who are now supposedly rehabilitated and 
are leading allegedly blameless lives. The leading such case is Briscoe 
v. Reader's Digest Association, in which Reader's Digest was held 
liable for revealing that Briscoe had eleven years earlier been 
convicted of armed robbery (a robbery that involved his fighting ``a 
gun battle with the local police'').<SUP>57</SUP>
---------------------------------------------------------------------------
    \57\ 483 P.2d 34, 36 (Cal. 1971).
---------------------------------------------------------------------------
    The court acknowledged that the speech, while not related to any 
particular political controversy, was newsworthy; the public is 
properly concerned with crime, how it happens, how it's fought, and how 
it can be avoided. Moreover, revealing the identity of someone 
``currently charged with the commission of a crime'' is itself 
newsworthy, because ``it may legitimately put others on notice that the 
named individual is suspected of having committed a crime,'' thus 
presumably warning them that they may want to be cautious in their 
dealings with him.
    But revealing Briscoe's identity eleven years after his crime, the 
court said, served no ``public purpose'' and was not ``of legitimate 
public interest''; there was no ``reason whatsoever'' for it. The 
plaintiff was ``rehabilitated'' and had ``paid his debt to society.'' 
``[W]e, as right-thinking members of society, should permit him to 
continue in the path of rectitude rather than throw him back into a 
life of shame or crime'' by revealing his past.
    ``Ideally, [Briscoe's] neighbors should recognize his present worth 
and forget his past life of shame. But men are not so divine as to 
forgive the past trespasses of others, and plaintiff therefore 
endeavored to reveal as little as possible of his past life.'' And to 
assist Briscoe in what the court apparently thought was a worthy effort 
at concealment, the law may bar people from saying things that would 
interfere with Briscoe's plans.
    Judges are of course entitled to have their own views about which 
things ``right-thinking members of society'' should ``recognize'' and 
which they should forget; but under the First Amendment, members of 
society have a constitutional right to think things through in their 
own ways.
    And some people do take a view that differs from that of the 
Briscoe judges: While criminals can change their character, this view 
asserts, they often don't. Someone who was willing to fight a gun 
battle with the police eleven years ago may be more willing than the 
average person to do something bad today, even if he has led a 
blameless life since then (something that no court can assure us of, 
since it may be that he has continued acting violently on occasion, but 
just hasn't yet been caught).
    Under this ideology, it's perfectly proper to keep this possibility 
in mind in one's dealings with the supposedly ``reformed'' felon. While 
the government may want to give him a second chance by releasing him 
from prison, restoring his right to vote and possess firearms, and even 
erasing its publicly accessible records related to the conviction, his 
friends, acquaintances, and business associates are entitled to adopt a 
different attitude.
    Most presumably wouldn't treat him as a total pariah, but they 
might use extra caution in dealing with him, especially when it comes 
to trusting their business welfare or even their physical safety (or 
that of their children) to his care.<SUP>58</SUP> And they might use 
extra caution in dealing with him precisely because he has for the last 
eleven years hidden this history and denied them the chance to judge 
him for themselves based on the whole truth about his 
past.<SUP>59</SUP> Those who think such concealment is wrong will see 
it as direct evidence of present bad character (since the concealment 
was continuing) and not just of past bad character.
---------------------------------------------------------------------------
    \58\ If you were deciding whether to leave your children for the 
day in a neighbor's care, would you consider his eleven-year-old 
conviction for a violent crime involving a gun battle with police 
relevant (not necessarily dispositive, but relevant) to your decision? 
Would you advise your daughter to consider a prospective date's armed 
robbery conviction when deciding whether and under what conditions to 
go out with him?
    \59\ Richard A. Epstein, Privacy, Property Rights, and 
Misrepresentations, 12 Ga. L. Rev. 455, 472-73 (1978).
---------------------------------------------------------------------------
    Revealing Briscoe's name, under this view, may have little to do 
with broad political debates, but it is still of intense and eminently 
legitimate public concern to one piece of the public: people who know 
Briscoe, the very same group whose ignorance Briscoe seemed most 
concerned about preserving. These members of the public would use this 
information to make the decision, which is probably more important to 
them than whom they would vote for next November, about whether they 
could trust Briscoe in their daily dealings.
    This isn't speech on political matters, but rather on what I might 
call ``daily life matters.'' Under the First Amendment, which protects 
movies, art, jokes, and reviews of stereo systems, <SUP>60</SUP> such 
speech on daily life matters is at least equally worthy.
---------------------------------------------------------------------------
    \60\ See, e.g., Winters v. New York, 333 U.S. 507 (1948) 
(entertainment); Bose Corp. v. Consumers Union, 466 U.S. 485 (1984) 
(product review of stereo equipment); Abood v. Detroit Bd. of Educ., 
431 U.S. 209, 231 (1977) (``[O]ur cases have never suggested that 
expression about philosophical, social, artistic, economic, literary, 
or ethical matters--to take a nonexhaustive list of labels--is not 
entitled to full First Amendment protection.'').
---------------------------------------------------------------------------
    At least as much as those kinds of protected speech, daily life 
matter speech--communication related to ``the real, everyday experience 
of ordinary people'' <SUP>61</SUP>--indirectly but deeply affects the 
way we view the world, deal with others, evaluate their moral claims on 
us, and even vote; and its effect is probably greater than that of most 
of the paintings we see or the editorials we read. Consider how much 
our view of crime and punishment, secrecy and publicity, and many other 
topics would be indirectly influenced--towards greater liberalism, 
conservatism, or something else--by the knowledge that some of our 
seemingly law-abiding neighbors have been concealing a criminal past.
---------------------------------------------------------------------------
    \61\ Cynthia L. Estlund, Speech on Matters of Public Concern: The 
Perils of an Emerging First Amendment Category, 59 Geo. Wash. L. Rev. 
1, 37 (1990).
---------------------------------------------------------------------------
    In any event, which viewpoint about our neighbors' past crimes is 
``right-thinking'' and which is ``wrong-thinking'' is the subject of a 
longstanding moral debate. Surely it is not up to the government to 
conclude that the latter view is so wrong, that Briscoe's conviction 
was so ``[il]legitimate'' a subject for consideration, that the 
government can suppress speech that undermines its highly controversial 
policy of forgive-and-forget.
    This also goes for databases of personal information as much as for 
news stories about such information. Many such databases--for instance, 
credit history databases or criminal record databases--are used by 
people to help them decide whom it is safe to deal with and who is 
likely to cheat them.
    Other databases, which contain less incriminating information, such 
as a person's shopping patterns, may be less necessary for self-
protection; but of course for the same reason the data stored in them 
will also generally be much less embarrassing to their subjects, which 
makes the supposed harm to the subjects of the communication of such 
data much smaller. And in any event, even this data is of direct daily 
life interest to its recipients, since it helps them find out with whom 
they should do business.
    In some instances, it may be quite unlikely that certain speech 
would be useful to the listeners either for political purposes or for 
daily life purposes; this largely has to do with information that shows 
people in ridiculous, embarrassing, or demeaning contexts without 
revealing any useful new information about them. Everybody knows that I 
go to the bathroom; printing a picture of me on the toilet would 
embarrass me not because it reveals something new about me, but because 
it shows me in a pose that by cultural convention is seen as ridiculous 
or undignified.
    But while there may be a narrow zone of fairly uncontroversially 
non-public-concern topics, the danger is that the vague, subjective 
``public concern,'' ``newsworthiness,'' or ``legitimate public 
interest'' test will flow far beyond this zone; and as Briscoe and 
Diaz, among others, show, this danger has materialized. This risk may 
be enough to abandon the test altogether, and it is certainly enough to 
demand that the test be rephrased as something much clearer and 
narrower before it is accepted.
    We can all think of examples of entertainment that has no 
connection to public issues, but Winters v. New York was right to 
conclude that entertainment should be protected despite this, because 
``[t]he line between the informing and the entertaining is too elusive 
for the protection of [the] basic right [of free speech].'' 
<SUP>62</SUP> If vitriolic, relatively nonsubstantive parodies such as 
the one in Hustler v. Falwell were banned, ``public discourse would 
probably suffer little or no harm,'' but the Court correctly refused to 
uphold such a ban, since it could find no ``principled standard to 
separate'' them from speech that had to be protected.<SUP>63</SUP>
---------------------------------------------------------------------------
    \62\ 333 U.S. 507, 510 (1948).
    \63\ . 485 U.S. 46, 55 (1988).
---------------------------------------------------------------------------
    Likewise, the notion that speech should generally be restrictable 
when it doesn't relate to matters of public concern strikes me as so 
potentially broad and so vague that it deserves to be abandoned, even 
if it would yield the right results in a narrow subset of the cases in 
which it would be applied.

C. Doctrine
    That, then, is why I think the public concern test is theoretically 
unsound. The doctrinal discussion is easier: Though the Court has often 
said in dictum that political speech or public-issue speech is on the 
``highest rung'' of constitutional protection, <SUP>64</SUP> it has 
never created any general exception for speech on matters of ``private 
concern.'' Political speech, scientific speech, art, entertainment, 
consumer product reviews, and speech on matters of private concern are 
thus all doctrinally entitled to the same level of high constitutional 
protection, restrictable only through laws that pass strict scrutiny.
---------------------------------------------------------------------------
    \64\ Carey v. Brown, 447 U.S. 455, 467 (1980).
---------------------------------------------------------------------------
    The two situations where the Court has adopted a public concern / 
private concern distinction are narrow exceptions to this general 
principle. The first such exception, established in Connick v. Myers, 
is that the government acting as employer may freely restrict speech on 
matters of private concern by its employees.<SUP>65</SUP>
---------------------------------------------------------------------------
    \65\ 461 U.S. 138 (1983).
---------------------------------------------------------------------------
    The government's power as employer to fire its employees for what 
they say has always been far greater than its power to fine or imprison 
private citizens for what they say, and the Connick Court explicitly 
stressed that private-concern speech remains protected against the 
government acting as sovereign.<SUP>66</SUP> The restriction on such 
speech by government employees was justified only by the special role 
of the government acting as employer, in which the government's 
interest in efficient day-to-day operation would make it infeasible to 
let people sue the government over every discharge that was based on 
any sort of speech.
---------------------------------------------------------------------------
    \66\ ``We in no sense suggest that speech on private matters falls 
into one of the narrow and well-defined classes of expression which 
carries so little social value, such as obscenity, that the State can 
prohibit and punish such expression by all persons in its jurisdiction 
[and not just its own employees].'' Id. at 147.
---------------------------------------------------------------------------
    The second exception, established in Dun & Bradstreet v. Greenmoss 
Builders, is that plaintiffs in libel cases involving false statements 
on matters of purely private concern may be awarded punitive and 
presumed damages without a showing of actual malice.<SUP>67</SUP> This, 
though, also came in a context where the government has special power 
to restrain speech: restrictions on false statements of fact.
---------------------------------------------------------------------------
    \67\ 472 U.S. 749 (1985).
---------------------------------------------------------------------------
    Such statements, the Court has held, have ``no constitutional 
value''; any protection they get stems from the need to prevent the 
undue chilling of true statements, which are indeed constitutionally 
protected.<SUP>68</SUP> The economic interests of the speaker and its 
audience, the Court argued, warrant no special protection when ``the 
speech is wholly false.'' <SUP>69</SUP> Dun & Bradstreet thus says 
little about the propriety of applying the ``private concern'' test to 
speech that, unlike false statements of fact, is presumptively 
constitutionally valuable.<SUP>70</SUP>
---------------------------------------------------------------------------
    \68\ Id. at 767 (White, J., concurring in the judgment). See Gertz 
v. Robert Welch, Inc., 418 U.S. 323, 340-41 (1974).
    \69\ Dun & Bradstreet, 472 U.S. at 762 (emphasis added).
    \70\ Cf., e.g., U.D. Registry, Inc. v. California, 40 Cal. Rptr. 2d 
228, 232 (Ct. App. 1995) (``While the distinction [between private and 
public concern speech] may be significant in the area of defamation, it 
does not define the parameters of permissible regulation for truthful 
reporting.'').
---------------------------------------------------------------------------

D. The Experience Under the Two ``Public Concern'' Doctrines
    In practice, neither of these doctrines has been a success story 
for the public concern test. As many critics have pointed out, the 
government employee private concern doctrine has proven both vague to 
the point of indeterminacy and extremely broad.<SUP>71</SUP> Much 
speech that would clearly fit within a normal reading of the words 
``public concern'' has been found to be of purely private concern and 
therefore unprotected, with seemingly little justification other than 
the desire to make life easier for government employers confronted with 
troublemaking employees.
---------------------------------------------------------------------------
    \71\ See, e.g., Stephen Allred, From Connick to Confusion: The 
Struggle to Define Speech on Matters of Public Concern, 64 Ind. L.J. 43 
(1988); Estlund, Speech on Matters of Public Concern, supra note 60, at 
7 n.40, 34, 45.
---------------------------------------------------------------------------
    Connick itself found that speech among District Attorney's office 
employees about ``the confidence and trust that [employees] possess in 
various supervisors, the level of office morale, and the need for a 
grievance committee'' was ``not of public concern,'' hardly a 
commonsense reading of the term ``public concern.''
    Later cases have likewise found, for instance, that speech 
criticizing the way a dean runs a public university department, 
<SUP>72</SUP> alleging race discrimination by a public employer, 
<SUP>73</SUP> and criticizing the way the FBI decides whom to lay off 
<SUP>74</SUP> was not ``of public concern,'' though other cases reached 
opposite results on seemingly similar facts.<SUP>75</SUP> Whether or 
not the government should have the power to dismiss employees for such 
speech, surely the government ought not have the power to censor such 
speech by citizens at large on the grounds that it's supposedly of 
insufficient ``public concern.''
---------------------------------------------------------------------------
    \72\ Landrum v. Eastern Ky. Univ., 578 F. Supp. 241 (E.D. Ky. 
1984).
    \73\ Lipsey v. Chicago Cook County Criminal Justice Comm'n, 638 F. 
Supp. 837 (N.D. Ill. 1986).
    \74\ Murray v. Gardner, 741 F.2d 434 (D.C. Cir. 1984).
    \75\ See generally Allred, supra note 70, at 65-73.
---------------------------------------------------------------------------
    Under Dun & Bradstreet, the concept of ``speech of purely private 
concern'' has ended up similarly vague, and has sometimes covered 
speech that clearly seems to be of public concern under any normal 
definition of the term: for instance, speech discussing the competence 
of psychologists to whom children are sent by government-run schools, 
the business practices of car dealers, and alleged misconduct by the 
owner of a gymnastics school.<SUP>76</SUP> Again, perhaps it's 
permissible to allow presumed and punitive damages for false statements 
on such topics, but surely it would be unconstitutional to restrict 
true statements on these matters on the grounds that they aren't of 
``public concern.''
---------------------------------------------------------------------------
    \76\ See Robert E. Drechsel, Defining ``Public Concern'' in 
Defamation Cases Since Dun & Bradstreet v. Greenmoss Builders, 43 Fed. 
Comm. L.J. 1, 17-18 (1990); Saunders v. Van Pelt, 497 A.2d 1121 (Me. 
1985); Vern Sims Ford, Inc. v. Hagel, 713 P.2d 736 (Wash. Ct. App. 
1986); Ramirez v. Rogers, 540 A.2d 475 (Me. 1988).
---------------------------------------------------------------------------
    The experience of the public concern test in these two areas thus 
suggests that the theoretical criticisms of the public concern / 
private concern distinction are sound: There's a substantial practical 
risk of the courts finding too much speech to be of ``private 
concern,'' and while some facially vague and broad tests have the merit 
of being tied to an existing body of clarifying and narrowing caselaw, 
that's hardly the case here.
    Maybe for lack of anything better, the public / private concern 
distinction may remain sensible as to the genuinely hard and 
necessarily vague government employee speech cases, but its track 
record hardly seems to encourage expanding it elsewhere.

E. Potential Consequences
    All this discussion is not just academic or just applicable to 
information privacy speech restrictions. The argument that certain 
speech should be more restrictable because it's not ``political 
speech,'' not ``high-value speech,'' or not of ``legitimate public 
interest'' is routinely marshaled in favor of a broad range of speech 
restraints.
    Businesses criticized by disgruntled consumers have already argued 
that such consumer criticism doesn't relate to speech on matters of 
genuinely ``public concern,'' and should therefore be restrictable even 
if it's true or if it's mere opinion.<SUP>77</SUP> Likewise, supporters 
of campus speech codes have argued that this speech too, is of low 
value.<SUP>78</SUP> Allowing tort liability under the disclosure tort 
for speech on supposedly ``private matters'' (such as a person's 
criminal history or failure to pay his debts <SUP>79</SUP>) would 
provide strong support for allowing tort liability under the 
intentional interference tort for speech on ``private matters'' (such 
as a business's unfair practices or breaches of warranty), or for 
allowing universities to suppress speech that they find supposedly 
valueless.
---------------------------------------------------------------------------
    \77\ See, e.g., Paradise Hills Assocs. v. Procel, 1 Cal. Rptr. 2d 
514, 521 (Ct. App. 1991).
    \78\ See, e.g., Richard Delgado, Campus Antiracism Rules: 
Constitutional Narratives in Collision, 85 Nw. U. L. Rev. 343 (1991).
    \79\ See, e.g., Mason v. Williams Discount Ctr., Inc., 639 S.W.2d 
836 (Mo. Ct. App. 1982).
---------------------------------------------------------------------------

                        VI. COMPELLING INTEREST

    The last argument for many proposed information privacy speech 
restrictions is that the government interest behind the restriction is 
just so great. Speech that reveals personal information about others, 
the argument goes, violates their basic human rights, strips them of 
their dignity, causes serious emotional distress, interferes with their 
relations with family, friends, acquaintances, and business associates, 
and puts them at risk of crime.
    Moreover, such speech itself undermines other rights of 
constitutional stature, such as the right to privacy or free speech 
itself. The government must be able to step in and prevent this, even 
at the cost of creating a new free speech exception.
A. Countervailing Constitutional Rights
    Let me begin by discussing the ``constitutional tension'' argument, 
which comes in two flavors: (1) Because the Constitution has been 
interpreted as protecting privacy (possibly including information 
privacy <SUP>80</SUP>), attempts to restrict speech in the name of 
protecting information privacy involve a ``tension'' between two 
constitutional values.<SUP>81</SUP> (2) Information privacy speech 
restrictions ``promote[] some of the same values protected by the First 
Amendment,'' because ``[g]ranting people privacy, recognizing that 
despite their entering into the public debate on an issue . . . they 
remain a private person to some degree, encourages people to come 
forward and engage in the debate.'' <SUP>82</SUP>
---------------------------------------------------------------------------
    \80\ See Whalen v. Roe, 429 U.S. 589, 605 (1977).
    \81\ See also Melvin v. Reid, 112 Cal. App. 285, 291 (1931).
    \82\ Sean M. Scott, The Hidden First Amendment Values of Privacy, 
71 Wash. L. Rev. 683, 687, 710 (1996). See also Paul M. Schwartz, 
Privacy and Democracy in Cyberspace, 52 Vand. L. Rev. 1609, 1701-02, 
1651 (1999).
---------------------------------------------------------------------------
    I have elsewhere argued at length against this sort of analysis, 
<SUP>83</SUP> but for now let me make two observations about it. First, 
the speech vs. privacy and speech vs. speech tensions are not tensions 
between constitutional rights on both sides. The Constitution 
presumptively prohibits government restrictions on speech and perhaps 
some government revelation of personal information, but it says nothing 
about interference with speech or revelation of personal information by 
nongovernmental speakers.
---------------------------------------------------------------------------
    \83\ Eugene Volokh, Freedom of Speech and the Constitutional 
Tension Method, 3 U. Chi. L. Sch. Roundtable 223 (1996).
---------------------------------------------------------------------------
    If, for instance, a private group organizes a boycott of a 
newspaper to pressure it into dropping a columnist whose work the group 
finds offensive, <SUP>84</SUP> the group is not thereby violating the 
columnist's First Amendment rights; he has a constitutional right to 
speak free from government restraint, but not free from private censure 
or private pressure.
---------------------------------------------------------------------------
    \84\ See, e.g., Jill Stewart, Free This Man; Can Black 
Conservatives Speak Their Minds in America? Ask KABC Talk-Show Host 
Larry Elder, the Target of a Black Nationalist Group in L.A., New Times 
(L.A.), July 3, 1997 (describing boycott of sponsors of black 
conservative talk show host Larry Elder's radio show, aimed at getting 
the radio station to take him off the air); James Warren, Andy Rooney 
Suspended, But Denies Racist Comment, Chi. Trib., Feb. 9, 1990, Sec. 1, 
at 3 (describing public pressure that caused CBS to suspend 60 Minutes 
commentator Andy Rooney for allegedly making a racist comment); Jerry 
Berger, Kennedy Decries Reagan Civil Rights Policies, United Press 
Int'l, Jan. 18, 1988, available in LEXIS, News Library, UPI File 
(describing public pressure that caused CBS to fire Jimmy ``The Greek'' 
Snyder on similar grounds).
---------------------------------------------------------------------------
    Likewise, information privacy speech restrictions involve a tension 
between a constitutionally secured right to speak free of government 
restriction and a proposed statutory or common-law right to speak free 
of private revelation of private information. The fact that the 
proposed statutory or common-law right is in one way analogous to a 
constitutional right does not give it constitutional stature.
    Second, as the boycott example shows, changing First Amendment 
doctrine to let free speech rights be trumped by other ``constitutional 
values'' derived by analogy from constitutional rights would permit a 
broad range of speech restrictions. Lots of speech has the effect, and 
often the purpose, of discouraging people from exercising their speech 
rights in certain ways.
    Political bullies try to silence their opponents not only by 
revealing embarrassing private information about them, but also by 
calling them nasty (but nonlibelous) names, citing their interracial 
marriages as evidence that they are traitors to their race, 
<SUP>85</SUP> attacking them with bitter and unfair parodies, or saying 
things aimed at undermining their business affairs.
---------------------------------------------------------------------------
    \85\ See, e.g., Amy Wallace, He's Either Mr. Right or Mr. Wrong, 
L.A. Times, Mar. 31, 1996, at 12.
---------------------------------------------------------------------------
    Depending on the era, the risk of having your arguments called 
``Communist,'' ``un-American,'' ``racist,'' or ``sexist'' (even if your 
arguments really don't fall into those categories) has discouraged many 
people from expressing viewpoints that might draw such rhetoric--and I 
suspect that the rhetoric was often used precisely to deter people from 
expressing certain viewpoints. Who among us hasn't at times decided to 
stay quiet in order to avoid having to deal with our opponents' 
vituperation?
    The logic of the argument I quoted, if accepted, would thus justify 
restriction on all these kinds of speech. And yet our right to use 
speech to pressure others into not speaking is a fundamental aspect of 
the First Amendment; recall that a recurring (and correct) argument of 
those who fight against advocacy of evil ideas--even advocacy that is 
concededly constitutionally protected against government suppression--
is that such speech should be deterred by social ostracism and 
condemnation.
    Likewise, accepting the other constitutional tension argument, 
which urges that speech be restricted when it undermines the unwritten 
constitutional ``value'' of privacy, would provide strong support for 
restrictions on speech that vehemently criticizes a religion and 
thereby discourages people from publicly adhering to it (and thus 
supposedly undermines the explicitly constitutionally described values 
of religious freedom), <SUP>86</SUP> speech that urges people to treat 
others unequally (and thus undermines equality), speech that tries to 
pressure people into not exercising their property or contractual 
rights (and thus undermines private property rights or the obligation 
of contracts), and so on.<SUP>87</SUP> A rule that constitutional 
rights to protection from the government may be turned into 
justification for government restrictions on speech by private actors 
would have a broad effect indeed.
---------------------------------------------------------------------------
    \86\ Cf., e.g., Kunz v. New York, 340 U.S. 290, 295, 302 (1951) 
(Jackson, J., dissenting).
    \87\ See generally Volokh, supra note 82, at 231-34, 237-38.
---------------------------------------------------------------------------

B. Dignity, Emotional Distress, and Civil Rights
    Other arguments for information privacy speech restrictions claim 
that the speech injures people's dignity or emotionally distresses 
them. This injury is sometimes also characterized as an interference 
with people's basic ``civil right'' not to have others know or say 
certain things about them.<SUP>88</SUP>
---------------------------------------------------------------------------
    \88\ See, e.g., Directive 95/46/EC, art. 1(1) 1995 O.J. (L.281) 31 
(describing protection of informational privacy as a matter of ``the 
fundamental rights and freedoms'' ``of natural persons''); Talk of the 
Nation: Online Privacy (NPR radio broadcast, June 30, 1998) (quoting 
Todd Lappin, senior associate editor of Wired magazine) (``[I]t's 
really the job of all of us to get a consensus in Congress that'll give 
us basic legal rights so we have some control over our names and over 
our personal information. This is a civil rights and a human rights 
struggle . . .'').
---------------------------------------------------------------------------
    But is it constitutional for the government to suppress certain 
kinds of speech in order to protect dignity, prevent disrespectful 
behavior, prevent emotional distress, or to protect a supposed civil 
right not to be talked about? Under current constitutional doctrine, 
the answer is generally no: Even offensive, outrageous, disrespectful, 
and dignity-assaulting speech is constitutionally 
protected.<SUP>89</SUP>
---------------------------------------------------------------------------
    \89\ See, e.g., Cohen v. California, 403 U.S. 15 (1971) (public 
profanity); Texas v. Johnson, 491 U.S. 397 (1989) (flag burning); 
Hustler Magazine v. Falwell, 485 U.S. 46 (1988) (scurrilous, personal 
attack in print); Brandenburg v. Ohio, 395 U.S. 444 (1969) (racist 
advocacy); Collin v. Smith, 578 F.2d 1197 (7th Cir. 1978) (Nazi parade 
in a part of town where many Holocaust survivors lived); Kunz v. New 
York, 340 U.S. 290 (1951) (vitriolic attacks on Catholicism and 
Judaism); Cantwell v. Connecticut, 310 U.S. 296 (1940) (vitriolic 
attack on Catholicism).
---------------------------------------------------------------------------
    And there is good reason for this approach. If the government can 
declare it to be my ``civil right'' to prohibit others from saying the 
truth about me behind my back, then the arguments for many speech 
restrictions would be considerably strengthened. The government could 
similarly declare it a civil right to have others not say insulting 
things about me (and my kind) in print or in broadcasts, where I may 
directly see or hear such speech; other countries have indeed done 
this.
    Similarly, say that true statements--statements about past crimes, 
current sexual orientation, credit history, and the like--can be 
restricted because of the danger that they will change people's 
attitudes about their subject. Why wouldn't sociological or political 
claims that the government considers false or misleading (group libel 
or seditious libel) <SUP>90</SUP> or statements of opinion (general 
bigoted or antigovernment advocacy) be likewise restrictable, on the 
grounds that they may change people's attitudes about a group, and that 
there's a ``compelling governmental interest'' in preventing such 
changed attitudes?
---------------------------------------------------------------------------
    \90\ Cf., e.g., United States v. Cooper, 25 F. Cas. 631, 639 
(C.C.D. Pa. 1800).
---------------------------------------------------------------------------
    It's conceivable that as to some kinds of speech, for instance the 
revelation of the names of rape victims or the unauthorized 
distribution of pictures of a person naked or having sex, courts will 
find that the speech is so valueless and so distressing that there is 
indeed a compelling interest in restricting it. Though I empathize with 
the reasons for such restrictions, I reluctantly oppose them, precisely 
because of the dangers discussed in Part V and earlier in this 
section--``lack of legitimate public concern'' and ``severe emotional 
distress,'' while intuitively appealing standards, are so vague and 
potentially so broad that accepting them may jeopardize a good deal of 
speech that ought to be protected.
    But while these narrow restrictions would merely increase the risk 
that more speech might be restricted in the future, other proposed 
restrictions cheerfully embrace this possibility. Broad readings of the 
disclosure tort would restrict speech about elected officials that many 
voters would (rightly or wrongly) find quite relevant, or restrict 
speech about people's past crimes, which many of the people's neighbors 
may find important.
    Likewise, many of the proposals to restrict communication of 
consumer transactional data would apply far beyond a narrow core of 
highly private information, and would cover all transactional 
information, such as the car, house, food, or clothes one buys. I don't 
deny that many people may find such speech vaguely ominous and would 
rather that it not take place, and I acknowledge that some people get 
extremely upset about it. But knowing that some business somewhere 
knows what car you drive <SUP>91</SUP> is just not in the same league 
as, say, knowing that all your neighbors (and thousands of strangers) 
have heard that you were raped.
---------------------------------------------------------------------------
    \91\ Cf., e.g., Gindin, supra note 1, at 1157.
---------------------------------------------------------------------------
    If such fairly modest offense or annoyance is enough to justify 
speech restrictions, then the compelling interest bar has fallen quite 
low. And watering down the threshold for when an interest becomes 
``compelling'' will of course have an impact far beyond information 
privacy speech restrictions.

C. Keeping the Internet Attractive to Consumers
    Some have argued that privacy restrictions are needed to keep 
Internet access attractive to consumers: Consumers are so concerned 
that online sites will collect and reveal information about them, the 
argument goes, that they are being deterred from engaging in e-
commerce, and thus e-commerce in particular and the economy in general 
is suffering.<SUP>92</SUP>
---------------------------------------------------------------------------
    \92\ Cf. generally Joel R. Reidenberg & Francoise Gamet-Pol, The 
Fundamental Role of Privacy and Confidence in the Network, 30 Wake 
Forest L. Rev. 105 (1995).
---------------------------------------------------------------------------
    But fostering economic growth and increasing Internet use, while 
laudable goals, can hardly be ``compelling government interests'' 
justifying content-based bans on certain kinds of speech, at least if 
the ``compelling'' threshold is to have any meaning. And the potential 
consequences of accepting this sort of justification for restricting 
speech are both clear and dire: The same rationale, after all, would 
easily justify bans on TV broadcasts that warn of cyberspace privacy 
risks, since such speech even more directly frightens consumers away 
from e-commerce and other Internet use.
    Furthermore, if this is really such a great concern (which is far 
from clear, given the explosive growth of e-commerce even in the 
absence of noncontractual information privacy speech restrictions), it 
stands to reason that many Internet businesses would invest a lot of 
effort into preventing such consumer alienation: They'll promise not to 
communicate consumer information, set up enforcement mechanisms aimed 
at giving consumers confidence that such promises will be kept, 
distribute software that helps protect people's privacy through 
technological means, and so on. The availability of these alternatives 
further undercuts the case for restricting First Amendment rights in 
order to protect e-commerce.<SUP>93</SUP>
---------------------------------------------------------------------------
    \93\ Cf. Reno v. ACLU, 521 U.S. 844, 885 (1997) (rejecting on 
similar though slightly different grounds a similar argument in support 
of restrictions on sexually themed speech).
---------------------------------------------------------------------------

D. Preventing Misconduct and Crime
    1. Discrimination.
    Speech that reveals some kinds of information about people may make 
it easier for the listeners to act illegally or supposedly unfairly 
towards those people. One commonly given example is the risk that 
certain health-related information might fall into the hands of your 
health insurance company. ``Say that the insurance company learns that 
you eat a lot of pizza and steak, and therefore concludes that you'll 
probably have higher cholesterol and a higher risk of heart disease,'' 
the argument goes; ``it might then raise your rates.'' Another example 
is the risk that information about people's past crimes, alcoholism, or 
drug abuse will become known to employers, who will then refuse to hire 
these people.<SUP>94</SUP>
---------------------------------------------------------------------------
    \94\ See, e.g., James Rachels, Why Privacy Is Important, 4 Phil. & 
Pub. Aff. 323, 324 (1975) (``Revealing a pattern of alcoholism or drug 
abuse can result in a man's losing his job or make it impossible for 
him to obtain insurance protection . . .'').
---------------------------------------------------------------------------
    I can certainly see why people might be offended by their insurance 
company ``snooping'' on them this way. I can also see why it might be 
in the unhealthy eaters' financial interest (and I should mention that 
I love meat and cheese) not to be identified as such, so they can be 
subsidized by the healthy eaters with whom they pool their risk. 
Similarly, closet smokers would prefer, if possible, that life 
insurance companies not be able to identify them as smokers. But the 
question is not just whether the communication of this information is 
offensive or financially costly to its subjects, but rather whether the 
government may suppress such communication.
    If discrimination in insurance based on the insureds' eating habits 
is legal, as it is with respect to smoking habits, then it's hard to 
see how the risk of such lawful discrimination can justify restricting 
speech. True, one's buying habits are not a perfect proxy for one's 
eating habits (maybe the buyer is a healthy eater who is buying the 
pizza entirely for his roommate), but insurance is all about using 
imperfect but lawful predictors.
    Being above twenty-five and being a good student don't perfectly 
predict whether someone will drive safely; smoking and being older 
don't perfectly predict whether someone will die soon; but virtually 
nothing perfectly predicts anything else. Likewise, many employers 
might consider a person's criminal record, alcoholism, or drug abuse 
relevant to whether they should entrust their property, their clients' 
well-being, <SUP>95</SUP> or a $100 million oil tanker to that person.
---------------------------------------------------------------------------
    \95\ Employers not only have moral and business reasons to make 
sure that they don't hire people who might abuse their customers, but 
legal reasons, too: A negligent failure to discover that an employee 
has a criminal record may lead to liability for negligent hiring if the 
employee later attacks a customer. See, e.g., Carlsen v. Wackenhut 
Corp., 868 P.2d 882, 888 (Wash. App. 1994).
---------------------------------------------------------------------------
    But even if the government outlaws discrimination based on 
insureds' eating habits, or discrimination based on a person's 
alcoholism, drug use, or criminal past, <SUP>96</SUP> the basic First 
Amendment rule is that while the government may restrict conduct, it 
generally can't restrict speech simply because some people may at some 
time be moved by the speech to act illegally.<SUP>97</SUP> The law has 
plenty of tools to fight such discrimination directly. They are not 
perfect tools, but under the First Amendment the government may not try 
to compensate for their imperfection by suppressing speech.
---------------------------------------------------------------------------
    \96\ See N.Y. Corr. Law Sec. Sec. 752, 753 (generally barring 
employment discrimination based on criminal record); Wisc. Stat. Ann. 
Sec. Sec. 111.31, 111.32 (same).
    \97\ See, e.g., Brandenburg v. Ohio, 395 U.S. 444 (1969).
---------------------------------------------------------------------------
    The government may not suppress advocacy of discrimination based on 
race, criminal history, alcoholism, drug use, or pizza consumption, 
even though such advocacy may lead some people to actually engage in 
such discrimination. Likewise, the government may not suppress speech 
about particular people's criminal history, alcoholism, drug use, or 
pizza consumption, even though such speech may lead some people to 
engage in the discrimination.

    2. Fraud and violent crime.
    In a few cases, revealing certain information about people may make 
it easier for others to defraud or otherwise victimize them.
    Under what circumstances the government may restrict speech that 
facilitates the commission of crime is a difficult and so far largely 
uninvestigated question.<SUP>98</SUP> It arises in many cases which 
have nothing to do with revelation of personal information, because 
personal information is just one of many kinds of information that can 
make it easier for people to commit crimes. For instance, the most 
prominent recent case that upheld a restriction on crime-facilitating 
speech involved a lawsuit against the publisher of a murder-for-hire 
manual.<SUP>99</SUP>
---------------------------------------------------------------------------
    \98\ See U.S. Department of Justice, 1997 Report on the 
Availability of Bombmaking Information, available at <http://
www.usdoj.gov/criminal/cybercrime/bombmakinginfo.html>; Kent 
Greenawalt, Speech, Crime, and the Uses of Language (1989); Eugene 
Volokh, Crime-Facilitating Speech (in progress).
    \99\ See Rice v. Paladin Press, 128 F.3d 233 (4th Cir. 1997).
---------------------------------------------------------------------------
    Moreover, even crime-facilitating speech that's focused on 
particular targets may involve information that few would consider 
especially private: For example, if we're concerned about speech that 
facilitates fraud or theft, publishing information about a business's 
security vulnerabilities or a list of the business's computer passwords 
may create as much risk of fraud as publishing a person's social 
security number would.
    I won't try to resolve this question here, but only want to offer 
three observations. First, the fact that speech facilitates crime 
doesn't always justify restricting the speech (even if it sometimes 
might): Consider, for instance, normal chemistry books, which may be 
used by criminals to learn how to make explosives, <SUP>100</SUP> or 
detective stories that describe particularly effective ways to commit a 
crime.
---------------------------------------------------------------------------
    \100\ See, e.g., U.S. Department of Justice, supra note 97 (listing 
a chemistry book from the respected Telford Press and books on 
explosives from the U.S. Bureau of Mines and the Association of 
Australian State Road Authorities among sources ``useful to individuals 
bent upon constructing bombs and other dangerous weapons'').
---------------------------------------------------------------------------
    Second, the strongest argument for restricting speech that reveals 
crime-facilitating personal information is that the speech facilitates 
crime, not that it reveals personal information. It is therefore 
probably most useful to analyze such speech as a kind of crime-
facilitating speech, rather than as a specimen of revelation of 
personal data.
    Third, the crime facilitation concern at most supports narrow 
restrictions on the particular kinds of speech that materially risk 
facilitating crime.<SUP>101</SUP> Whatever support there may be for a 
general right to suppress either speech that reveals embarrassing 
personal information or speech that reveals information about a 
person's purchases, the fact that a few kinds of such speech may 
facilitate crime can't justify these broad restrictions.
---------------------------------------------------------------------------
    \101\ Cf. Florida Star v. B.J.F., 491 U.S. 524, 537, 539 (1989); 
id. at 542 (Scalia, J., concurring in part and concurring in the 
judgment).
---------------------------------------------------------------------------
                               CONCLUSION

    I have made three arguments:

    1. Despite their intuitive appeal, restrictions on speech that 
reveals personal information are constitutional under current doctrine 
only if they are imposed by contract, express or implied. There might 
possibly be room for restrictions on revelations that are both 
extremely embarrassing and seem to have virtually no redeeming value, 
such as unauthorized distribution of nude pictures or possibly the 
publication of the names of rape victims, and perhaps for speech that 
makes it substantially easier for people to commit crimes against its 
subjects. Even these, though, pose significant doctrinal problems.
    2. Asking courts to expand the doctrine to create a new exception 
may give supporters of information privacy speech restrictions much 
more than they bargained for. All the proposals for such expansion--
whether based on an intellectual property theory, a commercial speech 
theory, a private concern speech theory, or a compelling government 
interest theory--would, if accepted, become strong precedent for other 
speech restrictions, including ones that have already been proposed. 
The analogies between the arguments used to support information privacy 
speech restrictions and the arguments used to support the other 
restrictions are direct and powerful.
    And accepting the principles that the government should enforce a 
right to stop others from speaking about us and that it's the 
government's job to create ``codes of fair information practices'' 
controlling private parties' speech may shift courts and the public to 
an attitude that is more accepting of government policing of speech 
generally. The risk of unintended consequences thus seems to me quite 
high.

    3. People who generally oppose any broad diminution of free speech 
protections but who think information privacy speech restrictions must 
be upheld, can try to set forth their proposed new exception and its 
supporting arguments as carefully and narrowly as possible. I hope 
their attempt to craft such a well-cabined, narrow rationale for any 
such new exception will be helped by this Article, which highlights 
some of the analogies that generally pro-speech-restriction forces 
might use to expand any exception that is created. Maybe with a very 
carefully drawn exception, my fears about the unintended consequences 
of recognizing such exceptions won't come to pass.
    But some people may reluctantly conclude that the risk is just too 
great. We protect a good deal of speech we hate because we fear that 
restricting it will jeopardize the speech we value. Some people may 
likewise conclude that it's better to protect information privacy in 
ways other than speech restriction--through contract, technological 
self-protection, market pressures, restraints on government collection 
and revelation of information, and social norms--than to create a new 
exception that may eventually justify many more restrictions than the 
one for which it is created.

    Mr. Stearns. Professor Rubin?

                     STATEMENT OF PAUL RUBIN

    Mr. Rubin. Thank you, Mr. Chairman and members of the 
subcommittee. I thank you for letting me testify.
    Mr. Stearns. Could you just pull one of the microphones up 
to you?
    Mr. Rubin. Oh, I am sorry.
    Mr. Stearns. That is fine.
    Mr. Rubin. Thank you for inviting me to testify today.
    Mr. Stearns. Maybe just a shade closer. Good.
    Mr. Rubin. I am currently in the process of completing a 
major study of the issue of privacy for the Progress and 
Freedom Foundation. My testimony and the forthcoming study is 
concerned with the commercial market for personal information 
that is used for advertising and marketing purposes, so I want 
to confine my remarks to that segment of the issue.
    In my written testimony, I make five basic points. First, 
consumers receive large benefits from the commercial use of 
information. Advertising revenues support many valuable 
services that are provided free over the Internet, and we all 
know what some of these are. Information makes it possible to 
target advertising messages to consumers' interests, and the 
result is, as Professor Cate indicated, better information; 
reduces the amount of spam and other undesired messages, 
because advertisers are better able to target us if they have 
this information.
    Second, the way information is used on the Internet is 
highly impersonal. Humans do not see or handle the information. 
It is generated and manipulated by computers. So we have this 
intuition that somebody knows something, but in many cases, the 
knowledge is embedded on a computer somewhere; no person has 
access to the information. The typical unit of commerce in 
online advertising is an ad based on 1,000 browsers. So it is a 
large block of potential viewers rather than an individual.
    Third point: despite consumer concerns, there does not 
appear to be actual evidence of harm to consumers from the 
legal use of information for marketing and advertising 
purposes. I want to stress that it is the legal information, so 
there are illegal uses, of course, but the legal use does not 
seem to have led to any harm. We have heard some stories from 
members of the committee this morning on, for example, medical 
records and so forth, but these are not commercial use of 
information. From the commercial use, there seems to be no 
evidence.
    In a year-end summary dealing with privacy issues, C-NET, a 
leading new economy news source, said despite the fears and 
concerns, there were no publicized horror stories that resulted 
from a privacy invasion. As I said, illegal use of information 
such as credit card fraud and identity theft do cause real 
harms. These are already, of course, against the law and do not 
appear to be closely related to online activities. James Hust, 
the Inspector General of the U.S. said with respect to identity 
theft this is not an Internet crime and never was, and the FTC 
is on record--officials of the FTC are on record also 
indicating that there is no higher level, no evidence of a 
higher level of fraud or identity theft based on the Internet 
than based on other sources of information.
    The fourth point: we have heard people say that privacy is 
good business, and I think it is good business, and what you 
expect if something is good business, you expect business to 
respond, and we have a lot of evidence that business is, in 
fact, responding to privacy concerns. I have some charts here. 
The first chart indicates that in several cases, firms have 
undertaken some action which has later turned out to bother 
consumers; consumers protested, and the firms have canceled the 
action solely based on consumer response. Probably the best-
known is Double-Click's purchase of Abacus, which was canceled 
because of consumer concerns about the use of information.
    So there is a mechanism there. Second, there are voluntary 
standards organizations, numerous voluntary standards 
organizations; trustee; BBB Online; the Direct Marketing 
Association has principles of privacy; and accounting firms 
provide privacy audits; again, a market response to privacy 
issues. There is also something about to come online, P3P, 
which has been mentioned and may go a long way toward 
alleviating privacy concerns.
    And then, we see firms beginning to advertise privacy as 
well. Part of this morning's Post has an article: Earthlink 
resorts to restroom ads, but the restroom ads referred to in 
the Post deal with privacy. So firms are perceiving that 
privacy is something consumers want, and not only are they 
posting privacy policies on their Websites, but they are 
actually advertising that they offer better privacy.
    Fourth, there are lots of technologies that consumers can 
use: cookie rejection technologies, anonymous browsers, so 
there are alternatives out there for consumers particularly 
concerned with privacy.
    The fifth point: regulation of the market for personal 
information is potentially very costly. Congress should proceed 
cautiously based on a careful evaluation of the benefits and 
costs. Based on the evidence thusfar available, the case for 
new regulation is weak. The market seems to be rapidly evolving 
to meet privacy concerns. Regulation of the market would entail 
cost in terms of fewer consumer choices. It would also have an 
adverse effect on innovation and competition. These costs are 
likely to outweigh potential benefits which appear small, 
because there is little evidence that consumers are now being 
harmed by misuse of this information.
    Thank you.
    [The prepared statement of Paul Rubin follows:]
Prepared Statement of Paul H. Rubin,<SUP>1</SUP> Professor of Economics 
                       and Law, Emory University
---------------------------------------------------------------------------
    \1\ Paul Rubin is Professor of Economics and Law at Emory 
University and Senior Fellow at The Progress & Freedom Foundation. The 
views expressed here are his own.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to testify on ``Privacy in the Commercial World.'' I am 
currently in the process of completing a major study of this issue for 
The Progress & Freedom Foundation.
    Recent advances in information technologies have reduced the costs 
of collecting, storing, retrieving and transmitting information of all 
kinds. While the economic and social impacts of these advances have 
been overwhelmingly positive, they have also raised concerns on the 
part of individuals about who has access to their personal information 
and how it is being used. These concerns, in turn, have led to calls 
for new government regulation.
    In order to decide whether regulation is in order, and, if so, what 
form it should take, basic public policy questions need to be answered:

<bullet> Are there market failures in the market for personal 
        information?
<bullet> If market failures exist, how do they adversely affect 
        consumers?
<bullet> Can such failures be remedied by government regulation?
<bullet> Would the benefits of government regulation exceed the costs?
<bullet> Are specific legislative and/or regulatory proposals cost-
        effective in achieving their goals.
    The purpose of the PFF study is to make a start toward answering 
these questions.
    My testimony--and the forthcoming PFF study--is concerned with the 
commercial market for personal information that is used for advertising 
and marketing purposes. Thus, it does not specifically address a number 
of other issues that are sometimes discussed under the overall umbrella 
of ``privacy,'' but raise different concerns.
    My work does not address particularly sensitive types of 
information, such as health information, personal financial information 
or information about children. These types of information are already 
subject to regulatory programs specifically tailored for them.
    I also do not address illegal uses of information, such as credit 
card fraud and identity theft. These are serious crimes, and impose 
significant costs on consumers and businesses. However, they are 
already against the law. Identity theft is a Federal crime, and a crime 
in 22 states,<SUP>2</SUP> and the use of someone else's credit card is 
illegal in all 50 states.
---------------------------------------------------------------------------
    \2\ CALPIRG, ``Nowhere to Turn: Victims Speak Out On Identity 
Theft,'' available on the CALPIRG Website, http://www.pirg.org/calpirg/
consumer/privacy/idtheft2000/toppage1.htm visited January 12, 2001.
---------------------------------------------------------------------------
    Moreover, the incidence of these crimes does not appear to be 
related to online activities. In a recent article, for example, Betsy 
Broder, Assistant Director for Planning and Information at the FTC is 
quoted as saying: ``The Internet is probably not as large a part of the 
problem [of identity theft] as people suspect.'' <SUP>3</SUP> Ms. 
Broder also said ``None of the statistics show a greater vulnerability 
of consumers who are shopping online.'' <SUP>4</SUP> This is consistent 
with the findings of a study of 66 victims of identity theft, which 
found that only two of the 66 (about three percent) ``had reason to 
believe that the thief had obtained their information via the 
Internet.'' <SUP>5</SUP> The Inspector General of the United States, 
James Huse, has said, with respect to identity theft, ``This is not an 
Internet crime and never was.'' <SUP>6</SUP>
---------------------------------------------------------------------------
    \3\ Quoted in Danielle Sessa, ``The Best Way to . . . Keep Safe,'' 
The Wall Street Journal, Nov. 27, 2000, R25.
    \4\ Quoted in Susan Stellin, ``Using Credit Cards Online Remains 
Safe Despite High-Profile Security Lapses,'' New York Times October 16, 
2000.
    \5\ CALPIRG, ``Nowhere to Turn: Victims Speak Out On Identity 
Theft,'' available on the CALPIRG Website, http://www.pirg.org/calpirg/
consumer/privacy/idtheft2000/toppage1.htm visited January 12, 2001, p. 
6.
    \6\ Scott Bernard Nelson, ``Identity Crisis,'' The Boston Globe, 
August 27, 2000. He does add: ``But technology has created new ways of 
storing and selling personal information and it's likely to create more 
and more headaches in the future.''
---------------------------------------------------------------------------
    Finally, my testimony does not concern government collection and 
use of information. Because, as a nation, we are concerned about the 
misuse of government power, government is constitutionally constrained 
in its ability to obtain information about individuals, as when it uses 
software such as ``Carnivore'' to search emails. It is also justifiable 
to hold government to a stricter standard with respect to the 
information it controls, because government has mandatory access to 
much of that information.

               THE COMMERCIAL USE OF PERSONAL INFORMATION

    Data on individuals has been used by marketers and advertisers long 
before the advent of the Internet. But, the Internet has increased the 
flow of personal information and, in the process, raised the level of 
individuals' concerns about privacy.
    On the Internet, targeted advertising is accomplished by examining 
individuals' online activities, developing an understanding of their 
interests, and then matching and delivering relevant advertisements. 
This is accomplished by compiling individuals' web-browsing activities 
and applying database technologies and statistical models that yield 
demographic and interest profiles, commonly referred to as consumer 
profiles. Advertisements relevant to consumers' profiles are then 
inserted in the Web pages they visit.
    Advertising firms, such as DoubleClick and 24/7, deliver targeted 
advertisements to Internet users that visit popular Websites. Website 
operators receive advertising revenues based on pages viewed and 
advertisements delivered. Advertising is a major source of revenue for 
Websites such as search engines, directories and portals, and is 
growing rapidly. U.S. companies spent $3.5 billion on Web advertising 
in 1999. Revenue in the second quarter of 2000 was $2.1 billion. 
Advertising spending on the Web is predicted to increase to $16.5 
billion by 2005, making online spending eight percent of the total 
amount spent on advertising. <SUP>7</SUP> This advertising in turn 
fuels billions of dollars in online purchases.
---------------------------------------------------------------------------
    \7\ The Standard, ``Net Ads Keep on Ticking,'' by Stacey Lawrence, 
September 4, 2000. Available on-line at: http://www.thestandard.com/
research/metrics/display/0,2799,18155,00.html. Visited September 20, 
2000.
---------------------------------------------------------------------------
    Advertisers use personal data to identify individuals who are more 
interested than the average in purchasing some product or service. The 
search begins with the product, and seeks out individuals who might 
have an interest in the product. A seller does not ask ``What can I 
sell to Paul Rubin?'' Rather, a seller asks an advertiser such as 
DoubleClick or 24/7 to ``Put my ad on 1,000,000 pages viewed on 
computers of persons more likely than average to want a new car'' and 
perhaps Paul Rubin's computer turns out to be one of those selected. 
But, no human makes this determination; rather, it is made by various 
computers connecting with each other. Moreover, the unit of commerce in 
the online advertising market is typically 1000 persons, not any 
individual. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ ``All rates are expressed in cost per thousand (CPM) ad banner 
impressions.'' From DoubleClick's Rate Card, http://
www.doubleclick.net:80/us/advertisers/media/network/info/rate-
card.asp?asp__object__1=& , visited February 22, 2001.
---------------------------------------------------------------------------

                           CONSUMER BENEFITS

    Consumers benefit from this advertising in numerous ways. First, 
advertising revenues support many valuable services that are provided 
to consumers at no charge. These services include free email and pages 
from firms like Yahoo! customized to contain information of direct 
interest to the particular individual.<SUP>9</SUP> The amount of free 
information available on the Internet is truly remarkable, and this 
information is paid for through advertising. Internet advertising firms 
such as DoubleClick provide customized advertising to smaller Websites 
that use the revenues from this advertising to support themselves. 
Larger firms, such as AOL and Yahoo!, can internally provide the same 
services that DoubleClick and its competitors provide for the smaller 
sites.
---------------------------------------------------------------------------
    \9\ I use a free customized page from Yahoo! as my own homepage. 
This contains information in many categories that I have selected: 
headlines on selected topics from Reuters and AP; information about 
chosen stocks and stock indices; weather in selected cities; and movies 
in my neighborhood. Many other categories are also available. For all 
of this information, much more detail is available from a mouseclick.
---------------------------------------------------------------------------
    Second, consumers benefit from receiving information that is 
targeted to their interests. Consumers value learning about products 
they are likely to buy. Even if some advertising does not lead directly 
to a purchase, the information may still enable a consumer to compare 
prices among products, or to determine what products are available.
    Targeted advertising reduces the likelihood that consumers will be 
bothered with information that is of no interest to them, and marketers 
have an incentive to avoid sending messages to consumers who aren't 
interested. Consumers are likely to avoid Websites that routinely 
display useless information, or to ignore, delete or screen out 
messages from marketers who send the irrelevant emails commonly 
described as ``spam.'' Thus, both consumers and advertisers have an 
interest in better targeting of advertising messages.
    Generally, markets work better with better information. As the cost 
of information goes down, market participants will obtain more of it 
and will consequently make better decisions. For example, if merchants 
can better estimate demand, they are less likely to purchase excess 
inventories, reducing costs and even lessening swings in overall 
economic activity. Similarly, geographic computer-based information can 
enable bricks-and-mortar merchants to put their new stores in the 
places that best serve consumers, and to stock the most useful 
merchandise for nearby consumers in those stores. Such examples can be 
multiplied without limit--all agents in the economy will benefit from 
better information. Electronic information has led to a major reduction 
in the cost of information and therefore a major increase in the amount 
of information available to the economy, and any policy that reduces 
the amount of such information below the efficient amount will have 
detrimental effects on the economy.
    Finally, an important characteristic of information is that--in 
contrast to many other goods--it can be used many times without being 
used up. If I know something and tell you, then we both know it. This 
``public good'' characteristic is an important reason for the 
productivity of information. For the type of commercial information 
discussed here, advertisers, credit institutions, and insurance 
companies use the same information, and it is useful to all of them. 
Indeed, the various information users cooperate in generating this 
information because they all find it valuable.
    Thus, if there are externalities associated with the commercial use 
of information, they are more likely to be positive than negative. This 
means that it is more likely that not enough information is available 
than that too much information is available. Regulation that would 
reduce the use and availability of information would exacerbate this 
problem.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ It is sometimes argued that information should be used only 
for the purpose for which was collected. In fact, this is part of the 
European Union Directive on the Protection of it Personal Data. 
However, this restriction on information use imposes a real cost on the 
economy, in that many productive uses would be denied.
---------------------------------------------------------------------------

                        IS THERE MARKET FAILURE?

    From an economic point of view, regulation of the market for 
information should only be undertaken if the market is not functioning 
correctly. Market failure in this context would mean that consumers' 
preferences concerning the amount and use of their information are not 
being accurately transmitted and responded to in the marketplace. If 
the market is working well, there is no need for government 
intervention.
Consumer Harm
    Given widespread consumer concerns about privacy and perceptions 
that personal information may be subject to misuse, it is noteworthy 
that there does not appear to be actual evidence of harm to consumers 
from the legal use of information for marketing and advertising 
purposes. In an economy with 281 million individuals, there does not 
even appear to be much in the way of anecdotal evidence of harms 
resulting from violations of privacy in connection with such marketing 
activities. For example, in a year-end summary for 2000 dealing with 
privacy issues, CNET, a leading ``New Economy'' news source, indicated 
that there were no mishaps involving commercial use of personal 
information in 2000: ``Despite the fears and concerns, there were no 
publicized horror stories that resulted from a privacy invasion.'' 
<SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ Patricia Jacobus, ``Privacy heats up but doesn't boil over,'' 
CNET News, December 22, 2000, available online at http://news.cnet.com/
news/0-1005-200-4238135.html?tag=st.cn.sr.ne.1, visited December 25, 
2000.
---------------------------------------------------------------------------
    Much of the anecdotal evidence of ``harm'' that does exist concerns 
activities that have nothing to do with the use of information for 
marketing purposes. For example, a New York Times magazine article by 
Jeffrey Rosen <SUP>12</SUP> provides anecdotes about individuals who 
have been harmed by invasions of their privacy, but none concern misuse 
of advertising data. He discusses, for example, Monica Lewinsky's 
emails and various archives kept by chat rooms, and employer monitoring 
of email and surfing. None of his evidence or examples of harm apply to 
marketing or advertising information.
---------------------------------------------------------------------------
    \12\ Jeffrey Rosen (2000), ``The Eroded Self,'' New York Times 
Magazine, April 30, p. 46.
---------------------------------------------------------------------------
    It might be argued that, even though there has been no harm thus 
far, there might be in the future. But, given the absence of harm thus 
far, the risk would seem to be small.
Consumer Interaction with Websites
    Perhaps part of the reason we see no evidence of consumer harm is 
that there are a variety of market mechanisms now available to 
consumers to make known their preferences with respect to the use of 
their personal information.
    Reputation Effects. Consumers are not without recourse if firms use 
their information in ways they don't like. Consumers can simply stop 
doing business with the offending firm, and the evidence shows they are 
quite willing to do so. In fact, reputation effects are powerful, and 
the evidence shows that when a firm does something that is perceived as 
harming its reputation with consumers, the firm suffers a substantial 
loss in value.<SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ For a summary of the literature, see Kari Jones and Paul H. 
Rubin, ``Effects of Harmful Environmental Events on the Reputations of 
Firms,'' Advances in Financial Economics (forthcoming), 2001, edited by 
Mark Hirschey, Kose John and Anil K Makhija, available online at http:/
/papers.ssrn.com/paper.taf?ABSTRACT__ID=158849.
---------------------------------------------------------------------------
    Reputation effects can be expected to be particularly strong among 
firms operating on the Internet, where communication between consumers 
is easy and inexpensive. Consumers quickly learn about what they 
perceive as misdeeds by a firm:

<bullet> When Amazon appeared to have engaged in ``dynamic pricing'' 
        (what economists call price discrimination) consumers learned 
        about it quickly and many became irate.<SUP>14</SUP> Such 
        pricing is probably efficient, <SUP>15</SUP> but nonetheless 
        the firm has promised not to engage in this practice.
---------------------------------------------------------------------------
    \14\ David Streitfeld, ``On the Web, Price Tags Blur,'' Washington 
Post, September 27, 2000. Amazon denies that it was engaged in dynamic 
pricing or price discrimination.
    \15\ Paul Krugman (2000), ``What Price Fairness?'', New York Times 
October 4.
---------------------------------------------------------------------------
<bullet> In 1997, America Online had plans to sell telephone numbers of 
        its subscribers to telemarketers, but cancelled those plans in 
        response to angry reactions from subscribers.<SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ This and the following two examples are from Jessica Litman, 
``Information Privacy/Information Property,'' 52 Stanford Law Review, 
1283-1313, May, 2000, at 1305-6.
---------------------------------------------------------------------------
<bullet> In 1998, CVS pharmacy arranged for another company to contact 
        consumers who failed to refill prescriptions. Again, consumer 
        dissatisfaction led to the plans being called off.
<bullet> In 1999, RealNetworks was forced to change its software when 
        it was learned that its product, RealJukebox, collected 
        information on users' habits.
<bullet> Yahoo! eliminated the reverse telephone number search from its 
        search site in response to consumer unhappiness.<SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ This and the following two examples are from Daniel J. Solove, 
``Privacy and Power: Computer Databases and Metaphors for Information 
Privacy,'' p. 27, available online through SSRN.Com, 56-57.
---------------------------------------------------------------------------
<bullet> Lotus cancelled plans to sell data about 120 million citizens.
<bullet> Lexis-Nexis also cancelled plans to sell information about 
        millions of persons.
<bullet> More recently, a firm called N2H2, which makes filtering 
        software, has stopped selling information about Websites 
        visited by students, because many felt that such sales were 
        improper.<SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Associated Press, ``Internet Co. Drops Data Selling Plan,'' 
Feb. 22, 2001. Note that the plan did not sell personally identifiable 
information.
---------------------------------------------------------------------------
<bullet> Finally, there is the well-known story of DoubleClick's 
        cancelled plan to link online and personally identifiable 
        information through its acquisition of Abacus 
        Direct.<SUP>19</SUP>
---------------------------------------------------------------------------
    \19\ Discussed at numerous places. See for example Diane Anderson 
and Keith Perine, ``Marketing the Double Click Way,'' The Standard, 
March 13, 2000.
---------------------------------------------------------------------------
    The critical point is that when businesses use information in ways 
that consumers do not like, they quickly learn about it, and the firms 
are forced to stop. Such reputational penalties may be among the 
strongest protections available to consumers. The main asset that on-
line marketers own is their reputation with consumers. Any use of 
information in a way that reduces the value of that reputation would be 
counterproductive for the firm. Moreover, the very nature of 
information on the Internet means that consumers are likely to learn 
about such uses.
    This suggests that arguments about asymmetric information, such as 
have been advanced by Peter Swire, are incorrect.<SUP>20</SUP> Such 
arguments claim that consumers will not have adequate incentives to 
learn about the policies of any Website with respect to privacy, and 
therefore Websites will not have adequate incentives to provide 
appropriate privacy protections. This may be true for many consumers. 
However, as discussed above, if they find privacy policies 
unsatisfactory, when they do learn about them, the market reaction will 
be strongly adverse. This provides a sufficient incentive to Websites 
to provide their customers with satisfactory privacy policies.
---------------------------------------------------------------------------
    \20\ See Peter Swire, ``Markets, Self-Regulation, and Government 
Enforcement in the Protection of Personal Information,'' in Privacy and 
Self-Regulation in the Information Age, U. S. Department of Commerce, 
Washington, DC, 1997, http://www.ntia.doc.gov/reports/privacy/
selfreg1.htm.
---------------------------------------------------------------------------
    We also see firms taking many positive steps to protect their 
reputations. IBM, Microsoft, Disney, Intel, Compaq, Novell, Procter & 
Gamble, and American Express do not advertise on Websites that do not 
have privacy policies.<SUP>21</SUP> Presumably, this is to protect 
their reputations. As a method of protecting reputations, firms are 
increasingly hiring ``chief privacy officers'' (CPOs) and giving them 
substantial power and discretion in setting company policies. Alan 
Westin, a well-known privacy expert, offers a training course for this 
position.<SUP>22</SUP> There are now about 100 CPOs, and it is 
estimated that there will be 500 by the end of next year.<SUP>23</SUP>
---------------------------------------------------------------------------
    \21\ ``It's Time for Rules in Wonderland,'' Business Week, March 
20, 2000; ``Towards Digital eQuality--The Second Annual Report of the 
US Government's Work Group On Electronic Commerce'', December, 1999.
    \22\ http://www.pandab.org/.,visited November 13, 2000.
    \23\ Kemba J. Dunham, ``The Jungle: Focus on Recruitment, Pay and 
Getting Ahead: A New Playing Field,'' The Wall Street Journal March 20, 
2001.
---------------------------------------------------------------------------
    Technologies of Choice. There are numerous technologies now 
available that allow consumers to address their privacy concerns:

<bullet> Basic browsers now allow some customization with little 
        effort. For example, Netscape allows a user four options with 
        respect to cookies. Microsoft also offers some control.
<bullet> Other options allow control of cookies. From one site, 
        approximately forty programs that allow control of cookies can 
        be downloaded.<SUP>24</SUP> These programs allow one to refuse 
        certain cookies, or to easily delete cookies after they are 
        received.
---------------------------------------------------------------------------
    \24\ Downloaded on October 25, 2000 from ZDNet Downloads (http://
www.zdnet.com/down
loads/), a popular source for software, using a search for ``cookie''
---------------------------------------------------------------------------
<bullet> There are also several services that allow anonymous surfing, 
        including Anonymizer.com, IDZap.Com, iPrivacy.com, SafeWeb, 
        SilentSurf.com, and others as well. These services offer 
        different levels of control over information, depending on the 
        consumer's preferences and willingness to bear the 
        inconvenience costs of protecting information.
<bullet> In addition, American Express now offers a ``one-time'' credit 
        card number, good only for one purchase, designed for Internet 
        use. Since Websites selling products to consumers using this 
        card never have access to information about the consumer, 
        privacy is protected.
Consumers concerned about privacy are able to use any of these 
services, some free, to protect their information online.<SUP>25</SUP>
---------------------------------------------------------------------------
    \25\ Some of these are discussed in Don Clark, ``Privacy: You Have 
No Secrets,'' The Wall Street Journal, October 23, 2000 and Lorrie 
Faith Cranor, ``Agents of Choice: Tools That Facilitate Notice and 
Choice about Web Site Data Practices'', available online from http://
www.research.
att.com/~lorrie/#publications.
---------------------------------------------------------------------------
    Importantly, the World Wide Web Consortium (W3C), a consortium of 
488 members (as of December 22, 2000), including the largest players on 
the Internet, such as Microsoft, America Online and Cisco, 
<SUP>26</SUP> is in the process of drafting a major private privacy 
protocol, the Privacy Preferences Project, P3P.<SUP>27</SUP> If P3P is 
successful, it will provide standardized information in machine-
readable form about each Website's privacy policy. Individuals will 
then be able to configure their own browsers to deal with the Website. 
Major players in the Internet world are participants in this endeavor. 
Moreover, Microsoft will begin incorporating P3P standards in its 
software.<SUP>28</SUP> It will also be available as a downloadable 
plug-in.<SUP>29</SUP> This will solve one side of the ``chicken-and-
egg'' problem. Since the software will be available to consumers, 
Websites will have a ready-made audience if they install the other side 
of the package. Lessig <SUP>30</SUP> also discusses the possibility of 
P3P leading to increased negotiation and customization of privacy 
policies, as do several others.
---------------------------------------------------------------------------
    \26\ For the W3C homepage, see http://www.w3.org. For the list of 
members, see http://www.w3.org/Consortium/Member/List, visited December 
22, 2000.
    \27\ http://www.w3.org/P3P/.
    \28\ ``New Tools to Help Web Surfers Protect Privacy,'' Associated 
Press, June 22, 2000.
    \29\ Elizabeth Weise, ``Privacy plug-in will ask: `Do you want to 
go there?' '' USA Today, July 11, 2000.
    \30\ Lawrence Lessig, ``The Architecture of Privacy,'' 1998, 
Online, http://cyber.law.harvard.edu/works/lessig/
architecture__priv.pdf.
---------------------------------------------------------------------------
    There are other technologies on the horizon that may provide other 
solutions. One is the evolution of ``trusted systems.'' These are 
envisioned as computer protections that limit the way in which data can 
be copied. While they are being developed to protect intellectual 
property, such as music, movies and books, it may be possible for these 
technologies to be adapted to protect consumer information as 
well.<SUP>31</SUP>
---------------------------------------------------------------------------
    \31\ Jonathan Zittrain, ``What the Publisher Can Teach the Patient: 
Intellectual Property and Privacy in an Era of Trusted Privication, 52 
Stanford Law Review 1201-1250, May 2000.
---------------------------------------------------------------------------
    Voluntary Standards. Voluntary standards, defined and enforced by 
third parties or by consortia of Web operators, are an important 
mechanism to inform consumers that a Website meets certain minimum 
standards. Such standards improve the functioning of the market and are 
not merely an attempt by industry to ward off government regulation.
    There are already several voluntary programs in existence that 
certify that a Website meets certain privacy standards:

<bullet> A Website can voluntarily join TRUSTe, for example. 
        <SUP>32</SUP> If it does, a link is put on the website and by 
        clicking on this link, a visitor can view the site's privacy 
        policy. TRUSTe audits Websites to ensure compliance with stated 
        privacy policies. As of December 22, 2000, 1,570 firms were 
        members of TRUSTe.<SUP>33</SUP>
---------------------------------------------------------------------------
    \32\ Website: http://www.truste.org.
    \33\ Found at http://www.truste.org/users/users__lookup.html 
visited December 22, 2000.
---------------------------------------------------------------------------
<bullet> The Better Business Bureau also has a certifying program, 
        BBBOnLine, that performs similar functions.<SUP>34</SUP>
---------------------------------------------------------------------------
    \34\ http://www.bbbonline.org/
---------------------------------------------------------------------------
<bullet> The Direct Marketing Association has various voluntary 
        standards in place, including a method consumers can use to 
        have their names removed from email lists, and members of the 
        association must meet certain requirements regarding privacy on 
        the Web.<SUP>35</SUP>
---------------------------------------------------------------------------
    \35\ http://www.the-dma.org.
---------------------------------------------------------------------------
<bullet> Finally, auditing firms, such as PriceWaterhouseCoopers, 
        perform privacy audits and put a box on a website indicating 
        that the site conforms with its stated privacy 
        policy.<SUP>36</SUP>
---------------------------------------------------------------------------
    \36\ Bob Tedeschi ``Sellers Hire Auditors to Verify Privacy 
Policies and Increase Trust,'' New York Times, September 18, 2000.
---------------------------------------------------------------------------
    There is evidence that voluntary standards in the U.S. actually 
work better than mandatory standards imposed by the European 
Commission.<SUP>37</SUP> For example, although ``opt-out'' is required 
in Europe, only 20 percent of Websites actually offer this option to 
consumers; in the U.S., 60 percent of sites offer this choice. About 
twice as many U.S. sites (62 percent) as European sites (32 percent) 
have posted privacy policies. Although all members of the EU now have 
data-privacy commissioners and agencies, these agencies seem unable to 
enforce privacy regulations. Thus, it appears that voluntary self-
regulation provides more privacy protection than does mandatory 
government-imposed regulation.
---------------------------------------------------------------------------
    \37\ Ben Vickers, ``Europe Lags Behind U.S. on Web Privacy: More 
American Firms Let Customers Guard Data, Study Finds,'' The Wall Street 
Journal, February 20, 2001.
---------------------------------------------------------------------------
                  THE BENEFITS AND COSTS OF REGULATION

    The discussion above suggests that the market is responding well to 
consumers privacy concerns. Firms have incentives to provide consumers 
the desired levels of privacy protection and consumers have tools 
available to inform themselves about, and control the use of, their 
data. In addition, there seems to be little if any evidence that 
consumers are suffering harm from the commercial use (or misuse) of 
their personal information. While every regulatory proposal should be 
subjected to a detailed benefit-cost analysis, the absence of serious 
market failure or consumer harm suggests that the potential benefits of 
new regulation will be very small.
    The costs, on the other hand, can be significant, because 
regulation is a cumbersome, inflexible tool and because we do not now 
have the knowledge base to regulate intelligently in this area. As I 
discuss below, regulation can have adverse effects on both innovation 
and competition and slow the development of the Internet economy.
    It is a cliche to say that the Internet is dynamic. But, it is 
true. Any regulation at this time would freeze some aspects of the 
Internet in their current state. Even if the regulators were able to 
devise perfect regulations for today's environment, these regulations 
would quickly become obsolete as the Internet changes. The P3P release 
is P3P 1.0, indicating that, like software in general, the drafters 
expect that the privacy policies embedded in the document will change 
over time. Indeed, at several places in the document itself there are 
indications of directions for change in future versions. Change is the 
normal state of affairs for the Internet and for software and other 
products that interact with the Internet.
    Once an inefficient regulatory scheme is in place, however, it 
becomes very difficult to change. This suggests moving with great 
caution in this area. The FTC has recommended that Congress pass a law 
regulating four aspects of privacy: Notice, Choice, Access and 
Security.<SUP>38</SUP> These may be the correct elements for a privacy 
policy to address. But they also may not be, and the FTC has not done 
the analysis necessary to show that they are. If it should turn out 
that other policies are better, the Internet would nonetheless be 
locked into the FTC's choices. The FTC's desire that all Websites 
structure their privacy policy in the terms dictated by the FTC would 
have the effect of freezing in place a particular policy. This policy 
may not be the best policy now, and almost certainly will not be the 
best policy for the future.
---------------------------------------------------------------------------
    \38\ Federal Trade Commission (2000), Privacy Online: Fair 
Information Practices in the Electronic Marketplace, May 2000. For 
comments on the FTC's proposal, see Orson Swindle, ``Privacy in a 
Digital World: Industry Must Lead, or Government Will Follow,'' The 
Progress & Freedom Foundation, March 2001 (attached).
---------------------------------------------------------------------------

Effect on Choice
    Regulation of this sort is of necessity the ``one size fits all'' 
variety. This might be justified if all consumers had similar or 
identical preferences. But, it is difficult to justify what are in 
essence mandatory product design regulations if preferences differ 
substantially, as is the case with respect to privacy. Some consumers 
view privacy protection as a good thing, but others welcome the 
advertising information they receive when they give out information 
about themselves. As an industry source puts it, ``What's an invasion 
of privacy to one consumer is a great deal to another.'' <SUP>39</SUP> 
When preferences do differ in such significant ways, then some 
consumers must be harmed by regulation.
---------------------------------------------------------------------------
    \39\ Margaret Barnett, The Profilers: Invisible Friends, The 
Industry Standard, March 13, 2000, p. 221.
---------------------------------------------------------------------------
    With respect to Internet privacy, the FTC itself acknowledges that 
consumers differ in their privacy preferences: ``According to one 
panelist, survey research consistently indicates that roughly one-
quarter of the American public is ``intensely'' concerned about privacy 
and that another quarter has little or no concern; the remaining fifty 
percent view this issue pragmatically.'' <SUP>40</SUP> These 
differences are documented carefully in a survey on Internet privacy by 
AT&T.<SUP>41</SUP> For example, those most concerned about Internet 
privacy--those the AT&T report calls ``privacy fundamentalists''--can 
already protect themselves using a variety of techniques discussed 
above. On the other hand, some consumers are so little concerned with 
privacy issues that they are willing to have all of their Web surfing 
monitored. AllAdvantage.com pays consumers to monitor their browsing, 
and some consumers (presumably those less concerned with privacy 
issues) are apparently willing to join this program.<SUP>42</SUP> 
Dash.com provides discounts to consumers who allow monitoring. Many 
other companies provide discounts and benefits of various kinds to 
consumers who are willing to share their information. Thus, consumers 
have radically different preferences regarding Internet privacy, and 
markets are now satisfying all types of preferences. Privacy 
regulations could have the effect of making some business plans 
infeasible and thereby depriving consumers of goods and services that 
are now available.
---------------------------------------------------------------------------
    \40\ In its 1998 Report, Part II, at 2.
    \41\ Lorrie Faith Cranor, Joesph Reagle, and Mark S. Ackerman, 
``Beyond Concern: Understanding Net Users' Attitudes About Online 
Privacy,'' AT&T Labs-Research Technical Report TR 99.4.3, 1999http://
www.research.att.com/library/trs/TRs/99/99.4/
    \42\ http://www.alladvantage.com/home.asp?refid=
---------------------------------------------------------------------------
    The AT&T Report also finds that consumers have very different 
privacy preferences regarding different types of information. For 
example, consumers are less willing to provide Social Security and 
credit card numbers than other types of information. Similarly, 78 
percent would accept cookies to provide a customized service; 60 
percent would accept a cookie for customized advertising; and 44 
percent would accept cookies that convey information to many Web sites. 
This means that any standardized privacy notice would have to be 
exceedingly complex--so complex that few people would be willing to 
read it. Moreover, different pages within the same site might require 
different policies, so virtually each mouse click would require reading 
a new notice. On the other hand, a protocol such as P3P could provide 
customized settings for each type of information and each potential 
use, based on consumers filling out a one-time form when configuring 
their browsers. Of course, some consumers would choose not to do so and 
would merely accept the defaults.

Effect on Innovation
    Regulation will affect potential new uses of the Internet. Uses 
that might otherwise develop will be hindered by excessive regulation. 
The costs in terms of lost innovation are difficult, if not impossible, 
to quantify, because we are not likely to know about potential new uses 
that do not come into being because of regulation. Nonetheless, these 
costs are real, and probably larger than the measurable, direct costs 
of regulation.
    For example, the Internet is becoming more available on handheld 
units, also called Personal Digital Assistants (PDAs), and on Web-
enabled cell phones. Technologies for such uses are becoming 
increasingly easy to use. Some are wireless: Websites are broadcast to 
users. Additionally, it is possible to download Websites to handhelds 
in the process of synchronizing the PDA with a desktop computer. There 
are even new technologies that may make Web information available 
through audio means. But the interaction of these new technologies with 
privacy policies is problematic. One difficulty is provision of 
notification policies on a PDA or mobile telephone screen; these 
screens are too small and too slow to display meaningful notice 
information. Having notice policies read aloud by an audio-enabled 
Website would be even more impractical.
    Moreover, it is commonly agreed that a major innovation in the use 
of the Internet is the increasing extent to which it will be possible 
to track the geographic location of individual consumers, using mobile 
phones or PDAs with GPS chips.<SUP>43</SUP> One advantage of the 
technology (and one of its sources) is a desire by the government to 
better deliver emergency services to injured persons. Chips in mobile 
telephones and other devices and PDAs will have tracking abilities. The 
chips will enable individuals to obtain personalized information 
relevant to their location, such as driving directions or the location 
of restaurants or movies. General Motors is planning to use this 
technology to send information to users of its OnStar vehicle-based 
navigation system.<SUP>44</SUP> Privacy issues are important with these 
devices. Palm is developing an opt-in program for location chips. 
DoubleClick will not begin delivering ads until privacy issues are 
worked out. TRUSTe is developing standards for privacy policies. Of 
course, the difficulties with presenting privacy policies on small 
screens applies to these uses as well.
---------------------------------------------------------------------------
    \43\ Discussed, for example, in Anick Jesdanun, ``Wireless Tracking 
Device Coming Soon,'' AP, October 29, 2000 and Pui-Wing Tam, ``. . . K 
now Where We Are,'' Wall Street Journal, November 13, 2000.
    \44\ Rachel Konrad, General Motors to `push' ads to drivers,'' CNET 
News.com, January 8, 2001.
---------------------------------------------------------------------------
    There are at least two lessons from the story of this technology. 
First, industry is already responding to privacy concerns in developing 
this technology, because it is responding to consumer preferences. 
Second, if a government-mandated privacy policy were in place, it could 
retard or even entirely stop the development of these technologies. For 
example, if there were a law mandating notice and standards for notice, 
the requirements could be inconsistent with the size of screen 
available, and certainly with audible websites. If this were so, then 
consumers could lose the benefits of a valuable technology. This 
potential loss, should it occur, would not even be recognized; people 
do not miss technologies that do not exist.

Effect on Competition
    Regulation of privacy has competitive implications as well. More 
stringent regulatory requirements would have the effect of reducing 
advertising, which typically benefits new entrants and small firms 
relative to large, established firms.<SUP>45</SUP> This would be 
particularly true for Internet advertising, where established firms 
have lists of their own customers and visitors to their Websites, but 
new firms must purchase such lists. The existence of a market for 
customer lists and other such information makes it easier for entrants 
to begin competing. If regulation should reduce the scope of this 
market or increase the cost of information, then competition from new 
entrants would be reduced.
---------------------------------------------------------------------------
    \45\ John E. Calfee, Fear of Persuasion: A New Perspective on 
Advertising and Regulation, American Enterprise Institute, Washington, 
1997.
---------------------------------------------------------------------------
    New privacy standards would also make entry more difficult by 
increasing the fixed costs of doing business. Every online marketer 
would be required to hire an attorney at least to write a ``notice'' 
about privacy policies; full-time CPOs earn between $120,000 and 
$175,000 per year.<SUP>46</SUP> Allowing access and enforcing security 
would also be costly. All of these costs are ``fixed'' costs, and so 
are higher per unit of output for small than for large firms. Thus, any 
such regulations would serve at least in part as a barrier to entry 
against small firms, and as a source of protection for large 
established firms. These policies would lead to increased prices and 
reduced service and, thus, harm consumers.
---------------------------------------------------------------------------
    \46\ Kemba J. Dunham, ``The Jungle: Focus on Recruitment, Pay and 
Getting Ahead: A New Playing Field,'' The Wall Street Journal March 20, 
2001.
---------------------------------------------------------------------------
    In the Internet economy, small startup companies with new ideas and 
new business models have been a particularly important source of 
innovation. Regulations mandating privacy policies or other regulations 
are particularly likely to be harmful in this environment.<SUP>47</SUP>
---------------------------------------------------------------------------
    \47\ Discussed in Peter P. Swire and Robert E. Litan (1998), None 
of Your Business: World Data Flows, Electronic Commerce, and the 
European Privacy Directive, Washington: Brookings Institution Press, at 
78-79.
---------------------------------------------------------------------------
                               CONCLUSION

    To summarize, regulation of the market for personal information 
should proceed cautiously, based on a careful evaluation of the 
benefits and costs of any specific regulatory proposal. Based on the 
evidence thus far available, the case for new regulation is weak. The 
market seems to be rapidly evolving to meet consumers' privacy 
concerns. Innovative new ways to address these concerns are rapidly 
becoming available.
    Regulation of the market for personal information would entail 
costs in terms of fewer consumer choices. It would also have an adverse 
effect on innovation and competition. These costs are likely to 
outweigh the potential benefits, which appear to be small, because 
there is little evidence that consumers are now being harmed by misuse 
of marketing and advertising information.

    Mr. Stearns. Ms. Singleton?

                 STATEMENT OF SOLVEIG SINGLETON

    Ms. Singleton. Thank you, Mr. Chairman, for this 
opportunity to offer a historical perspective on the law of 
privacy. I will try to do this in 5 minutes, which should be 
interesting.
    My remarks mainly pertain to broad privacy laws that are 
not targeted at sectors where there are special contractual and 
sort of professional issues like medicine or to specific real 
harms like identity theft. My remarks are, rather, relevant to 
sort of broad privacy legislation affecting businesses across 
the board.
    Let me begin my summing up what we can learn from privacy 
in the Nineteenth Century. There's essentially two aspects to 
Nineteenth Century privacy cases. There's some limited case law 
involving the private sector, and there's also, of course, 
Constitutional cases involving the Fourth Amendment.
    Let me start with the private sector. There was a sort of 
nascent common law of privacy in the private sector at that 
time. For example, privacy was often recognized as an element 
in disputes over physical property rights such as easements and 
nuisances and that sort of thing. There was a lot of building 
going on in America during that time, and so, frequently, 
privacy questions would come up when two buildings were built 
very close together.
    Now, the bit here that is relevant to today's debate about 
privacy is that when you see these privacy cases that 
essentially identify privacy with physical property rights, 
there is no First Amendment problem. And that is because the 
property often helps us find boundaries of free speech, too. 
For example, you have a right to read books, obviously, but you 
can't go and steal books out of your neighbor's house or any 
other kind of information. So in that respect, privacy and 
First Amendment are quite consistent with one another.
    Now, I am going to change tracks a little bit and talk 
about some of the privacy cases in the Constitution from the 
Nineteenth Century. Sometimes, in the debate about privacy and 
business today, one hears the assertion that privacy rights in 
the Constitution show that government has a strong interest in 
regulating privacy in the commercial sector. But actually, 
Constitutional privacy cases are rarely very relevant to the 
debate about privacy in business.
    In the Nineteenth Century, and this continues today, courts 
do not apply the Fourth Amendment to the private sector, and 
essentially, the Fourth Amendment should not be a basis for 
asserting privacy rights against either journalists or 
commercial businesses where there is no State action, and the 
private sector enjoys Constitutional rights of free speech. 
Obviously, the police don't have a kind of Constitutional right 
to free speech to come into your home and search your things 
without a warrant. So again, on that traditional understanding 
of the Fourth Amendment, there is no conflict with free speech.
    Now, I will jump ahead to privacy in the early Twentieth 
Century, which is where you first begin to see a tension 
between privacy and the First Amendment. Beginning in the early 
Twentieth Century, courts began to accept a concept of privacy 
that was detached from physical property rights a little bit 
akin to defamation or intellectual property but more expansive.
    Now, over the years, many of those privacy torts were 
applied against journalists, and so, for the first time, we see 
serious free speech and privacy issues. And over the years, 
some of the privacy torts have been construed very narrowly by 
the courts. Some of them are referred to today as dying torts, 
although some of them still seem to be going strong.
    Now, the concept of privacy based on the mere fact that 
information was spread asserted a new kind of property right in 
information, and Gene has already talked a little bit about 
this. This assertion is too broad, though, to make sense. 
Unlike copyright, the new right to own information about 
yourself or to control it amounts to a claim of ownership of 
facts and opinions and ideas about one's own actions, and 
unlike defamation, which lets you sue when someone disseminates 
false information, a right to own or control information about 
yourself gives you a veto power over truthful information.
    Now, to jump ahead to today's debate, what has not been 
widely recognized and which makes this history of privacy and 
journalism relevant to the debate today is it hasn't been 
widely recognized the extent to which businesses, like 
journalists, rely on the freedom of information to produce 
goods and services. Also, consumers rely on information 
produced by businesses to learn about products. Economic 
studies have shown that advertising and marketing alert 
consumers to flaws in existing products; to the existence of 
new competitors and choices in the marketplace and help bring 
down prices.
    But many proposed privacy laws would be even much more 
extreme than the privacy rule attack that was initially made 
upon journalism. The journalists were attacked only for 
disseminating information to a broad public, whereas, in the 
case of the laws proposed today for commercial business, 
rather, the target is just the mere having the information or 
just the act of possessing it, although it may be disseminated 
only to legitimate businesses for their special purposes.
    So in the historical context, then----
    Mr. Stearns. Ms. Singleton, can we have you wrap up?
    Ms. Singleton. Yes, I will.
    Mr. Stearns. And then, we are going to take a break and 
just go vote.
    Ms. Singleton. I will just summarize my main points. The 
Fourth Amendment should not be a basis for asserting privacy 
rights against commercial businesses, because no State action 
in the private sector enjoys Constitutional rights of free 
speech. And the second is the idea that people own or have a 
right to control the information about themselves is a radical 
departure from the free flow of information that has made the 
U.S. the world's leading economy. Thank you.
    [The prepared statement of Solveig Singleton follows:]
    Prepared Statement of Solveig Singleton, Senior Policy Analyst, 
                    Competitive Enterprise Institute
    Mr. Chairman, my name is Solveig Singleton and I am a lawyer and 
senior analyst at the Competitive Enterprise Institute. Thank you for 
this chance to comment on the history of privacy law and commercial 
enterprises. Based on my research,<SUP>1</SUP> I offer the following 
observations:

    \1\ Most of this research is documented in Solveig Singleton, 
``Privacy Versus the First Amendment: A Skeptical Approach,'' XI 
Fordham Intellectual Property, Media & Entertainment L. J. 97 (Autumn 
2000).
---------------------------------------------------------------------------
<bullet> The Fourth Amendment should not be a basis for asserting 
        privacy rights against journalists or commercial businesses, 
        for there is no ``state action'' and the private sector enjoys 
        constitutional rights of free speech.
<bullet> The idea that people own or have a right to control 
        information about themselves has no historical justification; 
        it is a radical and extreme departure from the free flow of 
        information that has made the U.S. the world's leading economy.
<bullet> Today, we take shocking uses of ``private'' information by 
        journalists in stride; less sensibly, we fret about electronic 
        databases and learning tools--although these represent a 
        natural and beneficial evolution away from reliance on gossip 
        and guesses about people's preferences.
    U.S. Privacy Law in the Nineteenth Century. In the nineteenth 
century, as today, the law of privacy consists of two different sets of 
rules. First, there is the Fourth Amendment of the U.S. Constitution, 
which protects our rights against brutal searches from the government. 
Obviously, in the nineteenth century and today, it was not applied to 
the private sector.<SUP>2</SUP> The private sector has no power to 
seize and search one's property without consent under color of law. 
This remains true today. Note that there was and is no conflict between 
the Fourth Amendment and the First Amendment's rights of free speech. 
One might say that the Fourth Amendment is an example of a modified 
free speech right; <SUP>3</SUP> just as the Supreme Court recognized 
that Jehovah's Witnesses cannot be compelled to pledge allegiance to 
the flag, we cannot compel people to show the content of their papers 
and homes without a showing of probable cause. This makes the Fourth 
Amendment a very inappropriate basis for asserting expansive privacy 
rights against journalists or businesses today, who are not the 
government and who do enjoy free speech rights.
---------------------------------------------------------------------------
    \2\ Ibid at 99.
    \3\ Ibid. at 104.
---------------------------------------------------------------------------
    Second, there was a common law of privacy in the private sector. 
For example, privacy was recognized as an element in disputes over 
physical property boundaries and easements or nuisances, for example, 
when two buildings were built close together.<SUP>4</SUP> Because these 
private sector cases identify privacy with physical property rights, 
there is no conflict between the First Amendment and privacy; property 
rights mark the boundaries of free speech rights, too.<SUP>5</SUP> 
One's right to read books does not give one a right to steal books--or 
letters--from a neighbor's house or out of his pocket.
---------------------------------------------------------------------------
    \4\ Ibid at 107-114.
    \5\ John O. McGinnis, ``The Once and Future Property-Based Vision 
of the First Amendment, 63 The U. of Chicago L. Rev. 49 (1996).
---------------------------------------------------------------------------
    Privacy in the Early Twentieth Century. The concept of a right to 
privacy detached from physical property rights was not unknown during 
the early part of nineteenth century,<SUP>6</SUP> but it was not 
recognized in the courts until the early part of the twentieth century. 
A famous law review article by Brandeis & Warren calling for creation 
of a privacy tort for use against the press was cited in some of these 
cases.<SUP>7</SUP> Over the years, many of the four privacy torts that 
sprang up were often directed against journalists. It became obvious in 
these cases when no violation of physical property or a contract has 
occurred, privacy is in conflict with free speech rights. Over the 
years, privacy torts have been constrained narrowly by the courts; some 
are referred to as ``dying torts.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \6\ For example, a sort of privacy right closely akin to 
intellectual property was protected by cases involving the reprinting 
of letters. Blackstone speaks of defamation by pictures, a tort closely 
akin to the modern privacy of placing someone in a ``false light.'' 
Singleton at 110.
    \7\ Ibid. at 105-106.
    \8\ Ibid. at 111, 114.
---------------------------------------------------------------------------
    The concept of privacy suit based on the mere fact that information 
was spread asserted a sort of new property right in information. This 
expanded right has not prospered in the legal system, for it is a 
troubling one. Taken literally, it would obliterate the practice of 
journalism and much ordinary conversation. Unlike intellectual 
property, the new right amounts to a claim of ownership of facts and 
ideas. Unlike defamation, which lets you sue when someone disseminates 
false information, a right to own or control information about oneself 
gives you a veto power over truthful information.<SUP>9</SUP> And, 
unlike intellectual property law, an expanded view of privacy is not 
sanctioned by the Constitution.
---------------------------------------------------------------------------
    \9\ Ibid. at 114.
---------------------------------------------------------------------------
    Within U.S. legal history, there is little support for the concept 
that people own information about themselves and much support for the 
idea that facts and ideas and opinions are and should remain free to be 
communicated. This observation holds even as the focus of privacy has 
shifted from journalism to business. Journalist too is a commercial 
enterprise. And what has not been well-recognized by policymakers is 
the extent to which businesses, like journalists, rely on the freedom 
of information to produce goods and services, and the extent to which 
consumers rely on information produced by commercial enterprises to 
learn about those products. Economic studies have produced substantial 
evidence that advertising and marketing alerts consumers to flaws in 
existing products, to the existence of new competitors and choices in 
the market, and helps bring down prices.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ See generally John E. Calfee, Fear of Persuasion: Advertising 
and Regulation (Agora Association, 1997).
---------------------------------------------------------------------------
    Broad privacy principles are represented as a moderate step towards 
giving consumer's ``choice.'' In fact, these broad principles are a 
radical and extreme departure from the American tradition of the free 
flow of information. Writing broad privacy principles into a law for 
the commercial sector would amount to a sudden massive expansion of 
copyright or defamation law, a step that Congress would not dream of.
    Even supposedly moderate ``opt-out'' measures are far more radical 
than they seem. The evolution of formal information networks such as 
consumer credit reporting has important benefits for the public as a 
whole. Even the poor or those who are not well known in a given 
community may buy on credit, a relatively recent and beneficial 
development. The existence of credit reports gives consumers an 
incentive to make payments on time, which means that businesses can 
lower the losses they suffer from default. Note, however, that had a 
statute imposing an opt-out rule been in place in the late nineteenth 
century when all this began, credit reporting could never have evolved! 
All of the bad debtors would have opted out! Similarly, on the Internet 
today, Amazon.com and other e-commerce distributors rely on commercial 
services to confirm that the addresses and names of their customers are 
valid, to weed out fraud. But this would be impossible if the database 
were full of holes and gaps left by opt-outs, well-meaning or sinister.
The Evolution of Databases from The Late Nineteenth Century to Today.
    Within the U.S. legal tradition that commercial enterprises are 
generally free to learn about and communicate with their customers, the 
way in which they have done so has evolved over time. Economists have 
documented how formal networks for checking credit and assessing the 
reliability of goods have grown out of informal networks. Dun & 
Bradstreet, which reports on the creditworthiness of businesses, 
originated with Lewis Tappan, who managed credit accounts in his 
brother's silk business and who exchanged letters with 180 
correspondents throughout the country about the creditworthiness of 
businesses in their communities.<SUP>11</SUP> Forty years ago 
community-based nonprofit organizations handled consumer credit 
reporting, now handled by three nationwide for-profit 
firms.<SUP>12</SUP>
---------------------------------------------------------------------------
    \11\ Daniel B. Klein, ``Knowledge, Reputation, and Trust by 
Voluntary Means,'' in Reputation: Studies in the Voluntary Elicitation 
of Good Conduct, ed. Daniel B. Klein (Ann Arbor: University of Michigan 
Press, 1997): 7.
    \12\ Ibid.
---------------------------------------------------------------------------
    The formalization of the collection of information about consumers 
portends nothing sinister. Databases are a natural entrepreneurial 
adaptation to a more urban world, freed of small-town gossip.
    This holds true of Internet web sites, who are at a tremendous 
disadvantage compared to real-space businesses. For decades, the 
ordinary shopkeeper with a little store on the streeet can stand at the 
counter and watch people come it. He can see if they are regulars or 
strangers, if they are locals or tourists, German or Spanish, young or 
old, male or female. Do they look longingly at the stuffed monkeys, but 
comment that the price is just a little too high? Are they missing the 
display in the back? The operator of a web site has none of this 
information. It is as if he is deaf, dumb, and blind. And thus he has 
little chance of improving his service to customers, unless he hits 
upon their needs by sheer dumb luck. Thus, cookies were born. They are 
more properly viewed as the eyes and ears of the Internet than as some 
kind of sinister surveillance device.
    Many of the same arguments that were deployed against the 
journalist are today deployed against business uses of information. But 
they have no more merit than in their original context. For example, it 
is alleged that the transmission of information in itself and 
represents a threat to human autonomy and dignity. But writing a story 
about Madonna is not the same thing as seizing and torturing her. 
Receiving an unwanted advertisement in the mail is not akin to stealing 
someone's identity. The fact that we tolerate the rights of journalists 
to promulgate stories that once would have been considered shocking and 
indecent is a good sign that human beings are as always tough, 
adaptable creatures. We are not going to wither away because Safeway 
knows we bought lettuce. Some may be a little wary of the Internet--but 
if that has any basis in reality it is the fear of real crimes like 
identify theft, which are already illegal and for which have little to 
do with legitimate businesses use of information.
    The fact of the matter is, human beings, whether they are 
consumers, voters, or businesses, rarely make better decisions with 
less information. Laws that view the spread of information itself as 
the enemy will not target any real problems, and will do considerable 
harm.

    Mr. Stearns. Thank you, and the committee will take a 15-
minute break and resume.
    [Brief recess.]
    Mr. Stearns. If I can have the attendees sit down, the 
committee will come to order.
    We will continue with our panel, and we will start with Mr. 
Rotenberg, if you would be so kind as to give us your opening 
statement.

                   STATEMENT OF MARC ROTENBERG

    Mr. Rotenberg. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to be here today. I am director of 
the Electronic Privacy Information Center. I have also been on 
the faculty at Georgetown Law Center, where I have taught 
privacy law for more than 10 years, and I have edited two books 
on privacy that are in use in U.S. law schools today which I 
would be happy to make available to the committee and the staff 
if that would be useful.
    What I do in my testimony is to outline what I think are 
the broad themes of the development of privacy law in the 
United States. And this really is based on my work and research 
and my teaching over the years to try to give you a framework 
to understand what it is when we talk about privacy law. The 
first point that I make in my testimony is that the concept of 
the protection of privacy in law is very much an American 
tradition. It is not only in our Fourth Amendment that 
establishes the warrant process before the government may 
conduct a search but even in the Brandeis-Warren tort, which 
was described a moment ago.
    When that was first announced and reviewed by legal 
scholars in the early part of this century, people described it 
as the American tort, something unique to the U.S. legal 
system, to provide people a right of action against other for 
private acts, and the fair information practices which have 
also been discussed and provide the framework for many of the 
modern-day privacy laws both in the United States and around 
the world.
    Those principles were first articulated in the United 
States in the early 1970's, and they provided the underpinnings 
for our Privacy Act, which safeguards the information that is 
held by Federal agencies and is, in many ways, the most robust 
privacy law in the United States. So it is critical to 
understand in this discussion that our starting point I don't 
think is really do we regulate? Don't we regulate? You know, 
what is the appropriate role of government? It is with the 
understanding that privacy, as a right in law, is very much a 
part of the American tradition.
    The second point I would like to make is that what privacy 
laws typically do is to allocate rights and responsibilities. 
They are not simply, as Gene Volokh has suggested, a 
restriction on the right to talk about others. There are, in 
privacy laws, elements sometimes that place limitations on 
disclosure, and they may, in certain circumstances, I agree, 
raise First Amendment issues.
    But if you look at the whole structure of a privacy law, 
whether it is the Fair Credit Reporting Act of 1970 or the 
cable subscriber privacy provisions in the Cable Act of 1984, 
you will see a number of different elements. One of the most 
interesting elements in a privacy law, somewhat paradoxically, 
is the requirement of transparency, of openness, to give 
individuals the right, for example, to obtain a copy of their 
credit report to see if the information that is being kept 
about them is accurate and complete, so that when they go to 
obtain a home mortgage or a car loan, that decision is being 
made based on accurate information.
    And so, for example, when Fred Cate is describing the 
importance of access to accurate information in commercial 
markets, part of that accuracy comes about because individuals, 
by virtue of privacy laws, have the right to get access to 
information about them that is being used for decisions that 
affect their economic and employment opportunities.
    The third point I would like to make, and this may surprise 
you a little bit, but it is very much my view that in the 
modern era of privacy law in the United States, as new 
technology has evolved, it is not the case that Congress has 
generally stood back and allowed the technology to go forward 
and then wrestled with the privacy issue. It is rather the case 
that Congress has typically established privacy safeguards at 
the beginning, before new commercial services were widely 
adopted. This was true, for example, in 1984, when you did the 
Cable Act and included the subscriber privacy provisions. It 
was true in 1986 with electronic mail. The video rental 
industry, which began the late 1980's; you remember the Judge 
Bork bill to protect the privacy of video rental records? You 
did the Telecommunications Act in 1996; included new provisions 
to protect the privacy of customer billing information.
    What is remarkable about the discussion concerning privacy 
on the Internet is that this is really the first instance with 
a new technology that Congress has decided not to legislate at 
the front end to protect consumer privacy and to rely instead 
on a mixture of self-regulatory and industry-directed 
initiatives. Now, I think it is an important question to 
explore how successful those initiatives have been, but I would 
like to suggest to you that one of the reasons that you may be 
seeing such high levels of public concern today that you see, 
you know, the consumer protests, literally, public protests of 
new consumer products is resulting in part because we have not 
yet established in law clear privacy standards to protect these 
new types of commercial transactions, and I think that is a 
real risk.
    I make several other points in my statement, but one key 
point which I would like to draw your attention to concerns the 
use of technology. And it is my view that technology plays a 
very important role in protecting privacy. In fact, the first 
book we did was titled Technology and Privacy: the New 
Landscape. And there is a chapter in there that talks about the 
role of privacy-enhancing techniques.
    My own organization has been a big advocate of strong 
encryption; techniques to protect your identity. But I have 
come to believe that it is vitally important that if you are 
going to talk about technical solutions to the privacy issue 
that you understand very clearly what the technology does and, 
in particular, what the impact is on the collection and use of 
personal information. P3P, which is an industry-backed effort, 
in my view, is not a privacy technology. It does not limit the 
collection of personal information. It facilitates the 
collection of personal information.
    And this is an important issue for you to consider as you 
look at new proposals and new legislation. I think there are 
other technical methods that could do a better job of 
protecting online privacy.
    As I said, Mr. Chairman, there are a few other points in my 
statement. I suggest also that you should look closely at the 
issue of whether Federal preemption is appropriate. In fact, it 
has not generally been done by tradition in the privacy field. 
It was not done recently with the financial regs or with the 
medical regs. I understand the interstate commerce concern, but 
I think you should look at some of the history here.
    And finally, on the First Amendment issue, I agree with 
Professor Volokh. There is a real question there. But even 
Professor Volokh, in his article for the Stanford Law Review, I 
think acknowledges that some of these privacy terms, viewed as 
part of an implied contract, an understanding that information 
provided for a purpose won't be disclosed for another purpose, 
are probably acceptable. And that is really all we are arguing 
on this point: in the context of a particular business 
relationship, if you provide information for a particular 
purpose, you would reasonably expect it would not be used for 
other purposes.
    So thank you very much, and I will be pleased to answer 
your questions.
    [The prepared statement of Marc Rotenberg follows:]

 PREPARED STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR, ELECTRONIC 
                       PRIVACY INFORMATION CENTER

    I appreciate the opportunity to appear before the Committee today 
to discuss privacy issues. My name is Marc Rotenberg. I am Executive 
Director of the Electronic Privacy Information Center in Washington, 
and I have taught the Law of Information Privacy at Georgetown since 
1990. As both an advocate and academic, I have participated in many of 
the leading privacy debates in this country. In the spirit of this 
hearing, I will focus my comments on several general observations about 
privacy law. I'd like to emphasize at the start that this is an 
enormously interesting and important topic and I appreciate the 
decision of the Committee to begin with a discussion at a high level.

1. The Protection of Privacy in Law is Central to the American Legal 
        Tradition
    The protection of privacy in law is one of the great contributions 
of the American legal system. When the framers of the Bill of Rights 
set out in the Fourth Amendment a legal procedure that placed a judge 
between the authority of the state and the rights of the citizen, they 
established a structure that today distinguishes democratic governments 
from dictatorships. It is without question a burden to the police that 
they may not freely seize evidence, intercept phone calls, or detain 
individuals without probable cause, but this is a burden that every 
Constitutional democracy accepts as a fundamental requirement to 
safeguard the rights of it citizens.
    But it is not just with respect to government that our country has 
established rights of privacy in law; we have done so also with respect 
to actions among private individuals, the practices of business, the 
use of new technology, and the collection and use of personal 
information for commercial purposes. When Brandeis and Warren first set 
out the right of privacy in the famous 1890 law review article it came 
to be known as the ``American tort.'' The privacy tort became the basis 
for privacy claims that were recognized in state courts, state 
legislatures, and eventually Congress.
    Our tradition of protecting privacy rights in law has carried 
forward with each new technology. From the telephone, to computers, 
cable television, electronic mail, video tape rentals. Our privacy 
laws, like all laws, are imperfect. But they reflect at their core a 
belief that we have the ability, through our government and our legal 
institutions, to control the technologies that we create, to ensure the 
we can obtain the benefits of new technology and preserve important 
political values.
    So, when privacy and consumer advocates testify in support of 
restrictions on government surveillance, safeguards for financial 
records, and protections for consumers in electronic commerce, it is 
with full regard and understanding of the American legal tradition. The 
burden of justifying the self-regulatory approach falls squarely on its 
supporters. The first lesson of US law is that the presumption favors 
legal safeguards.
    I make this point at the outset because there is a tendency in the 
policy debates about privacy to ask the question whether to 
``regulate'' or what is the ``appropriate role'' of government. The 
better starting point is with the recognition that in the United States 
we have long understood that privacy is a right protected in law.

2. Privacy Law Allocates Rights and Responsibilities and Ensure 
        Fairness and Transparency in the Collection and Use of Personal 
        Information
    Next we should consider what we mean when we discuss privacy laws. 
Some believe that privacy laws are simply a restriction on the right to 
speak freely. There is an aspect of privacy protection that may, in 
some circumstances, limit the disclosure of certain types of personal 
information obtained in the context of certain relations. But to view 
privacy law as only a restriction on publication is to misunderstand 
the structure, history and purpose of privacy laws in the United 
States.
    Typically, privacy laws set out a range of rights and 
responsibilities for the collection and use of personal information. 
The Fair Credit Reporting Act, for example, does not simply limit the 
disclosure of information contained in a credit report, it also places 
on the credit reporting agency an obligation to ensure that the 
information is correct and timely, and it provides the subject of the 
credit report the opportunity to inspect the record and correct it if 
necessary. These responsibilities help ensure that information 
collected is used for its intended purposes and that determinations, 
such as whether a person qualifies for a car loan or can obtain a home 
mortgage, are based on accurate information.
    The rights and responsibilities that provide the basis of privacy 
laws have come to be known as ``Fair Information Practices.'' Although 
the specific elements that make up Fair Information Practices may vary 
somewhat, what is significant is the high degree of commonality of 
these principles, across subject matter, technologies, and 
jurisdictions. In many respects this is not surprising. The goal is 
simply to fairly allocate the responsibilities to safeguard personal 
information.
    Not only have Fair Information Practices played a significant role 
in framing privacy laws in the United States, these basic principles 
have also contributed to the development of privacy laws around the 
world and even to the development of important international guidelines 
for privacy protection. The most well known of these international 
guidelines are the Organization for Economic Co-operation and 
Development's Recommendations Concerning and Guidelines Governing the 
Protection of Privacy and Transborder Flows of Personal Data (``OECD 
Guidelines''). Fair Information Practices also provided the basis for 
the recently concluded Safe Harbor arrangement between the United 
States and Europe.

3. Privacy Laws Respond to New Technologies
    It is critical to understand that the recent history of privacy law 
in the United States is largely a story of efforts by Congress to pass 
laws to safeguard privacy as new technologies emerge. There is for 
example, the Federal Wiretap Act of 1968, the Act that limits the 
monitoring of private communications. There is also the Privacy Act of 
1974 that established a legal framework for the records collected by 
the federal government and addressed the specific concern of Big 
Brother monitoring by means of automated databases. There are the 
privacy subscriber provisions of the Cable Act of 1984 (cable 
television), the Video Privacy Protection Act (video rental records), 
the Electronic Communications Privacy Act of 1998 (electronic mail), 
the Polygraph Protection Act of 1988 (lie detectors), and the Telephone 
Consumer Protection Act of 1991 (auto-dialers and junk faxes), the 
Children's' Online Privacy Protection of 1999 (Children's' data 
obtained by companies operating on the Internet). In addition, many 
laws at the state level are designed to further limit the monitoring of 
private activities in the United States.
     Privacy laws have come about in response to challenges posed by 
new technologies. But the aim is rarely to limit the technology or to 
stifle a new business; it is instead to ensure that the data collection 
is fair, transparent, and subject to law. This approach builds consumer 
confidence, establishes a stable business environment, and allows for 
the benefits of new technology while safeguarding key interests.

4. Privacy Protection by Self-regulation is a Recent Development
    Until about 1996, if one were asked to describe the US approach to 
privacy protection for personal information, you would likely have said 
there is ``omnibus'' protection with respect to records held by the 
federal government and ``sectoral'' protection concerning the private 
sector. The point is that the Privacy Act of 1974 covered all federal 
agencies, while regulation in the private sector had been done on a 
more piecemeal basis. The contrast with the European approach was also 
understood: Europe had adopted an ``omnibus'' approach for private 
sector records, based in part on the need to harmonize national law as 
part of the establishment of the European Union. In the United States 
there was little discussion of privacy protection through ``self-
regulation.'' There were a few efforts by trade groups to establish 
privacy practices, most notably the Mail Preference Service of the 
Direct Marking Associations, but these efforts typically came about as 
means to hold off legislation.
    Beginning in 1996 an effort began to develop a more comprehensive 
self-regulatory approach to privacy protection. Companies posted 
policies, privacy seals were announced, new organizations were 
established to review privacy practices, and the FTC said it would take 
action against firms that failed to follow their privacy policies. This 
was done for several reasons, including growing public concern about 
the loss of privacy, fear that legislation restricting certain business 
practices might be adopted, and recognition that the European Union 
might limit the transfer of personal information about European 
consumer to American firms unless steps were take to establish stronger 
privacy safeguards.
    It may be too soon to say whether this new ``self-regulatory'' 
approach will over time effectively protect the privacy of American 
consumers. The FTC last year concluded that while progress had been 
made, legislation was nonetheless required. But there are several 
recent developments that deserve further consideration by the Committee 
if there is going to be a meaningful evaluation of self-regulation. 
Here are five issues that I believe call into question the effectives 
of self-regulation:

<bullet> The redefinition of privacy. There has been a sharp departure 
        from the bundle of rights associated with Fair Information 
        Practices to a narrow characterization of privacy as simply 
        ``notice and choice'' that is at odds with the tradition of 
        privacy law in the US. Privacy notices appear to operate more 
        like disclaimers or warning labels than any actual assurance of 
        protection.
<bullet> The development of intrusive new marking practices. Profiling, 
        tracking, and monitoring of American consumers have become far 
        more widespread as a result of the self-regulatory approach to 
        privacy. It is not clear yet what the impact will be on 
        educational or employment opportunities, but there is always 
        that risk, in the absence of legislation, that once permanent 
        dossiers on Americans are created they will be used for 
        purposed completed unrelated to the original collection.
<bullet> The ability of the FTC to operate as an effective privacy 
        agency. The FTC appears to lack the statutory authority, the 
        resources, and the reporting requirements that are required to 
        operate effectively on privacy issues. There are too many 
        complaints, too little adjudication, and too little oversight.
<bullet> The ability to respond to new technologies. In the next few 
        years we are going to see the development of new technologies 
        that both hold great promise for innovation and technical 
        achievement as well as significant risk to personal privacy. 
        The use of genetic information, for example, poses new 
        challenge that may be addressed more effectively through 
        privacy legislation than the ``notice and choice'' approach.
<bullet> Growing public concern about the loss of privacy. At least one 
        measure of success for a policy approach must be public 
        support. There is little evidence to indicate that the public 
        favors the self-regulatory approach to privacy protection.
    While I remain very skeptical about self-regulation to protect 
privacy, I want to emphasize that establishing a right of privacy in 
law does not necessarily extensive regulation. There are many privacy 
of only a few pages that extraordinarily effective. The Subscriber 
privacy provision in the Cable Act of 1984, for example, is one of the 
most effective privacy laws in the US. It provides a very good model 
going forward for emerging privacy issues in the commercial world.

5. Genuine Privacy Enhancing Technologies (PETs) Limit or Eliminate the 
        Collection of Personally Identifiable Information
    My fifth point is that technology does have a role to play in 
privacy protection, but it is critical to think carefully about the 
collection and use of personal information in evaluating various 
technical methods. To say simply ``there must be technological 
solutions to technological problems'' really does not tell us anything. 
Some technologies clearly exacerbate the loss of privacy, others may 
help restore privacy.
    Over the last several years I have become particularly interested 
in the development of Privacy Enhancing Technologies (PETs). I have 
presented papers at international conferences and worked closely with 
several of the leading technical innovators in the world. I believe 
that there are methods that enable commerce and communication and that 
respect privacy. In my view, the goal is to promote genuine Privacy 
Enhancing Technologies that limit or eliminate the collection of 
personally identifiable information. Anonymity, for example, is 
critical to the future of privacy.
    Of all the various approaches to online privacy, P3P may be the 
most problematic. It is the one privacy standard that provides no 
inherent privacy protection. It can as easily be used to extract data 
from consumers as it could be used to limit the collection of data. And 
I think this is fairly well understood by the industry groups that 
favor P3P. They do not believe that this standard will pose any 
significant obstacles to their plans for collecting and using persona 
information.
    A better approach would seek to both enable commerce and to limit 
the collection of personal information. We have many examples of this 
in the physical world, from the metro card to movie tickets to the cash 
in our wallets. Privacy technologies should not hinder commerce but 
they should also not force consumers to trade privacy to participate in 
commerce.

6. Free Expression and Privacy Protection are Complimentary Values
    On the question of the privacy and freedom of expression, this is 
clearly not a zero-sum relationship. This can be shown by the fact that 
there are many countries today with little regard for personal privacy 
or freedom of expression. The success of the US legal system is to 
preserve both interests, to safeguard free expression and to protect 
individual privacy.
    There are also a series of cases that make clear that privacy and 
the First Amendment are complimentary interests. In MacIntyre v. Ohio, 
for example, the Supreme Court struck down an ordinance that required 
the publisher of a handbill to place her actual name on the pamphlet. 
In so doing, the Court recognized that the freedom to express ones 
views includes also the right to withheld ones identity. There are many 
other examples in American law where we safeguard privacy to promote 
free expression and freedom of association. It's worth noting, for 
example, that the freedom to vote as one wishes in a democratic society 
is safeguarded by the privacy of the voting booth.
    There are tough cases where the First Amendment and privacy 
interests collide. The Supreme Court, for example, must determine this 
term whether the press may publish the contents of a private telephone 
call obtained by means of an unlawful wiretap. EPIC, my own 
organization, dedicated to both the protection of privacy and the 
promotion of free speech, struggled with the question on which side we 
would file an amicus. In the end, we decided it was too difficult a 
case. But recognizing that there are, in some instances, difficult case 
does not mean as a general matter that it is not possible to protect 
privacy and to promote free expression.

7. Federal Privacy Legislation Typically Does Not Preempt State Law
    The issue of federal preemption is arising increasingly in 
discussions about privacy protection. It is important to understand 
that as a general matter, federal privacy law operates as a baseline 
and does not preempt stronger state statutes. This is clear from laws 
such the Video Privacy Protection Act of 1988 and the subscriber 
privacy provision in the Cable Act of 1984. This approach was 
reaffirmed recently in the privacy provisions of the Financial 
Modernization Act of 2000 and the HIPAA regulations.
    There are important reasons in our form of government to continue 
to allow the states to operate as ``laboratories of democracy.'' 
Congress may fail to act or it may act in such a way that reduces or 
limits the protections that a state might otherwise choose to provide 
for its citizens. States may also innovate and explore different 
approaches to common problems. California, for example, has recently 
passed legislation to address emerging privacy concerns and Maryland is 
now looking at new legislation that would provide important new 
protections.

8. Public Support for Privacy Protection is a Significant Consideration 
        in the Legislative Process
    In understanding the protection of privacy in America it is 
critical to keep in mind the central role that the Congress and the 
state legislatures have played in safeguarding privacy. In some 
instances, it has been the courts that have established rights of 
privacy, but more often it has been the legislature that has set out by 
means of statute the rights and responsibilities associated with the 
use of personal information in the commercial realm.
    My belief is that there is today widespread public support to 
establish Fair Information Practices for the collection and use of 
personal information in the commercial sector. There is a strong 
American tradition to protect privacy in law, many legislative 
precedents and broad based public support. The question is whether 
Congress will accept the challenge and act to safeguard this right, 
described by Justice Brandeis ``as the most comprehensive of all rights 
and the one most cherished by a free people.''
    I appreciate the opportunity to appear before the Committee today 
and will be pleased to answer your questions.

    Mr. Stearns. Professor Feldblum?

                  STATEMENT OF CHAI R. FELDBLUM

    Ms. Feldblum. Thank you, Mr. Chairman, and members of the 
subcommittee.
    My name is Chai Feldblum. I am a law professor at 
Georgetown University Law Center and director of the Federal 
Legislation Clinic, where we have worked on the issue of 
medical privacy for a number of years for various 
organizations. But I am testifying here today in my personal 
capacity as a law professor--although I am used to answering 
questions and being grilled by students. I don't know; I guess 
the new generation of students is quite different--to talk 
about my experiences in employment discrimination and medical 
privacy. And instead of talking about the minute details of 
those areas, of which there are many, instead of getting bogged 
down in that to sort of step back and talk about conceptually 
why it makes sense for government to regulate in these areas.
    Now, my written testimony gives you a description of the 
privacy requirements of the ADA, and I am not going to repeat 
those here. Basically, employers cannot ask questions of 
employees about their medical conditions at certain stages of 
the application process. They can collect a whole range of 
medical information before actually hiring somebody. That 
medical information has to be kept confidential, and employees 
with medical conditions are forced to disclose those conditions 
to their employers if they want reasonable accommodations.
    So what I want to focus on is why is government regulation 
of privacy in this way appropriate? I think that when 
government regulates conduct that it is otherwise permitted to 
regulate, such as employment discrimination, it can also 
regulate speech that would lead directly to such 
discrimination. So, for example, government can say you can't 
refuse to hire someone because she is pregnant. You also can't 
refuse to ask someone if she is going to become pregnant.
    Similarly, you can't ask applicants about their medical 
conditions if that means they won't get a fair chance to be 
considered for a job, but you can certainly find out about 
their medical information if that means they are not going to 
be qualified. None of us want to have 911 operators unable to 
hear. I mean, that is not the point.
    Now, in the area of medical privacy, the context that we 
are dealing with is that patients believe that they have a 
confidential relationship with their medical professional, and 
yet, that expectation is compromised every day by the 
interconnected research, medical, treatment, payment, quality 
system that we live in. The California Health Care Foundation 
has done a fascinating presentation of where our medical 
information actually goes, and I would absolutely recommend 
that presentation to everybody.
    Now, of course, a certain amount of individually 
identifiable health care information has to flow through our 
medical system. As someone who has represented disability 
organizations, I can tell you that people with disabilities 
have a very pragmatic view of this issue. Bottom line: they 
want a health care system that is effective and efficient. But 
precisely because the interaction in the medical system starts 
with a contractual relationship between the patient and the 
provider, the individual must feel assured of certain ground 
rules that their information will, in fact, be used 
appropriately.
    Now, let me end by saying that Congress, in 1996, did tell 
the Department of Health and Human Services to implement nine 
standards, and these were standards about transaction codes and 
identifiers and data security, et cetera. I think it made sense 
for Congress to interact in this way with the private parties 
because the only way to have consistent, uniform standards in 
the health care system is if, in fact, government intervenes 
and says everyone has to abide by these standards. That is what 
eight of those standards were about.
    But at the same time, government has to make sure that 
privacy protections are built in as well. That is the ninth 
standard.
    Well, I very much appreciate that you are looking at this 
issue, and I look forward to answering any of your questions.
    Mr. Stearns. You roughly have 2 minutes left.
    Ms. Feldblum. Oh, I do. My thing over here says stop.
    Mr. Stearns. I just checked.
    Ms. Feldblum. Well, then, I am going to give you my last 
two paragraphs.
    Mr. Stearns. There you go.
    Ms. Feldblum. And I know that if you had gone home without 
them, it just would not have been the same.
    I know that there is controversy about the regulations that 
have been put out, but for purposes of this big picture 
hearing, I want to stress the need to analyze privacy within 
the specific context of which the perceived need to regulate 
arises, and if there is anything that you get from this hearing 
and to me anything about doing--thank you; I know you agree, a 
big picture hearing as opposed to a hearing on a particular 
bill, it is to focus on the context in which that privacy 
concern arises.
    In the health care arena, that context is a longstanding 
belief between patient and doctor that medical information 
should be kept confidential juxtaposed with the reality of a 
complex health care treatment, payment, research, quality and 
marketing system that uses a significant amount of individually 
identifiable information without patients' explicit consent 
although with some patients' dimly sensed fear.
    The role of government, I believe, is to bring clarity and 
confidence to this area. Thus, the goal of any system of 
privacy regulation should be to enhance the treatment, payment, 
research and quality aspects of our health care system through 
creating a workable privacy system that gives patients trust 
and ensure that health care entities can engage in the 
marketing necessary to their financial health consistent with 
consumer consent.
    Now, I can assure you as someone who has worked in this 
area for 6 years that there is a lot of debate and a lot of 
detail within that sentence. What is a workable system? But I 
think there is a common principle that there is a role for 
government to ensure that there are uniform, consistent 
standards and confidence and trust in the system. That is what 
you should do in the medical privacy area, and consistent with 
the context of these other areas, that is what you should do in 
other areas as well.
    Thank you.
    [The prepared statement of Chai R. Feldblum follows:]

 PREPARED STATEMENT OF CHAI R. FELDBLUM, PROFESSOR OF LAW, GEORGETOWN 
                         UNIVERSITY LAW CENTER

    Mr. Chairman and Members of the House Subcommittee on Commerce, 
Trade, and Consumer Protection:
    Thank you for inviting me to testify today regarding ``Privacy in 
the Commercial World.'' My name is Chai Feldblum. I am a Professor of 
Law at Georgetown University Law Center, and Director of the Law 
Center's Federal Legislation Clinic. I created the Clinic in 1993 with 
the goal of training law students to be ``legislative lawyers'': that 
is, lawyers who are equally at ease with law and with politics. My goal 
is to train lawyers who are steeped in law and who like reading legal 
text, and at the same time, who are sophisticated about politics, know 
how to speak and write in ``English'' rather than in ``law,'' and who 
like the particular world of political negotiation. The goal is to 
produce lawyers who will actually be helpful to you and your staff as 
you create legislation to address the needs of our country.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ For an explication of ``legislative lawyering,'' see ``Five 
Circles of an Effective Coalition'' and ``What is Legislative 
Lawyering?'' available at http://www.law.georgetown.edu/clinics/flc.
---------------------------------------------------------------------------
    I also wear the traditional hat of an academic professor. My 
academic legal writings have been primarily in the area of civil 
rights, with a focus on disability law and sexual orientation and the 
law.
    I appear before you today as an amalgam of those roles. In my life 
before teaching, I was the principal lawyer representing the disability 
community in the drafting and negotiating of the Americans with 
Disabilities Act--including those provisions impacting on privacy and 
confidentiality. As Director of the Federal Legislation Clinic, I have 
represented the National Association of People with AIDS (NAPWA), in 
its capacity as co-chair of the Privacy Working Group of the Consortium 
of Citizens with Disabilities.<SUP>2</SUP> For six years, we have 
worked on behalf of the disability community toward passage of 
comprehensive federal medical privacy legislation. More recently, the 
Clinic has represented the Family Violence Prevention Fund, which is 
also concerned with enhancing medical privacy in this 
country.<SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ The Consortium for Citizens with Disabilities (CCD) is a 
Washington-based coalition of approximately 100 national disability, 
consumer, advocacy, provider and professional organizations that 
advocate on behalf of 54 million children and adults with disabilities 
and their families. As advocates for persons with disabilities, CCD 
supports strong privacy protections that give health consumers 
confidence that their information will be used appropriately and that 
permit the continued viability of medical research and delivery of 
quality health care.
    \3\ The Family Violence Prevention Fund is a leading national 
organization that advocates on behalf of the millions of women and 
children who are the victims of domestic violence each year. The Fund 
runs several major programs that deal specifically with health care and 
domestic violence. As advocates for people affected by domestic 
violence, the Fund supports privacy protections that will give victims 
confidence that their personal information will be used appropriately.
---------------------------------------------------------------------------
    Today, however, I wish to draw on those experiences to share with 
you some general observations about protecting the privacy of our 
nation's citizens.<SUP>4</SUP> I am less familiar with the academic and 
advocacy debate regarding proposals to regulate consumer information 
databanks developed by businesses (the subject of some of the writing 
of my co-panelists), and more familiar with the debate regarding 
privacy as it relates to employment discrimination and medical 
information. What I hope to do, therefore, is share with you some 
observations on the latter forms of privacy, and perhaps extrapolate 
from that some observations on privacy in general.<SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Thus, I appear before you today in my personal capacity.
    \5\ My observations with regard to employment discrimination and 
medical privacy should not be taken to mean that I do not believe there 
are also serious policy considerations for applying privacy regulation 
to consumer databases of non-medical information. Indeed, while I 
consider the work of my colleague, Eugene Volokh, see below, to be of 
superb quality, I believe Congress must be cautious in chilling in its 
own action in anticipation of some speculative long-term constitutional 
concern. While I have touted the advantages of Congress drafting a 
narrowly circumscribed bill to address a real, documented public policy 
evil to be remedied, so as to avoid creating an inviting target for the 
Supreme Court to further narrow Congressional power, see testimony of 
Chai R. Feldblum before the Senate Judiciary Committee on the Religious 
Liberty Protection Act, September 9, 1999, I have never believed that 
Congress should fail to act when there is a clearly defined public 
policy problem and the recommended legislative response is not clearly 
unconstitutional. Of course, as Congress acts, it is useful to have the 
background analysis of scholars such as my co-panelists who may 
entertain some doubts about such actions.
---------------------------------------------------------------------------
    A useful place to start is a sentence from my co-panelist Eugene 
Volokh's May 2000 article on freedom of speech and information privacy: 
`` `[P]rivacy' is a word with many meanings, and with such words both 
judges and laypeople often shift from one meaning to the other even in 
cases where the meanings have little in common.'' <SUP>6</SUP> I 
completely agree with that observation. While I do not necessarily 
agree with my co-panelist's subsequent conclusion that harmful 
analogies are more likely be drawn if the privacy of consumer 
information databases are regulated, <SUP>7</SUP> I believe he has 
helped enhance the practical debate about privacy by illuminating its 
various meanings and components.<SUP>8</SUP> What I would like to do is 
focus on two areas where the concerns are somewhat different, I 
believe, than those that arise in the context of consumer information 
databases. The best way for Members of Congress to carry out the hard 
work of figuring out what legislation to pass (and how to craft such 
legislation) depends, I believe, on developing a sensitive 
understanding of the context in which various privacy concerns arise.
---------------------------------------------------------------------------
    \6\ Eugene Volokh, Freedom of Speech and Information Privacy: The 
Troubling Implications of a Right to Stop People from Speaking About 
You, 52 Stan. L. Rev. 1049, 1102 (2000) (hereinafter Freedom of 
Speech).
    \7\ Volokh argues that ``once restrictions on people's speech are 
accepted in the name of `privacy,' people will likely use them to argue 
for other restrictions on `privacy' grounds, even when the matter 
involves a very different sort of `privacy.' '' Id. at 1102. By 
contrast, my colleague at Georgetown University Law Center, Julie 
Cohen, has written some interesting pieces presenting a different point 
of view. See Julie E. Cohen, Examined Lives: Informational Privacy and 
the Subject as Object, 52 Stan. L. Rev. 1373 (2000); Julie E. Cohen, 
Privacy, Ideology, and Technology: A Response to Jeffrey Rosen, 89 Geo. 
L. J. xx (2001)(forthcoming). See also Janlori Goldman, Privacy & 
Individual Empowerment in the Interactive Age, Visions of Privacy: 
Policy Choices for the Digital Age (C. Bennett & R. Grant eds. 1999).
    \8\ The work of my other co-panelists has also been of significant 
use in this regard. See, e.g., Solveig Singleton, Privacy Versus the 
First Amendment: A Skeptical Approach, 11 Fordham Intell. Prop. Media & 
Ent. L. J. 97 (2000) (hereinafter Privacy); Fred H. Cate, The Changing 
Face of Privacy Protection in the European Union and the United States, 
33 Ind. L. Rev. 173 (1999); Wayne Madsen, David L. Sobel, Marc 
Rotenberg, David Banisar of The Electronic Privacy Information Center, 
Cryptography and Liberty: An International Survey Of Encryption Policy, 
16 J. Marshall J. Computer & Info. L. 475 (1998).
---------------------------------------------------------------------------
    The two areas on which I would like to focus are employment 
discrimination and medical privacy. Again, I do not plan to focus on 
the minute details of these areas (and there are a number of very 
minute details in each of these areas, I assure you), but rather, on 
the broad conceptual reasons for the enactment of legislation in these 
areas. Indeed, in both employment discrimination and medical privacy, 
Congress has already acted to some extent--and there are lessons to be 
drawn from those enactments.
    During passage of the Americans with Disabilities Act (ADA), 
Congress chose to draw on Section 504 of the Rehabilitation Act of 
1973, a law that prohibits programs that receive federal funds from 
discriminating on the basis of disability. That law, and the 
regulations issued pursuant to the law, provided Congress with a 17-
year track record of substantive non-discrimination principles on the 
basis of disability. Section 504 was not focused on privacy, and yet 
the law included some important privacy components that were carried 
over to the ADA.
    Congress recognized that people with hidden disabilities (such as 
breast cancer or HIV infection or diabetes) often do not get the chance 
to be fairly considered for a job because the employer finds out--
through questioning at an interview or through a medical examination or 
questionnaire--that the applicant has a particular medical condition. 
In such cases, the employer may choose not to hire the person because 
of unsubstantiated fears regarding the person's possible absentee rate 
or the response of co-workers, or because of possibly substantiated 
fears of higher health care costs that might be associated with that 
individual. In either case, in such circumstances the individual is 
judged not on the merits of his or her ability to do the job, but 
rather on ramifications that (justly or unjustly) flow from the 
individual's medical condition.
    In some cases, of course, an individual's medical condition will 
impact directly on the person's ability to perform the job. For 
example, we all want our airline pilots to be able to see, our truck 
drivers to be able to drive, and out ``911 operators'' to be able to 
hear.
    The ADA thus creates privacy rules that ensure applicants are 
provided a fair chance to be considered for a job, but also ensures 
that employers are permitted to hire only qualified employees. Under 
this framework, employers may not ask job applicants to disclose their 
medical conditions during the initial stages of an application process. 
Rather, after a conditional job offer is extended, employers may ask 
applicants to respond to questions about their medical conditions (or 
to take a physical examination)--and based on that information, 
employers may refuse to hire employees who are not qualified for the 
relevant jobs.<SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ 42 U.S.C. Sec. 12112(a)-(c). The ADA had originally 
incorporated a stricter rule which permitted employers to request from 
applicants only that medical information which was directly related to 
the job. After negotiations with the business community and the Bush 
Administration, however, that provision was modified to allow employers 
to request any medical information. Chai Feldblum, Medical Examinations 
and Inquiries Under the Americans with Disabilities Act: A View from 
the Inside, 64 Temple Law Review 521, 535-537 (1991) (hereinafter 
Medical Examinations). The key protection for people with disabilities, 
however, is that the medical information must demonstrate they are not 
qualified for the job. Whether a person is qualified for a job will 
depend on whether there are reasonable accommodations that will enable 
the person to perform the job functions. 42 U.S.C. Sec. 12112(b)(5)(a); 
see generally, Chai Feldblum, Antidiscrimination Requirements of the 
ADA, Implementing the Americans with Disabilities Act: Rights and 
Responsibilities of All Americans (L. Gostin & H. Beyer eds. 1992).
---------------------------------------------------------------------------
    Once employers have collected medical information about applicants 
through such questioning or examinations, that information must be kept 
confidential.<SUP>10</SUP> In addition, if an employer seeks medical 
information from an employee on the job, <SUP>11</SUP> that information 
similarly must be kept confidential. What that means is the following. 
If medical information indicates that an applicant is not qualified to 
perform a job, or that an employee is no longer qualified to perform 
the job, the medical information may be used to refuse to hire or to 
fire that applicant or employee. This includes, obviously, disclosing 
the medical information to the relevant person with employment 
authority. However, if the medical information does not indicate that 
an applicant or employee is unqualified for a job, then that 
information cannot be circulated within the employment 
setting.<SUP>12</SUP>
---------------------------------------------------------------------------
    \10\ 42 U.S.C. Sec. 12112(c)(3)(B).
    \11\ After an employee is on-the-job, medical inquiries may only be 
made if they are job-related. 42 U.S.C. Sec. 12112(c)(4)(A); Feldblum, 
Medical Examinations, at 538-540.
    \12\ The only individuals who may gain access to these records are: 
supervisors who may be informed regarding necessary restrictions or 
reasonable accommodations; first aid and safety personnel, when 
appropriate, and government officials investigating compliance. 42 
U.S.C. Sec. 12112(c)(3)(B). According to regulations issued by the 
Equal Employment Opportunity Commission, employers may also provide 
such information to worker's compensation offices upon the filing of a 
claim by an employee. See EEOC Interpretive Guidance to 29 C.F.R. 
Sec. 1630.14(b).
---------------------------------------------------------------------------
    There is a flip side to the confidentiality requirements of the 
ADA. Many people with medical conditions wish to keep their conditions 
private, and do not wish either their employer or their co-workers to 
know of their conditions. Often, this does not pose a problem. However, 
in certain circumstances, an employee is required by law to divulge his 
or her condition, even if such disclosure is personally difficult for 
the individual. These circumstances arise when an employee seeks a 
modification of an employment practice or procedure (a ``reasonable 
accommodation'') because of his or her medical condition. Thus, for 
example, if an employee has a health condition that requires her to 
receive a two-hour treatment once a week, and she seeks time off to 
receive that treatment--she must disclose the existence and nature of 
her health condition in order to receive the benefit of the reasonable 
accommodation requirement under the ADA.<SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ EEOC Interpretive Guidance to 29 C.F.R. Sec. 1630.9.
---------------------------------------------------------------------------
    What can we extrapolate from these employment requirements? As I 
noted, it is important to view privacy issues in the context in which 
they arise. When government regulates conduct that it is otherwise 
permitted to regulate (for example, prohibiting discrimination in 
employment contracts based on race, sex, or disability), I believe it 
is also permitted to regulate speech that would directly contribute to 
such discrimination. Thus, the government may not only prohibit an 
employer from discriminating on the basis of pregnancy, but may also 
prohibit an employer from asking a prospective job applicant if she is 
planning to become pregnant.<SUP>14</SUP> Similarly, employers may be 
restricted in the questions they ask of applicants regarding their 
medical conditions during the application process.<SUP>15</SUP> These 
restrictions should be narrowly tailored, however, to the harm sought 
to be prevented by the government. For example, such tailoring is 
evident in the structure of the ADA, which permits employers to seek 
medical information prior to actually hiring an individual.
---------------------------------------------------------------------------
    \14\ See EEOC Sex Discrimination Guidelines, 29 C.F.R. Sec. 1604.7 
(1983); King v. TWA, 738 F.2d 255 (8th Cir. 1984).
    \15\ I do not believe there is much disagreement that speech which 
effectively constitutes an act of discrimination is within government's 
legitimate power. For example, government may not only prohibit 
employment discrimination based on race, but may also prohibit an 
employer from running an ad that seeks ``whites only'' for a job. The 
more complicated question is whether, consistent with the First 
Amendment, government may also prohibit employers from engaging in 
speech that might lead directly to such discrimination. As noted, I 
believe government may legitimately do so. In some cases, however, the 
context in which this speech arises may well be determinative. For 
example, in U.D. Registry, Inc. v. California, 40 Cal.Rptr. 2d 228 (Ct. 
App. 1995), a state court held that the government could not prohibit 
only credit reporting agencies from disclosing information regarding 
certain housing actions, which were otherwise a matter of public 
record. While I have some questions regarding the outcome of this case, 
the fact that the relevant information already existed in the public 
domain was critical to the court's decision.
---------------------------------------------------------------------------
    The context of the employment relationship also justifies the fact 
that government compels certain speech on the part of some employees 
with disabilities. As a general matter, of course, government may not 
compel speech on the part of its citizens.<SUP>16</SUP> But if an 
individual enters a contractual relationship with an employer, in which 
certain facets of that relationship are regulated by the government, 
then that individual can be expected to conform to expectations in the 
relationship that have been established through the government 
regulation. Thus, for example, although an individual must forgo some 
privacy rights if she wishes to take advantage of the reasonable 
accommodation requirement of the ADA, that trade seems both appropriate 
and within the government's power.
---------------------------------------------------------------------------
    \16\ See Wooley v. Maynard, 430 U.S. 705 (1977); West Virginia 
State Board of Education v. Barnette, 319 U.S. 624 (1943).
---------------------------------------------------------------------------
    A contractual relationship also exists in the area of medical 
privacy more generally. That relationship has led some commentators, 
who are otherwise leery of governmental regulation of privacy, to view 
medical privacy in a different light. Let me take two of my co-
panelists as an example. Eugene Volokh has observed that ``one sort of 
limited information privacy law--contract law applied to promises not 
to reveal information--is eminently defensible under free speech 
doctrine.'' <SUP>17</SUP> Volokh notes that this protection should also 
cover implied contracts and explains the relevance of this for the 
medical context:
---------------------------------------------------------------------------
    \17\ Volokh, Freedom of Speech, at 1057.
---------------------------------------------------------------------------
        This explains much of why it's proper for the government to 
        impose confidentiality requirements on lawyers, doctors, 
        psychotherapists, and others: When these professionals say 
        ``I'll be your advisor,'' they are implicitly promising that 
        they'll be confidential advisors, as least so long as they do 
        not explicitly disclaim any such implicit promise.<SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ Id. at 1058.
---------------------------------------------------------------------------
    A similar observation is made by Singleton in her critique of 
analyzing privacy primarily as a ``right to `control' information about 
oneself.'' <SUP>19</SUP> As Singleton observes:
---------------------------------------------------------------------------
    \19\ Singleton, Privacy, at 122.
---------------------------------------------------------------------------
        This idea is familiar in medical and legal ethics and perhaps 
        in other special professional relationships. In these 
        relationships the expectations makes sense. The legal and 
        medical professions understand that clients and patients will 
        not confide in them without the right of confidentiality. Even 
        if this right did not exist by statute, it is implicit in the 
        agreements under which a doctor treats his patients or the 
        lawyer counsels his clients. This understanding is informed by 
        decades or even centuries of custom.<SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Id. at 122-123.
---------------------------------------------------------------------------
    The reality, of course, is that the confidential relationship 
patients believe they have with their medical professionals is 
compromised every day by the reality of the interconnected medical, 
research, payment, and marketing system that we live in. The California 
HealthCare Foundation has developed a fascinating presentation that 
graphically displays the flow of our medical information in our 
existing interconnected systems.<SUP>21</SUP> Thus, for example, during 
and following one visit to a hospital, a patient's individually-
identifiable health information may be sent to a lab, a pharmacy, a 
pharmacy wholesaler, a drug company, a marketer, an imaging center, a 
primary care group administrator, a third party administrator, an 
insurance company, a research institution, a public health department, 
a medical information bureau, a life insurer, a state insurance board, 
an oversight or accreditation board, and an employer.
---------------------------------------------------------------------------
    \21\ I watched this presentation at a conference sponsored by the 
California HealthCare Foundation in December 2000. It is one I would 
whole-heartedly recommend to Members of Congress and their staff. A 
useful summary graphic of ``sample data flow'' was developed by the 
Georgetown University Health Privacy project, based on the presentation 
of the California HealthCare Foundation, and is attached to this 
testimony.
---------------------------------------------------------------------------
    Of course, a certain amount of individually-identifiable health 
information must flow freely in our health care system in order for the 
system to work efficiently, effectively, and at a high level of 
quality. As someone who has represented disability organizations over 
the years, I can assure you that people with disabilities have a very 
pragmatic view of this issue. People with medical conditions tend to 
interact a significant amount with the medical system. Hence, they want 
an effective, efficient, and high quality health care system, together 
with the best that increased research and disease management can offer.
    But disability rights advocates do not experience their desire for 
medical privacy to be in conflict with their desire for an effective 
health care system, and thus they do not view these interests as 
needing to be ``balanced'' against each other. Rather, precisely 
because the interaction with the medical system is, at first onset, a 
contractual relationship--the interaction works best if patients feels 
assured of certain ground-rules: that their individual medical 
information will not be disclosed to entities that may use that 
information to harm them; that their information will be used, within 
the health care system, in an ``appropriate manner;'' <SUP>22</SUP> 
that they will be provided information about what those ``appropriate'' 
uses will be, and that they will have the opportunity to review their 
own medical records. Thus, establishing an effective system of privacy 
regulation can enhance the operation of the health care system by 
increasing individuals= trust and confidence in the initial medical 
contractual relationship.<SUP>23</SUP>
---------------------------------------------------------------------------
    \22\ I put ``appropriate'' in quotation marks because the debate 
over health care privacy regulation sometimes concerns the scope of the 
activities over which patients should be able to control transfer of 
their individually identifiable information. There are many activities 
that patients may not realize, at first blush, are ``appropriate'' uses 
of their medical information, and yet, such activities may be quite 
essential for the workings of the health care system. For this reason, 
the debate often focuses on what providers and plans may legitimately 
demand--as a pre-condition for treating a patient or paying for such 
treatment--as they enter the contractual relationship with the patient.
    \23\ A national survey released in January 1999 found that one in 
six Americans engages in some form of ``privacy protective behavior'' 
because he or she is afraid of confidentiality breaches regarding 
sensitive medical information. These activities include withholding 
information from health care providers, providing inaccurate 
information, doctor-hopping to avoid a consolidated medical record, 
paying out of pocket for care that is covered by insurance, and 
avoiding care altogether. California Healthcare Foundation, National 
Survey: Confidentiality of Medical Records (January 1999). The survey 
was conducted by Princeton Survey Research Associates. Results are 
available at http://www.chcf.org/conference/survey.crfm.
---------------------------------------------------------------------------
    As in the area of employment discrimination, Congress has already 
acted to some extent in the area of medical privacy--although there is 
work that still needs to be done. In 1996, Congress directed the 
Department of Health and Human Services (HHS) to develop nine 
administrative simplification standards for use in the health care 
system. These standards were to address: ``transaction codes and 
medical data code sets; consistent identifiers for patients, providers, 
health plans, and employers; claims attachments that support a request 
for payment; data security; enforcement'' and ``information privacy.'' 
<SUP>24</SUP> As the General Accounting Office described this 
Congressional mandate: ``Taken together, the nine standards are 
intended to streamline the flow of information integral to the 
operation of the health care system while protecting confidential 
health information from inappropriate access, disclosure, and use.'' 
<SUP>25</SUP>
---------------------------------------------------------------------------
    \24\ Ms. Leslie G. Aronovitz, Director, Health Care-Program 
Administration and Integrity Issues, U.S. General Accounting Office, 
Testimony before the Senate Committee on Health, Education, Labor, and 
Pensions, February 8, 2001, at 2. The mandate on HHS to implement an 
information privacy standard was triggered only if Congress failed to 
enact comprehensive medical privacy legislation by August 21, 1999. Of 
the nine standards required to be issued, HHS has issued a regulation 
governing electronic transactions (on August 17, 2000) and a regulation 
governing information privacy (on December 28, 2000).
    \25\ Id.
---------------------------------------------------------------------------
    Congress' action to date in this area reflects, I believe, an 
appropriate interaction between government and private contractual 
parties in the health care system. Given the interconnectedness of our 
health care system, and the increasing use of computer technology, all 
parties benefit if there are consistent and uniform standards that will 
be used by all parties to health care transactions. To create such 
uniformity and consistency--and hence, administrative simplification--
government must intervene through the establishment of standards to 
which all parties must conform. However, as government facilitates the 
uniform entry of our medical information into this administratively 
simplified system, it must simultaneously ensure that privacy 
standards, policies, and protections are built into the system as well.
    Congress took that initial step in 1996, and the Department of 
Health and Human Services fulfilled its obligation in 2000. While I, as 
others, are disconcerted that the process will be reviewed yet again, 
<SUP>26</SUP> I have no doubt that, as Secretary of HHS Tommy G. 
Thompson has stated, after reviewing public comments, he intends to 
``put strong and effective health privacy protections into effect as 
quickly as possible.'' <SUP>27</SUP> I believe the Secretary, as well 
as the heath care industry, clearly recognize that effective privacy 
protection facilitates and enhances the doctor-patient relationship.
---------------------------------------------------------------------------
    \26\ See Robert Pear, ``Health Secretary Delays Medical Records 
Protections,'' NY Times, February 27, 2001, at A14 (reporting that HHS 
Secretary Tommy G. Thomson announced he would seek additional public 
comment on the privacy regulation issued by HHS in December 2000).
    \27\ Id.
---------------------------------------------------------------------------
    The reality, of course, is that Congress has not yet acted to 
ensure that medical privacy protection will exist--as a reality--in all 
contexts in which problems of disclosure may arise. For example, the 
mandate Congress handed to HHS covered only a select group of entities 
in the health care system (health care providers, health plans, and 
health care clearinghouses), and did not cover a range of other 
entities (such as employers, educational institutions, and financial 
institutions) that also obtain medical information. While the 
regulation issued by HHS makes some effort to address subsequent 
disclosures by such entities, I believe most observers consider there 
is room for improvement in this area.
    The actions that Congress has previously taken in the area of 
medical privacy, together with the work that remains to be 
accomplished, provides us with some general observations on the role of 
government in this arena. As I stated at the outset, ``privacy'' must 
be viewed within a specific context. In the health care arena, that 
context is a long-standing belief between patient and doctor that 
medical information should be kept ``confidential,'' juxtaposed with 
the reality of a complex health care treatment, payment, research, 
quality and marketing system that uses a significant amount of 
individually identifiable health care information without patients' 
explicit knowledge (albeit presumed by some patients with some dimly 
sensed fear). The role of government, I believe, is to bring clarity 
and confidence to this area. The goal of any system of privacy 
regulation must be to enhance the treatment, payment, research, and 
quality aspects of our health care system through creating a workable 
privacy system that provides patients with trust in their health care 
system, and at the same time, ensures that health care entities can 
engage in the marketing necessary to their financial health in a manner 
consistent with consumer consent.
    Obviously, this is not necessarily an easy project. For example, 
while I doubt many observers of the current health care privacy debate 
would quibble with the first part of my previous sentence, I expect 
there would still be debate regarding what is a ``workable system'' of 
privacy regulation, what requirements ``enhance'' research or simply 
make life more ``convenient'' for researchers, and whether one uniform 
federal standard, with no state variations, is an essential component 
of such a system. Moreover, I am sure there would be disagreement 
regarding the extent of marketing that should be permitted without 
consumer consent. Nevertheless, I believe there is a shared conceptual 
principle that it is legitimate for government to intervene in this 
area so as to enhance patient trust in the health care system. The fact 
that this may be a hard job for government to do has never been a 
reason not to tackle it.
    Let me conclude with some comments on an area that represents one 
of those ``hard jobs'' that need to be tackled--and that brings 
together some of my observations on employment discrimination and 
medical privacy. We are blessed to be living in a century where amazing 
medical and scientific advances are made every year.<SUP>28</SUP> The 
success of the Human Genome Project is one example of such an 
astonishing scientific breakthrough. But the researchers in that 
project, and in comparable private sector projects, correctly warn us 
that ``genetic testing'' and ``genetic markers'' must be treated with 
caution. The existence of a ``genetic marker'' does not necessarily 
mean an individual will develop a particular disease.<SUP>29</SUP> 
Moreover, employers and insurance companies may begin to view genetic 
information as useful information to compile, and then act upon such 
information for purposes that the general public, and Congress, may 
well find objectionable.<SUP>30</SUP> The principles that I articulated 
above should, I believe, lead Congress to clearly prohibit unjustified 
discrimination based on genetic markers for health conditions (as well 
as for the health conditions themselves), and to ensure that any 
medical privacy regulation clearly encompasses protection for genetic 
information.
---------------------------------------------------------------------------
    \28\ Of course, the existence of such breakthroughs only makes the 
reality of ``medical mysteries'' that much more heartbreaking. See, 
e.g., Jerome Groopman, Second Opinion: Stories of Intuition and Choice 
in the Changing World of Medicine (2000); Jeff Wheelwright, The 
Irritable Heart: The Medical Mystery of the Gulf War (2001); Hillary 
Johnsen, Osler's Web: Inside the Labyrinth of the Chronic Fatigue 
Syndrome Epidemic (1996). Nevertheless, medical advances continue to 
help a large number of individuals.
    \29\ For background information on the Human Genome Project and 
genetic research generally, see the website of the National Human 
Genome Research Institute at the National Institutes of Health, 
available at http://www.nhgri.nih.gov.
    \30\ Certain evidence seems to indicate that such activities are 
already taking place. See, e.g., U.S. Equal Employment Opportunity 
Commission, ``EEOC Petitions Court to Ban Genetic Testing of Railroad 
Workers in First EEOC Case Challenging Genetic Testing Under Americans 
with Disabilities Act,'' available at http://www.eeoc.gov/press/2-9-01-
c.html.
---------------------------------------------------------------------------
    Thank you for your attention. I look forward to responding to your 
questions.

    Mr. Stearns. Thank you.
    Let me start with my questions. Professor Volokh, this is 
perhaps a more legal question, but I think our committee should 
tackle this and get the nuances here. What legal considerations 
would creating a property right in personal information 
trigger?
    Mr. Volokh. Sure; this is one of the arguments that is 
sometimes made in support of information privacy speech 
restrictions, that they just create a property right in 
personal information. The Supreme Court has said that certain 
kinds of speech restrictions--specifically, copyright law is 
the best example--are justifiable on an intellectual property 
rationale. But in that case, Harper and Row v. Nation 
Enterprises, where the Court upheld copyright law, it said many 
times that the reason that copyright law is Constitutional is 
precisely because it distinguishes facts, which nobody can own 
under copyright law, from expression of those facts.
    So if you are a historian, and you uncover some facts about 
a person or about something else, you have no property right in 
those facts. You do have a property right in the book that you 
used to express those facts, so nobody can copy literally or 
even paraphrase the book, but they can borrow the facts from 
your book. That is the fundamental rule of intellectual 
property law, but it is also a fundamental rule, as I read 
Harper and Row, of First Amendment law: that to the extent the 
intellectual property rules do survive First Amendment 
scrutiny, it is precisely because they do not create a monopoly 
in facts.
    And also, if you think about what are the implications of 
saying that somebody has a property right in personal 
information? If somebody really does have a property right in 
personal information, that is like a property right to stop 
other people--not just in the business context but also, say, 
in the press context--from writing about this person, from 
communicating that information.
    Mr. Stearns. So I am on a computer. I go to a site----
    Mr. Volokh. Yes.
    Mr. Stearns. [continuing] they send a cookie, and they 
start to track me, and they provide--they have a pretty good 
idea all about me in terms of from a marketing standpoint. At 
what point do I have a right to ask that they tell me what they 
are doing with it and to say I want to opt out?
    Mr. Volokh. Okay; I think that there are two distinctions 
here. One is between data gathering of certain kinds.
    Mr. Stearns. Okay; which is----
    Mr. Volokh. So, for example, if they pop a virus in your 
computer----
    Mr. Stearns. Right.
    Mr. Volokh. [continuing] well, that would clearly be 
something that can be regulated.
    Mr. Stearns. Okay.
    Mr. Volokh. But the other distinction is between disclosure 
requirements----
    Mr. Stearns. Okay.
    Mr. Volokh. [continuing] and actual restrictions on 
communication. I think it would be quite Constitutional for 
Congress to say that before somebody----
    Mr. Stearns. Starts tracking you.
    Mr. Volokh. [continuing] gathers information, they have to 
explain what they are doing.
    Mr. Stearns. So Constitutionally, I would have a right for 
them to put up a dialog box saying that I have the right to opt 
out?
    Mr. Volokh. It would be Constitutional for Congress to 
create this as a statutory right.
    Mr. Stearns. Okay; so, it would be Constitutional.
    Mr. Volokh. But I should mention the opt-out thing. I mean, 
it seems to me the site has to have the right to say look: if 
you want to use our site, you have to understand that we are 
going to reveal this information. So I think the opt out is the 
customer's right not to use that site.
    Mr. Stearns. Let me follow up. Can you take us through the 
Constitutional tests that a court would apply regarding a law 
restricting commercial speech? What would qualify as compelling 
in your mind?
    Mr. Volokh. Sure; if we are talking about commercial 
speech, which is a legal bit of shorthand that really means 
commercial advertising, then, there is this four-part so-called 
Central Hudson test which demands only a substantial government 
interest to justify restriction on commercial advertising. Most 
of this data gathering and communication does not involve 
commercial advertising or commercial speech under the Court's 
precedents.
    Just like the Wall Street Journal reports speech about 
commerce; reports speech about commercial entities, that is not 
commercial speech. The Wall Street Journal is fully protected 
as to its data that it contains even though not as to the 
advertisements.
    Likewise with this information that is gathered about 
people. If there is an advertisement that is sent to people, 
that is commercial speech. That can be restricted under this 
more lenient test. But if all we are talking about is 
communication of information about people, that is not 
commercial speech, and that requires the highest level of 
Constitutional scrutiny.
    Mr. Stearns. So I am on the Website, and after 3 or 4 
months, I am starting to get all of this advertising. It is 
coming into my Website, and, you know, I don't know where it is 
coming from.
    Mr. Volokh. Yes.
    Mr. Stearns. It is not only the mundane stuff, but it is 
starting to get more nuanced into all kinds of things----
    Mr. Volokh. Yes.
    Mr. Stearns. [continuing] I don't want to have on my 
Website, and I don't understand how it got there. So is that 
commercial speech Constitutionally acceptable, and can I object 
to that?
    Mr. Volokh. Yes; if it is advertisement that is being sent 
to you, not just communication about you to other people but 
advertisements, commercial advertisements being sent to you, 
that is commercial speech. Congress has somewhat more 
flexibility in restricting that. So, for example, Congress 
could certainly require that commercial ads have some 
disclosure requirement, for example, explaining where it is 
coming from, maybe even where they got the data from you and 
such.
    Mr. Stearns. Because I see all of this come on, and I don't 
know where it is coming from. And, you know, it is okay and 
doesn't bother me, but after awhile, it does start to bother 
me.
    Mr. Volokh. Yes; and one thing that Congress could do--and 
again, it is an interesting question as to whether, as a policy 
matter, it is a good idea for it to do, but it could give you 
the right to say stop sending me this stuff.
    Mr. Stearns. Right, like spamming.
    Mr. Volokh. There is a Supreme Court case--exactly; there 
is a Supreme Court case 30 years ago called Rowen v. Post 
Office Department that had to do with paper spam.
    Mr. Stearns. Okay; one question, and then, I am done.
    Professor Cate, and perhaps this is a question for each of 
you to answer just yes or no to, if I can, pin you down here as 
law professors.
    As a member of the FTC's Online Access and Security 
Advisory Committee, you closely studied the issue of access and 
security as it relates to online Websites. What problems did 
the committee see with the access and security as it relates to 
consumer data? Does that make sense?
    Mr. Cate. Yes, it makes perfect sense. I would like to be 
able to answer yes or no to that. But there were obviously 
numerous problems. That is one reason the committee never 
reached a consensus or a resolution on that issue; beginning 
with the problem of, first of all, how do you authenticate who 
you are providing access to? If somebody comes to you and says 
I want access to my information, how do you know who they are?
    A second problem of do you have to bring together more 
information in order to provide them access? So, for example, 
if you collect information in three different ways or three 
different sides, you never bring it together for any purpose 
whatsoever, marketing or others. Would access requirements 
require that the business profile you in order to respond to 
your request for access; you know, a third being the related 
security issues: how do you protect the security of that 
transaction?
    A fourth concern, particularly in the online environment, 
being, as this committee well knows, computers, you know, tend 
to collect a lot of information, much of which is never used 
for any purpose. For example, you know, there are backup tapes 
that record virtually all of the access to any Website. I am 
sure that is true for the Congress as well. That is not used 
for any purpose at all. Yet, that is certainly personally 
identifiable information about you. Would an access request 
require that the institution, the business, go back and mount 
all of those tapes and run them in order to find data which is 
not used for any purpose whatsoever?
    And, you know, I guess finally the fifth issue raised in 
that committee's discussion is what information would you have 
access to? You know, only personally identifiable information? 
How about calculated information? If I know that you purchase 
beer, statistically, that means you are likelier to purchase 
diapers. Don't ask me why. That just happens to be true.
    So, if I have calculated that you are likely to have 
children--does that mean I have to disclose that to you?
    If it is a credit score, do I have to tell you how I 
arrived at that score? If it publicly available information, 
you know, I matched some information about you with data from 
the public record, do I have to give you access to that 
information even though I am not the custodian of it and can't 
correct it in any event? And what if it is information that you 
can't correct in any event, for example, records of past 
transactions? You want to say you did not make that purchase at 
my store. You know, you can want to say that all you want. 
Unfortunately, you know, if I believe you did, and I can 
support that, I am not going to change it. Should access be 
provided to that type of information?
    Mr. Stearns. Well, my time has expired.
    Ms. DeGette?
    Ms. DeGette. Thank you, Mr. Chairman.
    I would like to follow up on the Chairman's question a 
little bit to you, Professor Volokh. I am not so concerned 
about advertising that comes onto folks' Websites. What I am 
concerned about is the topic of the discussion today, which is 
privacy. And from what I heard you say in your opening 
statement, it sounds like your view is that there is really 
pretty much an unrestricted First Amendment right to privacy 
which you can have either an expressed or an implied contract 
by the providers to restrict that somewhat, but if there is no 
contract, then, what it sounds to me you are saying is that 
once someone gives over, say, their medical records or their 
financial records that there is an unrestricted First Amendment 
right. Is that not accurate?
    Mr. Volokh. My view, being kind of an extremist by 
temperament, my view is that----
    Ms. DeGette. I noticed that.
    Mr. Volokh. Exactly; is that in fact, once information is 
revealed without any contractual obligation to somebody, that 
person is free to pass it on.
    Ms. DeGette. So, for example, if I give my medical records 
to somebody, and then, they, without my knowledge, transfer 
them to someone else, that third party, in your view, has an 
unrestricted First Amendment right to disseminate those 
records----
    Mr. Volokh. Yes.
    Ms. DeGette. [continuing] anywhere they want, and Congress 
could pass no law to control that action?
    Mr. Volokh. A very similar question is before the U.S. 
Supreme Court right now. It has to do with whether the media 
are entitled to publish information that was illegally 
gathered, in that case by intercepting cellular conversations 
but turned over to them. And I think the answer is, for 
example, if a newspaper get somebody's record, they are 
entitled to publish it.
    Ms. DeGette. So your answer to my question is yes, that is 
your view.
    Mr. Volokh. My view is but there is also another 
possibility.
    Ms. DeGette. Yes or no.
    Mr. Volokh. My personal view, yes.
    Ms. DeGette. What do you think about that, Mr. Rotenberg? 
And then, I will ask you, Professor Feldblum.
    Mr. Rotenberg. I think it is generally correct, but there 
are competing legal principles, and one competing legal 
principle is the privacy tort, particularly with regard to the 
disclosure of private facts. Now, that tort creates First 
Amendment questions, because that is the issue that you have to 
consider. If I know, for example, that someone is AIDS-
positive, and I publish this information, it is a true fact. 
Assuming it is a true fact, all First Amendment theory says why 
would we restrict the publication of true fact? There is no 
defamation.
    But if you go back to the concept articulated in the 
Brandeis and Warren article, we might restrict the publication 
of true facts because of the harm that it does to the 
individual as a person, whether or not there is identifiable 
economic damage, that somehow, we value the person's integrity, 
their autonomy and their dignity. And so we have, in American 
common law, recognized this privacy tort. We have created a 
very high standard. The disclosure has to be very highly 
offensive.
    And just, you know, by way of counterexample, one of the 
cases I teach is a case called Legg v. Wal-Mart.
    Ms. DeGette. Right.
    Mr. Rotenberg. It concerns a woman who went into a Wal-Mart 
to have her vacation film developed. It included some pictures 
of her in the shower, of her and a friend taking a shower 
without any clothing on. She got back from Wal-Mart and a 
notice which said I am sorry; we can't process this film. She 
didn't think anything of it until she later learned that 
pictures from that roll of film were circulating in the 
community, because the technician who had access to that roll 
of film had gone ahead, developed the pictures, and circulated 
them.
    And she brought an action against Wal-Mart. There was 
nothing in the agreement with Wal-Mart that said that they were 
prohibited from disclosing this information. The question that 
was put to the Minnesota Supreme Court was does she have a 
right of privacy----
    Ms. DeGette. And what was the answer?
    Mr. Rotenberg. And the answer was yes.
    Ms. DeGette. Thank you.
    Professor Feldblum?
    Ms. Feldblum. Yes; I think you have touched on exactly what 
I thought was the weakness when I read my colleague's article. 
I believe that the government does have a right to restrict 
that information of the newspaper or some other third party 
because they have a compelling interest in protecting that 
information, and it is narrowly tailored to that.
    The contract model gets you only so far in the medical 
world. It is the reason why we have to be concerned that only 
gets you so far in terms of binding individuals. I believe 
Congress can bind not only the physician or the hospital to 
their express or implied contracts but also other entities that 
get that information, even though it is a burden on their 
speech. But you can burden speech when it is narrowly tailored 
to a compelling government interest, and in my mind, this is 
one of those.
    Ms. DeGette. Thank you. Ms. Feldblum, let me follow up. I 
spoke in my opening statement about these new HIPAA regulations 
and have been hearing from a lot of businesses that they will 
be overburdensome and costly. I would be interested, and I know 
you were involved in the development of those regulations, and 
I am wondering what your thoughts are on that and if you have 
been thinking of ways we could streamline them to make them 
more workable.
    Ms. Feldblum. I think they will cost money. The bottom line 
is things cost money when you actually change norms. There is a 
norm right now in the medical community which is that 
information flows very freely, and it flows that way because 
people think that they are all doing a good thing.
    You know, often, they are, but sometimes, it doesn't make 
sense to have all that information flowing in that way. What 
the health industry said to Congress in 1996--well, they had 
been saying it for some time--is we have got so much 
information going on out there, and we have people putting it 
in all of these different formats, and that is a problem for 
us. So we want you, government, to intervene and create 
standards about what the data codes should look like and what 
the identifiers----
    Ms. DeGette. Well, my time has expired.
    Ms. Feldblum. Yes, I see.
    Ms. DeGette. So I would like to get an answer, which would 
be are you involved or willing to look at ways we can modify 
those regulations to make them more workable for industry?
    Ms. Feldblum. I believe that the comments actually took in 
those concerns already and that they have been modified. I 
think it is unfortunate that the Secretary is opening it up for 
comment again. I will be involved in this 30-day comment, and 
if we get something better, I am all for it.
    Ms. DeGette. Great; thank you.
    Mr. Stearns. Thank you. I thank my colleague.
    Mr. Buyer?
    Mr. Buyer. Thank you.
    In my mind, when it comes to issues of privacy, it is 
easier for me to understand this when there is a contract or 
physical property. I am going to move into a difficult arena 
for me, and I am going to turn to you, Professor Volokh, only 
because I remember your testimony to us before the Judiciary 
Committee, and I appreciated your past witnessing.
    What are some examples of an implied contract with an 
inferred privacy where there would be an unjust enrichment?
    Mr. Volokh. A classic example of an implied contract, I 
think, would be a situation where----
    Mr. Buyer. Well, Wal-Mart immediately comes to my mind.
    Mr. Volokh. Exactly, exactly. I am not sure unjust 
enrichment is present there, but I don't think it needs to be 
present in order for the government to be able to act, either 
through a standard contract claim. You could have a claim on an 
implied contract without unjust enrichment; or through special 
tailored legislation.
    I'd be happy to talk further to the unjust enrichment 
question, but I just don't think it is necessary as a doctrinal 
matter.
    Mr. Buyer. An example, then. If we are to do absent 
physical property or a contract, in the arena of a privacy 
tort, is it possible to have an inferred privacy?
    Mr. Volokh. I think the term inferred usually arises in the 
context of a contract; that is, a promise on somebody's part.
    Mr. Buyer. Right, and I am saying absent that.
    Mr. Volokh. Right; I oppose----
    Mr. Buyer. If the courts are going to be narrowly 
constrained?
    Mr. Volokh. Yes.
    Mr. Buyer. Is it possible to have an inferred privacy 
absent?
    Mr. Volokh. I oppose the Warren-Brandeis privacy tort. I 
think that there have been quite a few cases in which it has 
been applied in a way that, as people would predict, involved 
judges telling newspapers what they may and may not publish. I 
think that is not a good thing for a judge to do.
    Mr. Buyer. People believe--they have these expectations----
    Mr. Volokh. Yes.
    Mr. Buyer. [continuing] of privacy.
    Mr. Volokh. Yes.
    Mr. Buyer. Is it possible to have an inferred privacy, 
absent--I mean, in a privacy tort, can you have an inferred 
privacy?
    Mr. Rotenberg. If I may answer, Mr. Buyer, I think the 
Internet today provides a wealth of very interesting examples 
to answer the question that you are asking, and the reason for 
this is that there is a great deal of surreptitious data 
collection taking place by Websites, by firms that do 
advertising profiling, the so-called Web bugs that are related 
to HTML tags that make it possible to track and collect data 
about individuals without their knowledge. Now, this is a very 
interesting type of data collection, because I think you could 
fairly say that there is really no contractual relationship, 
and what was quite significant about the Double-Click example 
is that an advertiser really exists apart from the customer. I 
mean, the client of the advertiser is the company for whom the 
product is being advertised.
    But when this type of data collection occurs, it raises 
privacy issues of the Brandeis-Warren tort variety. And, in 
fact, claims that were brought in State courts against 
companies like Double-Click, and I don't mean to single them 
out because there were others as well, were based on the theory 
that you are talking about now, that you have this type of 
collection of information; a use that occurs; arguably, a form 
of unjust enrichment; I have seen that alleged--without a 
preexisting relationship.
    Now, I think, a) this is a serious privacy issue, but b) 
the better approach, rather than going back and forth with a 
privacy tort state-by-state, is a general privacy law for this 
activity based on fair information practices that makes more 
open, more transparent when that data collection is occurring, 
makes it fairer.
    Mr. Buyer. May I ask, Professor Feldblum----
    Ms. Feldblum. Yes?
    Mr. Buyer. [continuing] do you believe it is possible 
absent, in torts privacy, to have an inferred privacy cause of 
action?
    Ms. Feldblum. I think it is very hard to imagine an 
inferred privacy without some contractual engagement at some 
point. I think where you are going to find----
    Mr. Buyer. I am trying to find the boundaries. That is why 
I asked the question.
    Ms. Feldblum. I think that where the differences will be is 
how far we are willing to see that contract extend; that is, 
somebody might say here is the contract and then that is it, 
and I think I would be someone who might say yes, that is the 
initial contract, but actually, there are other ramifications 
from that contract in terms of other people they interconnect 
with, and therefore, then, we get a privacy issue.
    And that is when the context of the area makes a 
difference. It might be a difference if it is medical privacy, 
and they are interconnected there versus that I shop at Books a 
Lot. I mean, and that is a policy question, then, for you guys 
to decide.
    Mr. Buyer. Thank you, Mr. Chairman.
    Mr. Stearns. Thank you.
    Mr. Doyle?
    Mr. Doyle. Thank you, Mr. Chairman.
    Professor Volokh, you seem to get a lot of questions. I am 
not an attorney, so bear with me. I want to make sure I got 
this right. My desire to keep certain factual information about 
myself private violates your First Amendment right to speak 
about me. Did I get that right?
    Mr. Volokh. Not quite. Let me offer a friendly amendment. 
The government stepping in and suppressing people's speech to 
effectuate your desire, that would violate their speech rights. 
If the government goes and, as Professor Feldblum suggested, 
and tells a newspaper you may not publish this story, because 
it conflicts with the subject's desire to keep the information 
private, then, indeed, that is the government restraining the 
freedom of speech and of the press.
    Mr. Doyle. I have got you. So it is not inquiring minds 
have a First Amendment right to know; it is inquiring minds 
want to know. You are not saying that my desire to keep certain 
things private about myself violates your First Amendment 
rights.
    Mr. Volokh. Oh, no, absolutely. If you are just doing it 
through technological self-help or through contract or through 
not revealing certain information, that is perfectly right. It 
is when the government steps in and tries to enforce that 
through coercive sanctions; that raises First Amendment 
questions.
    Mr. Doyle. Got you.
    Professor Cate, you were not serious about that beer and 
diaper thing, were you?
    Mr. Cate. Yes, I was.
    Mr. Doyle. That is incredible.
    Mr. Rotenberg, that is all I have.
    Mr. Doyle. Let me ask you a question. We have talked a 
little bit about, you know, back in 1996 that companies started 
this self-regulatory approach to privacy, and here we are 5 
years later, and FTC has basically come on the side that maybe 
the self-regulation hasn't progressed as much as it should. In 
your view, do you think the private sector has made a 
legitimate effort, a good faith effort to institute standards 
of behavior, or do you think they could be doing a better job?
    Mr. Rotenberg. Well, I think both statements are true. In 
other words, I think they have made a good faith effort. I 
think there has been progress. But I also think they could be 
doing a better job.
    What I tried to do in my testimony, because this is 
obviously an area that you are going to come back to, I think, 
how well does self-regulation work, is to suggest a few issues 
you might want to consider.
    Now, one thing that concerns me about this process of self-
regulation is what I see as a redefinition of privacy. you 
know, we may sort of disagree about where the privacy rules 
apply, but I do not think there would be broad disagreement 
about fair information practices. That basic set of principles 
that can be found in a lot of places in U.S. law has been 
shortened, and today, we talk a lot about notice and choice, I 
mean, as a formulation for self-regulation. I think that is a 
very significant change in how we talk about privacy 
protection.
    Mr. Doyle. Thank you.
    Professor Feldblum, you know, when we talk about commercial 
matters, I am not near as troubled as when we talk about 
medical matters, and again, I am trying to understand the legal 
issues. I mean, there is an implied privacy between a patient 
and their doctor that when you are sitting down discussing your 
medical situations with your doctor, you have a right to expect 
that that is not going to become public information.
    Yet, I know--I live in Pittsburgh--the University of 
Pittsburgh Medical Center is undertaking this effort through 
this new technology project to be able to share information not 
only with doctors in their system but outside the system, so 
that when you go to a doctor, instead of waiting for film to be 
sent over and records that, you know, they can plug right into 
what standard, a system that can pull up all of that 
information.
    But in the medical community, isn't this always done with 
some sort of waiver release? In other words, can my records 
actually be accessed by someone without me signing a medical 
waiver saying I give permission to send my records somewhere?
    Ms. Feldblum. Oh, absolutely. I mean, that is what happens 
all the time right now. You will get----
    Mr. Doyle. Doesn't that seem----
    Ms. Feldblum. Doesn't that seem odd? Well, you do sign 
waivers for things like payment and sometimes research. But, 
you see, what the medical community will say to you, and I 
think there is some value to this. One of the pluses about 
negotiating is hopefully, you learn and understand the other 
side is that they need some of that free flow of information. 
And if it was simply dependent on the consumer, the patient, 
agreeing, you would have too many people opting out, and then, 
that would hurt the quality of the system. That would hurt the 
quality of the information.
    Mr. Doyle. Give me an example of why they need the free--
like, for instance, if I want to apply for a life insurance 
policy, I give a medical waiver saying, you know, check my 
medical records to make sure I am not going to die tomorrow. 
But I am saying give me an example of how stopping the free 
flow of information between doctors that I have not given any 
permission to do is a benefit----
    Ms. Feldblum. Right.
    Mr. Doyle. [continuing] to consumers and/or the hospital.
    Ms. Feldblum. The point, the idea is that the way research 
and quality and disease management work the best is by bringing 
in a lot of information. I think it was Congresswoman DeGette's 
point that sometimes, greater information actually helps the 
consumer, and the medical industry will say you may not realize 
that if you allow your medical information to be used, you will 
be helped with your diabetes as well, and you might not be 
smart enough now in the moment to realize you should give up 
that information.
    So I believe, and my work in this area has made me believe, 
that we have to make sure that privacy regulation is workable 
for the industry, but that does include, No. 1, making sure 
that patients know where that information is going and that 
they do sign. Now, that is a sort of compelled consent, because 
if they don't sign, they don't get treated. But at least there 
is some information being given to them and that in areas where 
the industry can prove, look, we need this information; we need 
it under the compelled consent, it has to be under a separate 
consent where if I don't sign, you can't refuse to treat me.
    And to be honest, that is what the HIPAA regulations have 
essentially done.
    Mr. Doyle. Thank you.
    Thank you, Mr. Chairman.
    Mr. Stearns. Thank you.
    Mr. Shimkus?
    Mr. Shimkus. Thank you. I think this is a family show, and 
I don't think I want to be effectuating my desire, as was 
stated. That was supposed to be funny.
    I guess it didn't work. I am not a lawyer either, and I 
don't even pretend to be one.
    And I am going to take this question, but I really enjoyed 
it. Let me state that. And I think it has caused a lot of 
questions. My opening statement said how do you balance? There 
are a lot of benefits to the consumers for trading of 
information, but there will be benefits to the business to keep 
the individual's records also.
    In another subcommittee that Chairman Upton chairs, we are 
addressing the Webpages, domain names, and my personal interest 
is a move, if possible, to a .xxx domain name for that type of 
material, trying to address how do we skip away from the First 
Amendment debate on the people being able to go to those areas 
and for people to reap benefits from the publication of that 
smut, as a lot of us will characterize it, while protecting our 
children?
    And with a .xxx domain name, filtering and technology could 
better support that, but you are not, in essence, infringing, I 
don't think. So I want to pose that to those who want to 
respond. I know Professor Volokh is ready to respond to that. 
What do you think are the First Amendment consequences? And 
then, it would translate into privacy because of the cookie 
issue and the tracking and all the other events.
    Mr. Volokh. Just by sheer accident, it turns out that this 
is also an area that I have studied.
    Mr. Shimkus. I knew that.
    Mr. Volokh. But the Supreme Court, in Reno v. ACLU, said 
that the Government has very limited power controlling 
information online, even if it is sexually explicit 
information. Outside of the narrow zone of obscenity and child 
pornography, that speech is Constitutionally protected.
    One of the things that the Supreme Court highlighted is 
there is filtering technology that parents can use to shield 
their children at home. I have argued that the Court may have 
overstated the utility of that technology; that the filtering 
technology is not perfect, and I think it is very important to 
realize that it is not perfect and never will be perfect. But 
it is probably the best solution, both from a Constitutional 
perspective--it may be the only Constitutionally available 
solution for parents, essentially, to use this technology and 
perhaps for the government to facilitate its development if 
necessary.
    But what is more, as a technical matter, given the amount 
of offshore sexually explicit material which we might like to 
control, but we can't really, filtering is a necessary 
requirement, because filtering is the only--the technological 
option is the only mechanism for controlling all the access 
that your child might have, whether domestic or foreign, 
because, of course, on the Internet, nobody can tell if it is 
domestic or foreign.
    So I think filtering, with all its flaws, is the best 
solution both technically, practically and Constitutionally.
    Mr. Shimkus. Following up on the actual--the ICAN, which is 
a pseudo-government entity----
    Mr. Volokh. Yes.
    Mr. Shimkus. [continuing] that assigns domain names----
    Mr. Volokh. Yes.
    Mr. Shimkus. [continuing] what about their requiring--two 
issues: requiring pushing sexually explicit sites into a 
specific domain name, and then, there is, again, would be 
copyright issues as far as forcing them from their name of 
choice that they have been using and everybody has familiarity 
with to another domain?
    Mr. Volokh. You know, I am not an ICAN expert, but while I 
understand that there is talk, excuse me, of the .xxx suffix--
--
    Mr. Shimkus. Yes, we had a hearing on that.
    Mr. Volokh. Yes.
    Mr. Shimkus. And it didn't go as well as I would have 
liked.
    Mr. Volokh. I think while ICAN can set up that system, I 
think it becomes much harder for ICAN, then, to say and, by the 
way, you can't have sexually explicit material on any other 
things. So it is one thing for them to create a special domain 
name. It is another thing for them to start policing what is 
going to happen on other domain names. Even setting aside the 
legal question that happens if they say oh, we are going to 
revoke your .com address because we find pornography on your 
site, there is a whole host of practical questions: how are 
they going to figure out what is on your site? How are they 
going to hold a trial on whether it is sexually explicit? What 
happens if you have links from your site to some other site 
with links to .xxx?
    So while I think this might be a channeling mechanism by 
which the job of filter providers could be made easier, because 
it would be a win-win-win for everybody, I don't think it would 
work as a coercive mechanism.
    Mr. Shimkus. Mr. Rotenberg?
    Mr. Rotenberg. Yes; well, let me just say we participated 
in the Communications Decency Act litigation. We have also 
looked at the filtering issue. In fact, we have a publication 
called Filters and Freedom that looks at the strengths and 
weaknesses. But I very much agree with Gene on this. I mean, I 
think you can set out the domain and try to encourage its 
voluntary use, which would be beneficial, but at the point that 
you tried to, in effect, cordon off speech and say that certain 
speech, by government regulation, can only occur on certain 
places of the Internet, I think that would be very problematic 
and probably not permissible.
    Mr. Shimkus. My time is up. I yield back to you, Mr. 
Chairman.
    Mr. Stearns. I thank my colleague.
    Mr. Terry?
    Mr. Terry. Thank you, Mr. Chairman.
    This has really been a----
    Mr. Stearns. Mr. Terry, let me go to this side and pick up 
Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    This has been an interesting and a diverse panel, as it 
should be.
    To sum up what you have talked a long time about probably 
isn't completely fair to you, but, you know, anyway, let me 
just sort of, if I could, lay out what I see as sort of some 
parameters here. I guess it is Dr. Volokh. Basically, it seems 
to me you are saying that you don't have a right to stop or I 
don't have a right to stop someone from talking about me once 
it's out in the public domain, but it would seem that, as an 
individual, you know, we have the right to pull our blinds at 
night. We have the right to close the door.
    Mr. Volokh. Absolutely.
    Mr. Gordon. We have the right to, under certain 
circumstances, have our divorce sealed. We have the right to, 
in contracting with someone in a business deal, saying that if 
you divulge this information, then the business deal is null 
and void.
    And, Ms. Singleton, you say that to think that to own the 
right to control information about yourself is a radical 
thought. It would seem to me that it would be radical to think 
that you can't, but again, that is where you are, it would 
seem.
    And then, Dr. Feldblum is more pragmatic in that, you know, 
let's take things, as you say, in context. We will figure them 
out as we go along.
    Now, as legislators, you know, I am trying to find out what 
our field of play is. We can doing nothing, or we can do, 
obviously, something. Now, getting outside of the realm of what 
you think ought to be done--that is our decision--what I am 
interested in knowing is how far we can go. You know, what is 
our outside limit? We know that our outside limit on doing 
nothing is doing nothing. Now, our outside limit on doing 
something is what I would like to find out. Whether we go that 
far is another matter.
    So why don't we start with the three individuals I just 
mentioned, and hopefully, we will have time to talk to others 
in trying to succinctly tell us if we chose to go forward with 
legislation, how far could we go, in your opinion, 
Constitutionally?
    Mr. Volokh. Sure. One is disclosure requirements. Again, 
this is what you could do. There may be some practical problems 
with it, but you could require that sites reveal their privacy 
policy. Another thing that you could do is that you could set 
up default contractual terms that are waiveable by the site, 
but they would have to be waived in a very explicit way that is 
evident to people. So, say, there are certain kinds of 
transactions where the default assumption that people engage in 
is no, you are not going to reveal--you are not going to pass 
along these photographs that I send you.
    And if that is so, then, if you want to have a different 
rule, Website operator, you have got to make it absolutely 
clear that the users know and have an option not to do business 
with you.
    A third thing is--and here, I agree with Professor 
Rotenberg--there are certain kinds of surreptitious data 
gathering. An extreme example would be them planting a virus on 
your computer or having them collect data in a situation where 
there is really absolutely no reason to think that there is any 
data being collected. Those kinds of data gathering 
restrictions, I think, would be permissible, because they are 
not focusing on disclosure. They are more like saying no, you 
cannot peek into my windows using a telescope.
    So, requirements that a site disclose its policies; setting 
up default provisions in the contract that will be enforced 
unless the provisions are disclaimed; and restrictions on 
certain kinds of surreptitious data gathering.
    Mr. Gordon. That's for preventive measures, though.
    Mr. Volokh. Pardon?
    Mr. Gordon. Preventive measures up front is what you are--
--
    Mr. Volokh. Yes, yes, exactly.
    Mr. Gordon. And, Ms. Singleton, it is sort of Katy, bar the 
door with you. Are there any limits? Is there any action that 
you think that we could take legally, whether it was good 
policy or not, but it was legal?
    Ms. Singleton. I would say generally, from a Constitutional 
standpoint, the more targeted the legislation is to a specific, 
identifiable harm, such as identity fraud, the more likely it 
is to pass Constitutional muster. The further you move toward 
sort of omnibus rules that are applying even in situations 
where there has not necessarily been any harm to consumers that 
has been identified, that might be a different story, but a lot 
of it depends on the details of the legislation, the costs it 
imposes on industry, and a lot of those, frankly, are unknowns 
at this point.
    Mr. Gordon. So is there a Constitutional right not to have 
costly measures placed on you?
    Ms. Singleton. The question in the free speech case as it 
comes up is how much of a burden is it on the dissemination of 
truthful information? Are you restricting----
    Mr. Gordon. So why should cost be a matter? It should be, 
maybe, a policy matter, and I think it should be, but why 
should it be a Constitutional matter?
    Ms. Singleton. I guess because cost is part of the picture 
in terms of what the impact will be on speech. Will there be, 
essentially, chunks of speech that for cost reasons no longer 
are permitted to exist or move around, even though there is no 
particular harm being done by those bits of speech?
    Mr. Gordon. Okay.
    Ms. Singleton. I hope that answers it.
    Ms. Feldblum. I would say to the three areas that Eugene 
noted would be Constitutionally allowable, I would add three 
others. One that I think you can put prohibitions on further 
redisclosure, even with someone whom you are not in that direct 
contractual relationship with, and that is part of what we have 
talked about.
    Two, I think in some situations, I don't think we should 
allow that default contractual rule to be waived. And the 
medical profession, I think, is a classic example, because of 
the need and power, sort of, situation, and I am not sure what 
I would think in terms of other commercial settings, but I 
would not do it as an absolute rule that that can be waived, 
that default contractual obligation for confidentiality.
    And three, besides the mandated disclosure, I think in 
certain areas, an informed consent is, in fact, 
Constitutionally appropriate as well. Again, I think that fits 
well in the medical arena. Whether that also fits in as a 
required opt-in in a commercial, I think, is more of a policy 
question.
    Mr. Gordon. The benevolence of the Chairman may allow you 
to talk some more to other candidates, but in case he doesn't, 
I would like to ask that each of you submit to the committee a 
written statement as to what you think are the Constitutional 
furtherest bounds that we could go in legislating. If you want 
to add to that why you think maybe we shouldn't, then, that is 
fine. But I would like to find out what the field of play is, 
and then, hopefully, ultimately, we can maybe find some common 
denominators.
    Mr. Stearns. The time of the gentleman has expired.
    Is that acceptable, doable, feasible for you folks to do 
that. I think it would be very helpful for the committee.
    Mr. Terry?
    Mr. Terry. Thank you, Mr. Chairman.
    I think all of our questions here are focused on trying to 
find that boundary or at least the lowest common denominator of 
what should be done, what could we do Constitutionally, 
legally, without restraining trade.
    Let me work some of that. Can I have an hour? Since I am 
the last to ask questions?
    Mr. Stearns. Will that do it?
    Mr. Terry. I will try and do it within the 4\1/2\ minutes 
that are left.
    Mr. Stearns. I would say to the gentleman we are going to 
do a second round.
    Mr. Terry. Okay.
    Mr. Stearns. I think, with the panel's indulgence, there 
are not that many members, so we are going to do a quick second 
round which would be an additional 10 or 15 minutes.
    Mr. Terry. I think one of the areas I would like to 
explore, but I am going to try and discourage, is it seems to 
me that perhaps there should be a sliding scale. Of course, we 
want higher protections on sensitive material like medical 
information, but yet, should commercial information about my 
buying habits of diapers and beer have this same heightened 
scrutiny and protection? And I would probably say right here 
without exploring it more that no, there should be probably a 
laxer standard on my purchase of Bud Light and Pampers. And by 
the way, more young people drink beer, and more young people 
have small children in diapers: case in point.
    And so, let's go with that. Mr. Cate, I want to explore 
some of these boundaries of when there should be some rules 
protecting commercial information in place, and I am going to 
kind of give examples of how that information can be, then, 
redisclosed throughout the system and see if maybe higher 
standards should be put in place as the information is 
disseminated.
    Let's say I go to the grocery store, and I use my credit 
card. It is issued by my bank. And, Professor, let's say, for 
example, you in answering this question, and I want your 
personal opinion, are my bank and the credit card issuer. Is it 
appropriate for you, then, to have software that would be able 
to read that when I use my credit card or my debit card to 
purchase at the grocery store that I buy Pampers and Bud Light? 
Is that appropriate that you even have that technical ability? 
And should I, as a consumer, when I sign up for my credit card, 
know that you may have software where you are going to know 
that I am specifically buying that brand or diapers generically 
but that brand specifically? Is that appropriate?
    Mr. Cate. Yes, it is appropriate.
    Mr. Terry. Should there be laws in place that I know that 
that is occurring?
    Mr. Stearns. Mr. Cate. It is appropriate that it occurs, 
and it is appropriate that you should know.
    Mr. Terry. All right; is it appropriate that perhaps 
Congress adopts some policy and law that mandates it on 
Professor Cate Bank and Credit Card Company?
    Mr. Cate. Well, let me say the answer to that is yes but, 
and if I can just have, you know, 5 seconds to say the but, 
which is you can send out all the notices in the world to 
customers, and they will throw them away with enormous glee. 
And so, if the effect of that notice is simply to impose a $1 
billion cost--although it does subsidize the Post Office, which 
is not an unimportant issue--but not to educate the public, 
then, I think that it is not advisable, although it is clearly 
legally permissible.
    Mr. Terry. And I will tell you right now: I want to make 
sure that when I open up my credit card bill that I don't have 
a bunch of trashy coupons in there. Give me a Pampers coupon, 
because I am spending a heck of a lot of money on diapers. So I 
want you to be able to target it to me.
    Now, let's say Professor Volokh is actually--you are just 
the shell. You just issue the darn card to me. You hire a 
separate business to actually do all of the contracting. Should 
he have the right, that company that is not you but your 
contracting agent, have that power, the software, the 
technology to be able to gather my specific buying needs, 
although my contract is with you?
    Mr. Cate. I believe that he should.
    Mr. Terry. And either two of you, you can now expand on it.
    Mr. Cate. But he can speak for himself now.
    Mr. Volokh. Well, it seems to me that if the Cate Bank 
makes this promise to you that they are, let's say, not going 
to reveal it further or some such, then, they had better ask me 
to make the same promise to them, because otherwise, they might 
be liable to you.
    Mr. Terry. Should I know that you are part of that process 
up front?
    Mr. Volokh. Well, it is an interesting question, because I 
think for most consumers, the exact financial structure or the 
exact business structure is not terribly relevant. I think with 
most consumers, my guess is--and here, you are reaching policy 
rather than Constitutional law--I think what consumers would 
like to know is what purposes their information is going to be 
used for. And it seems to me that----
    Mr. Terry. And that is the point I am getting to, actually, 
because if it just keeps coming back to me that since you are 
the one who is really going to send me out my bill with the 
coupons in it, because you have hired another company that 
actually prints and does all of that, which is the real world, 
if it keeps coming back to me, is there a lower standard than 
that?
    Mr. Volokh. A lower standard?
    Mr. Terry. Of privacy and regulation, maybe just an opt-out 
type of policy instead of an opt-in type of policy.
    Mr. Volokh. I would think that----
    Mr. Terry. Or just basic disclosure?
    Mr. Volokh. I think there is a lot, especially given how 
much consumers are concerned about business, and it is 
interesting you mention credit cards. It is a very competitive 
business. A lot of people want your credit card business.
    Mr. Terry. And this is a lot of----
    Mr. Volokh. Exactly.
    Mr. Terry. [continuing] when we get feedback from the 
business world on rights of privacy, it is usually in the----
    Mr. Volokh. Yes; I would think that there are a lot of 
banks that would have a lot of incentive to say we are going to 
give you a high-privacy credit card, and we are going to 
promise that we are going to give you privacy; we are going to 
promise that we are going to use the information only for these 
very limited purposes. We are going to make all of our 
contractors promise the same thing to us, so that we can hold 
them to this obligation, too.
    So it seems to me that the business world may do a good 
enough job if it is. If it does not, then, I think you could 
impose requirements that credit card companies facilitate 
consumer shopping by making it clear to the consumers what 
their privacy policies are.
    Mr. Terry. But I am running out of time, but the next phase 
of that would be selling my name to Anheuser Busch or whoever 
owns Pampers.
    Mr. Volokh. I thought you had an hour.
    Mr. Terry. What is that?
    Mr. Volokh. Well, I think if we promised----
    Mr. Terry. And I think that is what a lot of people are 
worried about.
    Mr. Volokh. Yes.
    Mr. Terry. But with the consumer, heck, if I get something 
at a discount from Pampers----
    Mr. Volokh. Yes.
    Mr. Terry. [continuing] I like that idea. But where do we 
draw the line in the process?
    Mr. Volokh. It seems to me that providing disclosure of 
what is going to happen and thus providing meaningful consumer 
choice will allow consumers to decide: do they want the high-
privacy, no-coupons, I just want to be as sheltered as possible 
credit card? Or do they want the go ahead; I don't care if 
people know I am buying the beer, especially if they want to 
send me more coupons? It seems to me that disclosure does 
provide consumers with more choice.
    Mr. Terry. I appreciate that, Mr. Chairman.
    Mr. Stearns. The gentleman from Massachusetts, Mr. Markey?
    Mr. Markey. I thank the gentleman very much.
    See, the point is that most people would not care if anyone 
found out that you were buying Pampers for your children. But 
your mother would care if you found out that she was buying 
Pampers for herself, Okay? That is a much more sensitive issue, 
very sensitive, incontinence pads for 2 million elderly women. 
They haven't told their daughters. That is a different issue. 
So, yes, you don't care maybe necessarily.
    But on the other hand, your mother is very sensitive about 
that. Only her husband knows; no one else, her sisters, her 
children. So what are we going to do for her? What rights does 
she have?
    So, I want to give her a lot of rights, to be honest with 
you, because she built the country. She doesn't want that 
information disclosed; she has a right to keep it private. So I 
am very respectful of her; very embarrassed, because it goes 
right to her dignity, her pride. She can't control herself.
    So where are those lists, and how do we get names off those 
lists? How hard is it to get your names off those lists?
    So, we kind of have this duality, you know. On the one 
hand, you have got the industry coming before this committee 
saying we need more copyright protection for all of their 
information. Don't let anyone disclose it. It would be terrible 
if anyone ever took our information and sold it, you know. Look 
at Napster. That Napster is going to ruin us, you know. We 
listen attentively.
    Then, the individual says, oh, by the way, I want a 
copyright on my own personality, my own information. You can't 
do that, says the very same industry. You are not entitled to 
copyright your information. That is different, Okay? But don't 
let them take mine.
    The industry comes in here, and they say you have got to 
have the top-notch, No. 1 encryption technology available to 
every consumer, security all the way, all the way from your 
house to my bank, my Internet company. Security, very 
important. But once I get the information, you shouldn't have 
any privacy. Now, from a consumer's perspective, they say, 
well, I do support state-of-the-art encryption, because I don't 
want the kid across the street cracking in and finding out what 
I am doing. But I don't want you to do it either. I am only 
transacting, you know, for this one little deal.
    So there is a duality here. The industry says copyright 
good, security good; privacy bad, privacy bad. But we need the 
same high standards, because from the consumer's perspective, 
they see the same issues, okay, that the industry does. And the 
paradox is quite obvious. So begin, then, Professor Volokh, you 
begin with the question of your children. Did we make a good 
decision in passing the Children's Online Privacy Act here, 
saying that parents have to be consulted whenever any 
information on a commercial site has been gathered about a 
child under the age of 13 that could be reused for purposes 
other than that which the parent intended? Do you think that 
was a good law, first, to pass, Professor?
    Mr. Volokh. I actually have no opinion specifically on that 
law, because I think that the situation with children revealing 
information, because children are incapable of consenting, is 
actually a much more difficult question.
    Mr. Markey. No, what I am saying is what is your view then? 
Is that a good law for us to pass?
    Mr. Volokh. Believe it or not, actually, I don't have an 
opinion, and in my article, I actually specifically say it is 
an interesting question that I haven't examined.
    Mr. Markey. No, I don't believe you don't have an opinion. 
I mean, otherwise, you shouldn't have been invited, to be 
honest with you, Okay? Because that is too simple a question, 
to be honest with you, okay, for somebody who his holding 
himself out as an expert. What about children under the age of 
13, Professor? Should parents have to give their approval if a 
commercial Website is going to reuse the information for 
purposes other than that which the parents intended?
    Mr. Volokh. I believe I wasn't--I'm sorry.
    Mr. Stearns. Professor, hold on. Just a comment.
    Mr. Volokh. Yes.
    Mr. Stearns. I would say to the gentleman from 
Massachusetts we asked these people to come here for their 
legal interpretation and not necessarily for their personal 
interpretation, for what it is worth.
    Mr. Markey. I appreciate that, but, Professor, that is 
hard, because they have rapt audiences in law school that hear 
both their legal and personal opinions, and so, they are 
usually packaged almost in a way that is so intertwined that it 
is impossible to really separate them as a student, okay, but 
as a Congressman, I am in a position--Father Drinan was my dean 
in law school. And then, in my second year, he wins for 
Congress. So I was so intimidated by him. But then, 6 years 
later, I got to be a Congressman, too. And so, whenever he 
voted yes, I could vote no, you know, if you know what I mean, 
okay?
    And I have to admit: it was gratifying, although in 
retrospect, he was probably right on everything.
    But at least I was able to question more, you know, 
intensively any position which he had.
    So all I am asking, Professor, quite simply is would you 
personally, as you hear the question, give that child audience 
more protection?
    Mr. Volokh. Representative, I was invited here, I thought, 
to comment on those matters that I thought I was competent to 
comment on. In my article, I specifically said that this is an 
issue that is very tough that I have not spent the time 
necessary to think about it, because whenever children are 
involved, especially with questions of consent, that raises all 
sorts of difficult questions. It seems to me the only 
responsible thing for me to say is to admit that I have not 
thought about this enough to have formed an opinion.
    Mr. Markey. Okay; well, let me just say that--okay, you can 
play that.
    My view--I will say my view. I think children should be 
protected, and it came out unanimously out of this committee, 
and I don't think you are going to get much dissent across this 
country. You may be the only person in the country without a 
view on that issue.
    Really, but that is okay. I mean, I don't mind that you 
want to take that position, because of course, that immediately 
begs the question of whether or not 14-year-olds should be 
protected, okay? You don't have to have a view on that, either, 
but I would say yes, 14-year-olds should also be protected. We 
didn't do that. We only did it up to 13. And then, how about 
16-year-olds? And I would say 16 years old as well, okay? 
Looking at it from a societal perspective, you know, that they 
should be protected.
    And then, you just keep going. You keep asking the same 
question over and over again, okay? And that is what we do as a 
matter of public policy. But you can start from one perspective 
and say okay, on the one hand, you know, maybe this information 
should be out there free and, you know, unrestricted. But then, 
if you take it from the other perspective, you are saying no, 
it should be restricted, because you have got this special 
category down here, and then, you have to decide how far up you 
are going to take the special category, which is the much 
tougher question, because it doesn't fit into a uniform 
philosophy. And, of course, that is the most valuable 
information to us: what doesn't fit into a uniform philosophy?
    Mr. Stearns. I would tell my colleague we are going to do a 
second round.
    Mr. Markey. Excellent. I am ready. Excellent.
    Mr. Stearns. I am going to start and ask Ms. Singleton: 
emergence and diffusion of certain new technologies, such as 
the Internet, have triggered today's debate on information 
privacy. Would you please place the relationship between new 
technologies and privacy debates in historical perspective?
    Ms. Singleton. Yes; let me do this very quickly. One of the 
interesting things that began to happen in the early Twentieth 
Century is that credit reporting became professionalized. It 
was originally done sort of as a nonprofit activity to help 
poor people get access to credit, and today, it has become 
professionalized and become, you know, a professional thing.
    Now, this goes to my point that privacy legislation, even 
relatively minimal opt-out, is not nearly as moderate as it 
appears on the surface, because if there had been an opt-out 
rule in place during the period of time in which credit 
reporting was developed, there simply would not be credit 
reporting. All of the people with bad debts would simply have 
opted out.
    To move up to another example today involving the Internet, 
just a few years ago, identification and authentication became 
a very important function that e-commerce companies needed to 
have. Amazon.com, for example, when they get an order from a 
customer, they check the name and address against a massive 
commercial data base with pretty much everyone's name and 
address in it and absolute as updated and accurate is possibly 
can be.
    And if people were allowed to opt out of this data base, 
its value as a commercial enterprise, once it was full of holes 
and gaps and so on, people opting out, whether for well-meaning 
purposes or because they want to conceal who they are, would 
essentially make this authentication and identification much 
less useful.
    So I think there again, as we think about the evolution of 
technology, it is important to realize that there are uses of 
information that are very innovative that haven't been thought 
of yet, some of which could turn out to be tremendously 
beneficial to consumers and which even relatively moderate 
legislation might foreclose.
    Mr. Stearns. Mr. Rubin, Professor Rubin, in your study, you 
identified no market failures. Do market failures primarily 
result from information asymmetry? And if so, how does 
information sharing relate to market failure?
    Mr. Rubin. Information asymmetry is one----
    Mr. Stearns. You might define a couple of terms.
    Mr. Rubin. Information asymmetry is when one party knows 
something, and the other party does not know it, but as it is 
used in economics, which is my field, by the way; I am the only 
non-attorney here, I think--as it is used in economics, it 
means that people are, in those circumstances, less willing to 
transact. So if I know there is an information asymmetry, I may 
be unwilling to transact.
    But the way to solve information asymmetries is to create 
more information. And so, the free flow of information actually 
is likely to solve problems of information asymmetry.
    Now, with respect to the Internet, you might argue that in 
the early days of the Internet, when people did not understand 
data collection and didn't understand that information was 
being collected, there may have been more of a problem. But 
now, all of the surveys show that people are fully aware of the 
fact that data is collected. This creates an incentive for 
Websites to post privacy policies, for example, and tell people 
how the information is being used, which creates an incentive 
to eliminate the information asymmetry because it makes people 
more willing to engage in transactions.
    And so, in a sense, the market is solving that problem by 
the posting of privacy policies, and the FTC study showed, for 
example, that 100 percent of the most commonly visited Websites 
did post privacy policies, not because they have been mandated 
to but because it is in their own interest to do so. So in a 
sense, the market has been solving that problem.
    Mr. Stearns. But the problem is you go to some of these 
sites, and the privacy request is way down, and you have to 
scroll all the way down. And then, it is a light gray line. And 
then, they put another light overtone on the light gray line. 
And so, you have got to see that, and you have got to double-
click on the privacy. Then, up it comes, the dialog box.
    So, I mean, they are volunteering, but they are 
volunteering in a rather clever way or a way that is an 
obtrusive, so that the average person doesn't even know that 
they have a privacy policy.
    Mr. Rubin. But if people want privacy policies, a natural 
reaction when you go to a site where you can't find it is to 
simply leave that site, to assume that it doesn't have one, or 
it's not worth my looking for it. If people are concerned about 
privacy policies, then sites have incentives to make them 
available and to make them more easily available, because 
otherwise, they are going to lose consumers.
    Ms. DeGette. Will the gentleman yield?
    Mr. Stearns. I will yield.
    Ms. DeGette. But what if they don't see the privacy 
disclaimer, so they just assume that privacy is included? Isn't 
that also a possibility?
    Mr. Rubin. Well, I think it is less of a possibility now, 
because as I say, the surveys show that people are concerned 
about privacy. I don't think people have an expectation that 
the default is they are going to protect privacy.
    Ms. DeGette. Has there been research done on that?
    Mr. Rubin. I haven't seen specific research, but there are 
all of the surveys that do show people concerned about privacy, 
which means yes, I guess that would indicate that people don't 
expect information to be kept private without a disclaimer, 
because they are concerned about the way Websites use 
information.
    Mr. Stearns. Let me just indulge myself with one other 
question for you. Please define the free rider problem and 
explain its relevance to the information privacy debate. 
Explain what you mean by free rider problem.
    Mr. Rubin. Free rider problem is where someone can benefit 
from something without contributing. So, for example, if 
information, collecting lots of information, is valuable for 
the credit reasons and the other reasons that we have talked 
about, so that creating lots of information can create a 
marketplace, but I, myself, would prefer to benefit from that 
marketplace and not contribute that information, then, I would 
be what is considered a free rider.
    So I might say it is good if Websites can make these 
determinations, but I don't want to tell them my information. I 
am going to benefit from the things that are provided without 
contributing; then, that would be a free rider, and under 
certain circumstances, you would have a free rider problem in 
the provision of such information.
    Mr. Stearns. Okay; my time has expired.
    Ms. DeGette?
    Ms. DeGette. Thank you, Mr. Chairman.
    To follow up, Professor Rubin, I think that to make the 
studies more pedagogically sound, it might be interesting to 
research consumer attitudes when they don't see a privacy 
disclaimer, because I would opine, based on nothing except for 
common sense, that people going into certain types of sites--
financial sites or where they are going to be disclosing 
personal information--may well still assume that there would be 
some privacy given, for example, similar to when they went to 
the doctor, and there is not, on your regular medical form, a 
privacy disclosure, but yet, people assume that their doctors 
will keep their medical records private.
    So I think that would be some useful research to conduct, 
and I would hope that it is being done.
    Mr. Cate, I have a couple of questions for you. I wanted 
you to expand a little bit on your written testimony where you 
talk about how requiring a customer's consent exacerbates the 
harmful impact of many privacy laws on consumers. How do you 
see that happening?
    Mr. Cate. Well, I provide seven or eight examples in the 
testimony.
    Ms. DeGette. Right.
    Mr. Cate. So let me just touch on a few of those----
    Ms. DeGette. Thank you.
    Mr. Cate. [continuing] and try to make them clearer.
    One of them, of course, is if consent requires repeated 
contacts or requests to the consumer. So, for example, even 
under the Gramm-Leach-Bliley law, the average American 
household gets 20, 30, 40 notices. That is with a cost that is 
paid for by consumers. That is an environmental burden that is 
borne by all of us as citizens, and it is a burden for people 
who say they don't like the junk mail they get already; they 
are now getting more junk mail mandated by Congress. So that is 
a clear burden on consumers that the opportunity for consent, 
the mandated opportunity for consent, exacerbates.
    I think, for example, in the health privacy rules that are 
out now, we see even more of that. That is where, for example, 
the length of that notice, the fact that notice will be 
interposed between the patient and the physician at every 
occasion; I mean, even the mundane question, you know, I go to 
the pharmacy to pick up a prescription for my wife, but, of 
course, I can't do that under those HIPAA rules, because only 
she can consent, and her consent is required by regulation for 
her to receive that prescription.
    So, now, she has got to go to the pharmacy to pick up that 
prescription and sign that form first. I think that is a real 
burden.
    Ms. DeGette. What is your view on that, Professor Feldblum?
    Ms. Feldblum. My view is that sometimes, Professor Volokh's 
approach of not talking when you don't know it all the way 
through is a good one. The HIPAA regulations specifically dealt 
with that and, in fact, have set it up so that other people can 
go to the pharmacy to pick up.
    Ms. DeGette. How will that work under the HIPAA rules?
    Ms. Feldblum. Because there isn't the ongoing consent each 
time. You consent for that information to go for certain 
purposes, and you consent for other people to do that on your 
behalf.
    Ms. DeGette. So you think his wife would be able to go pick 
up that prescription?
    Ms. Feldblum. Absolutely, absolutely.
    Mr. Cate. Not the first time.
    Ms. Feldblum. I completely stand by that.
    Ms. DeGette. Not the first time, but subsequently after she 
signed the thing?
    Mr. Cate. Absolutely; that is right.
    Ms. DeGette. But you think that is an undue burden?
    Mr. Cate. I think that is an example of a burden.
    Ms. DeGette. Okay.
    Ms. Feldblum. And to your question of the expectations of 
privacy, you are right. People think when they go to the doctor 
that that information is going to be kept private. And, in 
fact, until we have these regulations effective, they, in fact, 
don't really know where that information is going. So the 
problem we currently have in the medical system is also the 
problem that exists in your question about some of those sites. 
People don't know enough, and as Eugene Volokh said, the one 
thing Congress can do without any concerns is mandating some 
more clear disclosure. And that is, in fact, what the HIPAA 
regs do.
    Ms. DeGette. Let me get back, Professor, for a minute to 
the H.R. 10 privacy restrictions. Is it your view that under 
that law that that law requires repeated notices to customers? 
Because as I say, I was on that conference committee, and that 
was not my sense.
    Mr. Cate. That law requires that those notices be delivered 
annually, yes.
    Ms. DeGette. And you think that that is an undue burden?
    Mr. Cate. There is no question, because, for example, there 
could be no use of information at all; you know, I am not 
making any third-party use; I am not distributing it to anyone; 
I am not marketing. Therefore, there is no opt-out right 
involved. There is nothing at all that the consumer can do 
based on this other than, of course, stop engaging in the 
service. And there can be no change in the information used 
from year to year. But still, that notice has to be sent out.
    Ms. DeGette. Mr. Chairman, I just want to say that I think 
this was a great first start on this privacy question. We 
obviously had a breadth of opinions here, and I, myself, having 
sat through many law school classes where the professors 
grilled me--am very, very happy to have my little comeuppance. 
So thank you all for coming today.
    Mr. Stearns. Mr. Terry?
    Mr. Terry. Thank you.
    I said earlier that I don't see a problem with having 
completely different standards for what we think as a 
traditional commercial transaction versus a medical 
transaction. Is that appropriate legally and public policy-wise 
in your opinions?
    Ms. Feldblum. Well, two things: one, and I think it was 
sort of referenced by Representative Markey's comment: often, 
there is an integration of those in a way that can be 
complicated. So I think that while, as a conceptual matter, 
yes, there are different harms, given our system of credit and 
finances and educational institutions sort of being connected 
in with some medical information, it means that you have got to 
think through all of those elements.
    The second is really more a matter of, you know, really 
what both Ms. Singleton and Professor Volokh have written 
about, which is the conceptual question of how much control 
should you have over your own information? And for people who 
feel that strongly, it really doesn't matter that much about 
whether it's that they're taking a particular medical drug or 
that they like to buy a certain type of, you know, videos, you 
know, even action videos.
    You know, I am someone personally who I don't really--you 
know, I like getting coupons for things that I care about, 
right?
    Mr. Terry. Right.
    Ms. Feldblum. On the other hand, if I am sitting and making 
policy for everybody, I think I need to think about what sort 
of control do I want to give these folks consistent with not 
messing up the commercial system? Because that is going to help 
everyone as well.
    So, yes, there are differences, but there is integration of 
that information, and two, you have to legislate for the 
general public.
    Mr. Rotenberg. I think the problem is actually somewhat 
more complicated than this, and the reason is that when you are 
talking about a sectoral approach to privacy focusing on 
subject matter--I mean, we agree that medical information is 
more sensitive than commercial information--it puts aside the 
significance of technology. Now, consider, for example, the 
privacy protections associated with the use of the telephone 
system. You pick up the telephone, and you call up Safeway, and 
you say do you have any diapers left? You call up your doctor, 
and you say do I need to get that prescription refilled, 
because this problem is continuing.
    The privacy protection that exists for your telephone call, 
whether you are calling Safeway about the diapers or your 
doctor about the prescription is the same. Now, it may be the 
case that if someone intercepts the call and discloses the fact 
that you were talking about diapers, it wouldn't be 
embarrassing, or it could be the case that even the medical 
information isn't embarrassing. But it is interesting that if 
you look at the development of privacy law, video rental 
tapes--probably most of the tapes that you rent, not that 
sensitive. But some may be. The law provides comprehensive 
protection across this new technology in which consumers 
operate, and I think it is very important to keep this in mind, 
because there is a tendency when thinking about privacy 
protection, and I think it is common sense to sort of 
distinguish and say, well, some things are very sensitive; some 
things are not. Let's focus on what is sensitive. It makes 
sense.
    But when you talk about the integrated nature of technology 
that allows both sensitive and nonsensitive information to be 
exchanged, I think you need a more comprehensive approach, and 
that is why I would not recommend, actually, going based on 
subject matter in trying to define privacy.
    Mr. Terry. Let's continue, because I think there will be a 
variety of opinions. I respectfully disagree. I just don't see 
how you actually physically do it in the real world, because in 
order to treat everything equally, we have to move to the 
strictest standard, and I can't believe that I would have to 
sign a--I mean, literally, take a consent form to go to the 
grocery store and use my debit card. I mean, if we want to take 
that to the extreme that----
    Mr. Rotenberg. But I don't think you would.
    Mr. Terry. Well, it depends. If there may be something 
that, you know, if you move to the strictest standard, you 
would.
    But let's keep going down the field, because we have got to 
explore the boundaries of what we can do.
    Ms. Singleton. Yes; I think that there is one potential 
problem with sectoral legislation, and that is you may have a 
situation, as you have with Gramm-Leach-Bliley and the new 
medical privacy standards, where there are companies where 
their same data base is governed both by the Gramm-Leach-Bliley 
Act and by the new medical privacy rules, and those rules set a 
different legal standard.
    So what does the company do there? In some cases, one 
standard may be higher than the other one, in which case you 
just comply with the higher standard. But in some other cases, 
it is not really that clear, and the standards are just 
different. So that is one problem, and I think the answer to 
that is when you do sectoral legislation to narrowly target 
that legislation at a specific, identifiable harm such as 
fraud.
    Now, some people would say why don't we just have 
legislation all across the board to solve that problem? And my 
answer to that is because that is way too broad. Its impact on 
the economy would be enormous and very difficult to even grasp 
at this point. And plus, it also has a really big impact on 
small businesses potentially.
    Mr. Stearns. Do you want to make your--his time has 
expired. Do you want to make your comment short?
    Mr. Rubin. I will try to make them short.
    I think there is a difference between information that 
starts with a person and says what do we know about Paul Rubin 
as opposed to most of the commercial information, which starts 
with a product and says how can we find Websites of consumers 
who are interested in buying this product? So medical 
information, much of it, would fit into the first category, and 
the sort of commercial information I am talking about fits into 
the second, and I think that may be a way to think about a 
differentiation.
    Mr. Stearns. Thank you. Time has expired.
    Before I have my colleague from Massachusetts finish up our 
great hearing here, he mentioned Congressman Drinan. He came 
here, as I recollect, a professor from Georgetown.
    Mr. Markey. No, from Boston College.
    Ms. Feldblum. From Boston College. He is now a professor at 
Georgetown.
    Mr. Markey. Downward social mobility.
    Mr. Stearns. And Mr. Markey mentioned how much reverence 
and awe he had of him, and I am reminded of an expression that 
we all know as Members of Congress: the first 6 months, we 
wonder how we got here. And then, the next 6 months, we wonder 
how the rest of them got here.
    Mr. Markey. As he introduces me!
    Mr. Stearns. Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, I appreciate it very 
much.
    Not only that: Boston College is number 10 in the AP 
basketball ratings, and Georgetown is number 16, okay?
    So it was the only small little area of advantage they 
maintained over us, and now, it is complete domination.
    So we're quite happy--with the exception of their privacy 
division in the law school--and that one Constitutional law 
professor emeritus, you know, Father Drinan, they are the--so 
here's the way it is. And Professor Rubin said, you know, most 
of these sites now have a privacy policy, and they do post 
their privacy policy. We have a privacy policy, it says, okay?
    Then, you read way down here. It says--by the way, after 
you have hired lawyers at $700 an hour to write a 14-paragraph 
privacy policy with double negatives just driven throughout the 
entire thing just so that they can prove they went to law 
school, and down here, after you get to the bottom line, they 
could have just said you have no privacy. We reserve the right, 
of course, to sell this stuff, okay? But it is their policy, 
though. It is their policy. And who the hell is going, you 
know, to read 10 paragraphs on every single site they go into?
    So, obviously, that doesn't work. The free market--yes, 
they put it up, but it is like an attractive nuisance. It is 
misleading in a lot of ways, do you know what I am saying? You 
are sucking people in where they shouldn't be going, because 
they aren't going to go through all 10 paragraphs.
    And the thing is, well, financial, of course. It is the 
financial. You know, you might have been writing the check for 
your kid's Ritalin or your kid's child psychiatrist on the 
checks for the last, you know, number of years. That is 
medical, okay? More sensitive; you don't want the whole 
neighborhood, you know. You promised your daughter you are not 
going to tell anybody, you know, much less everybody in town 
can get it as a direct mail, you know, from the financial 
institution.
    And the same thing is true for the medical exams, for the 
insurance, you know. That is also very sensible. So the 
financial oftentimes is nothing more than the genetic makeup of 
the family's medical history for the last 30 years, you know, 
just sitting here if you can go through the medical. So it is 
hard sometimes to tease it out, in other words. It is basically 
inextricably intertwined inside of those financial data.
    And Citigroup, somehow or other, in Germany figures out how 
to do it, but they just can't figure out how to do it in the 
United States when these higher privacy standards are put on 
the books.
    So let me go down with just a very quick question to each 
one of you. You basically disclosed what Federal contracts you 
might have. What private contracts do any of you have, any 
financial interests that you might have in your life apart from 
your law school careers that would influence to oppose the most 
stringent privacy policies? Can you tell me which companies, 
any consulting contracts that you have--we will go right down 
the line--with outside groups?
    Mr. Stearns. With the indulgence of my colleague, as I 
recollect, and, counsel, you can correct me if I am wrong, when 
they came here, did they fill out--was that our policy?
    Mr. Markey. No, I have their forms. I have their forms 
right here. This only deals with their Federal contracts. It 
doesn't deal with their private sector contracts.
    Mr. Stearns. Well, what I am just saying is that what they 
filled out is all we requested from them.
    Mr. Markey. Oh, they don't have to give this to me right 
now. I am asking them as a favor to tell me. It is just a 
question. They don't have to tell me.
    Mr. Stearns. So this is a voluntary----
    Mr. Markey. Right.
    Mr. Stearns. [continuing] exercise here.
    Mr. Markey. Right.
    Mr. Stearns. In which he is asking you to divulge personal 
information about your privacy.
    Mr. Markey. Exactly. Now, you have got it. You have got my 
point.
    Mr. Stearns. He wants to know things about you personally.
    Mr. Markey. I want to know things about them, you know.
    Mr. Stearns. So under his timeframe, you can say that it 
will take you awhile to get it----
    Mr. Markey. Yes.
    Mr. Stearns. [continuing] and you will get back to him----
    Mr. Markey. You can say that.
    Mr. Stearns. Or do whatever you like.
    Mr. Markey. But I think that they all probably know where 
their income comes from each month, so can you tell us? Can you 
just go down the line, and then, you know, we can all hear?
    Mr. Cate. Well, I am perfectly happy to answer your 
question if the question is what consulting contracts I have. I 
am senior counsel for information law to a law firm in 
Indianapolis by the name of Ice, Miller, and that is the only 
ongoing consulting relationship that I have.
    Mr. Markey. Do they have any clients that you are writing--
--
    Mr. Cate. I am sure they have many clients.
    Mr. Markey. [continuing] memos on at their request on this 
issue of privacy?
    Mr. Cate. They do have clients that I work for, yes.
    Mr. Markey. Can you list a couple of those clients?
    Mr. Cate. I cannot list those publicly, I am afraid.
    Mr. Markey. They like their privacy, don't they?
    Mr. Cate. No, I think they protect the confidentiality of 
their relationship with their attorneys.
    Mr. Markey. As I am saying, the public would call that 
privacy. The law firm has a different word for it.
    Mr. Stearns. If the chairman would just indulge, the 
gentleman from Massachusetts is an attorney, and isn't there a 
client privilege that----
    Mr. Markey. That is exactly my point.
    Mr. Stearns. [continuing] you are trying to divulge here a 
client privilege?
    Mr. Markey. That is exactly my point.
    Mr. Stearns. That is a contractual relationship that they 
have with their clients which they don't want to divulge, and 
so, I suspect that you are putting them on the spot here by 
doing that, which I know you are trying to make a point.
    Mr. Markey. Well, we can go down, and we can just see how 
many times they want to invoke client-lawyer privilege, because 
this is not exactly national security here that you are writing 
memos on the privacy policy for private sector firms, okay? 
This is not something that I think we would put in the highest 
category. We would put this down on the lowest category: I am 
on espn.com finding out where BC is this week compared to 
Georgetown, okay? But the fact that private sector companies 
need privacy memos, okay, doesn't seem to me that it would be 
the highest level of privacy protection; not up there with 
medical and financial, for certain. I would put it in the lower 
category.
    Mr. Stearns. Well, the gentleman's time has expired. So, 
saved by the bell.
    Mr. Markey. I don't think that's fair, Mr. Chairman.
    Ms. DeGette. That is not right.
    Mr. Markey. That is not fair to me. They should all have 
the right to say no, I don't want to tell you. I think I have 
the right to have a no.
    Mr. Stearns. I think the Chairman also has a right to say 
that time has expired when the member's time has expired.
    Ms. DeGette. Mr. Chairman, I will ask unanimous consent to 
let these witnesses answer the question. You haven't cut any 
other member off today.
    Mr. Stearns. Well, no, but I think in a free discussion 
here I would say to my colleague that we have had an 
opportunity to understand Mr. Markey's point, and I don't 
necessarily want to take these witnesses who have come here, to 
ask them to divulge personal information.
    Mr. Markey. I don't want them to. I want them to say no, I 
don't want to disclose it. Don't you understand? No, no, no, 
no, no, and then, I am happy. It is over. It will be under 10 
seconds.
    Ms. DeGette. Does that mean, Mr. Chairman, you are 
objecting to my unanimous consent request?
    Mr. Markey. I don't want to tell you; I don't want to tell 
you; I don't want to tell you.
    Mr. Stearns. No, what I am saying is that even by them 
saying that they don't want to answer, that is putting them in 
a position which I don't think they should have to be put in, 
and that is my prerogative as the Chairman, and that is where I 
stand.
    Mr. Markey. I don't think you can do that, Mr. Chairman. I 
really do believe that they have a right and the ability as law 
school professors to protect themselves. How about in writing? 
How about if you would each give it to me in writing? How about 
if I asked them all, because I can see the reluctance that is 
sitting down there. Nobody is raising up their hands saying I 
don't have a problem.
    Mr. Stearns. I think that is a very good compromise.
    Mr. Markey. But if you send it in writing, I would very 
much appreciate it.
    Mr. Stearns. Okay.
    Mr. Markey. Would all of you agree to send it in writing?
    Mr. Volokh. I am sorry. Actually, because it was suggested 
that our failure to say anything is reluctance to that, I would 
be very happy to say: I have----
    Mr. Markey. He doesn't want to let you.
    Mr. Volokh. Fair enough if he forbids you from----
    Mr. Stearns. His time has expired, and I am saying as a 
nice compromise here that I suggest that we follow up with Mr. 
Markey's suggestion that if you would like to submit in writing 
to the chairman and the committee, and we will get this to Mr. 
Markey post haste. And thank you very much for your testimony. 
The committee is adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

              Indiana University School of Law--Bloomington
                                                      March 8, 2001
The Hon. Cliff Stearns
Chairman
Subcommittee on Commerce, Trade, and Consumer Protection
Committee on Energy and Commerce
U.S. House of Representatives
2125 Rayburn House Office Building
Washington, DC 20515
    Dear Chairman Stearns: Thank you once again for the opportunity to 
participate in the Subcommittee's March 1, 2001, hearing on Privacy in 
the Commercial World. It was a privilege to be invited, and I 
particularly appreciate your foresight in holding such an open and 
wide-ranging discussion of privacy issues, and your thoughtfulness and 
consideration when moderating the discussion.
    We were asked during the hearing to respond in writing to two 
additional questions. First, you asked us to respond to Mr. Gordon's 
inquiry about the constitutional bounds of Congress' authority to 
legislate in the area of privacy. I attach a supplemental statement 
that attempts to do so.
    Second, you referred to us Mr. Markey's request that we disclose 
any ``on-going consulting contracts'' to which we are parties. I am 
happy to reiterate what I said during the hearing: I have worked on 
privacy issues with many businesses, professional groups, associations, 
academic institutions, not-for-profit organizations, government 
agencies, think-tanks, and even a recent political campaign. My only 
on-going consulting contract is with the Indianapolis law firm of Ice 
Miller, where I have served since 1997 as senior counsel for 
information law.
    Finally, I am aware that the next privacy-related hearing before 
the Subcommittee concerns European privacy protections and their impact 
on consumers and businesses in Europe and the United States. Again, I 
applaud you for taking up this important subject, because I believe 
there has been considerable misunderstanding about how privacy law is 
actually applied within Europe, and regrettable inattention to the 
impact of European privacy law on European citizens. I would like to 
comment on four points in particular.
    First, many of the requirements of the EU data protection directive 
have not been enforced. For example, the directive requires European 
nations to condition the collection, March 7, 2001 use, or transfer of 
personal information on ``opt-in'' consent. This is rarely done in 
practice. Privacy scholar Amitai Etzioni tells of regularly asking his 
European audiences if anyone has ever been asked to ``opt-in.'' To 
date, Etzioni reports only one positive response--from a man who was 
asked for ``opt-in'' consent by Amazon.com, a U.S. company. ``It seems 
that this EU directive is one of those laws that is enacted to keep one 
group--privacy advocates and their followers--happy and, as a rule, is 
not enforced so that commerce and life can continue.'' Amitai Etzioni, 
``Protecting Privacy,'' Financial Times, April 9, 1999, at 18.
    A January 2001 study by Consumers International bears out Etzioni's 
conclusion. The study found that while U.S. and European Web sites 
collect personal information at nearly comparable rates (66 percent in 
the United States; 63 percent in Europe), U.S. sites provide better 
privacy protection, despite having no specific legal obligation to do 
so, than European sites, which are subject to comprehensive legal 
requirements. In fact, the study concluded: ``US-based sites tended to 
set the standard for decent privacy policies.'' Consumers 
International, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cd9dbfa4bbacaeb48da3a8b9">[email&#160;protected]</a>: An International Comparative Study of 
Consumer Privacy on the Internet at 6 (2001) (emphasis added).
    A second observation is that when restrictive privacy rules 
actually have been enforced, for example, as part of national data 
protection laws that predated the directive, they have contributed to 
significant economic and social costs. The financial services sector 
provides some of the clearest examples. Restrictive national privacy 
laws have acted as a barrier to competition, giving the dominant 
incumbent a monopoly over the information it possesses about its 
customers, and denying new market entrants the information needed to 
provide and market financial services. As a result, financial services 
are provided by far fewer institutions--one-tenth the number that serve 
U.S. customers, despite the fact that the pan-European market has 
almost one and one-half times as many households. This means that 
European consumers have fewer choices of companies and services, fewer 
locations at which they can obtain financial services, and fewer ATMs--
one-third the number in the United States--at which they can obtain and 
deposit funds.
    Restrictive privacy laws also mean that consumers cannot take 
advantage of their complete credit histories, thereby restricting the 
mobility of consumers, because of the difficulty of obtaining credit 
from new institutions. As a result, economist Walter Kitchenman writes, 
in Europe ``consumer lending is not common, and where it exists, it is 
concentrated among a few major banks in each country, each of which has 
it own large databases.'' Walter F. Kitchenman, The European Union 
Directive on Privacy as a Barrier to Trade (2000). In fact, European 
consumers, although they outnumber their U.S. counterparts, have access 
to one-third less credit as a percentage of gross domestic product. 
Moreover, the absence of standardized, complete consumer data reduces 
lender confidence and impedes the securitization and pooling of loans, 
thereby furthering limiting the availability of credit and driving up 
its price. Consumers also pay more for other financial services and 
products because of the lack of competition, the difficulty of 
obtaining service from another institution without a portable credit 
history, and the absence of other efficiencies made possible through 
information-sharing.
    Third, if U.S. lawmakers don't hear loud complaints from European 
businesses about restrictive privacy laws, it likely reflects not only 
the limited extent to which at least the EU data protection directive 
is being enforced, but also the fact that many dominant companies 
welcome the anticompetitive impact of such laws. By keeping competitors 
out and making it harder for customers to take their business 
elsewhere, European privacy laws help dominant incumbents maintain 
their stranglehold on markets. In France, for example, the EU country 
with the strictest financial privacy laws, seven banks control more 
than 96 percent of banking assets. The seven dominant French banks 
already own extensive databases--they have no need to share information 
about their customers with anyone. And the fact that this system 
restrains innovation, hurts customer choice, and increases price is not 
a great concern to those banks because the same system also restrains 
competition and makes it easier to hold customers and capital captive.
    Finally, European and U.S. markets differ in many significant ways. 
The vast potential European market is, in fact, divided into many 
smaller markets by languages, cultures, and, at least until the euro is 
in widespread use, currencies. Moreover, the longstanding practical and 
legal restraints on the productive use of information have contributed 
to shaping radically different customer expectations in Europe than in 
the United States. For example, until recently, telephone bills in many 
EU countries did not include a listing of long-distance calls. 
Europeans just did not expect to have that type of tool for evaluating 
the accuracy of telephone charges. U.S. consumers, by contrast, have 
lengthy experience with expecting the businesses with which they deal 
to keep detailed call and charge records, so that the customer can 
verify that bills are accurate. And, of course, Europe does not have a 
``First Amendment'' or a tradition of constitutional protection for 
information flows.
    I mention these four points only to highlight the importance of 
your inquiry and the need for caution before attempting to emulate 
European-style privacy protection.
    Thank you again both for the opportunity to participate in last 
week's hearing and for your foresight in carefully scrutinizing a wide 
range of issues about the current privacy debate, before attempting to 
reach any conclusion about whether further legislation is necessary or, 
if so, what the nature of that legislation may be. If I can be of any 
service, I hope you will not hesitate to contact me.
            Yours sincerely,
                                               Fred H. Cate
                   Professor of Law and Harry T. Ice Faculty Fellow
Enclosure
                     U.S. House of Representatives
                    Committee on Energy and Commerce
        Subcommittee on Commerce, Trade, and Consumer Protection
            supplemental statement of professor fred h. cate
    Mr. Chairman: You asked the witnesses in the March 1, 20001, 
hearing on Privacy in the Commercial World to respond to Mr. Gordon's 
inquiry about the constitutional bounds of Congress' authority to 
legislate in the area of privacy. This statement attempts to do so.
    I read the Constitution and the Supreme Court's jurisprudence as 
permitting Congress to legislate privacy protection only when it has a 
constitutional basis for doing so (in this case, the interstate 
commerce clause), and when that legislation meets the requirements of 
the First Amendment. First Amendment review is required of any law--
privacy-related or otherwise--that limits the ability of individuals or 
nongovernmental institutions to engage in expression. That limit does 
not have to take the form of a direct prohibition to trigger First 
Amendment scrutiny, although most privacy laws have that effect.
Strict Scrutiny
    Of course, not all restrictions on expression trigger the same type 
of First Amendment review. This point was largely obscured in last 
week's hearings, due perhaps to the fact that the Supreme Court's 
jurisprudence in this area is not always clear or consistent. As a 
general mater, however, direct government restraints, prior restraints, 
restraints based on the viewpoint of the expression or, in many cases, 
the content of the speech, require strict scrutiny, the highest form of 
scrutiny applied by the Court. Under this standard, which is the one 
that the Supreme Court has most frequently applied when reviewing 
privacy laws, the government bears the burden of showing that the law 
is (1) necessary to serve a compelling interest, and that the law (2) 
imposes no greater burden than is necessary to achieve that purpose. 
The need to evaluate both the purpose of the law and how narrowly it is 
tailored is why most of us at last week's hearing focused on what harm 
a privacy law is intended to prevent or remedy, and what cost or other 
burdens privacy law imposes on consumers and businesses. A privacy law 
that does not respond to a specific, significant harm will not be found 
to serve a compelling interest, and a law that imposes unnecessary 
costs, or costs in excess of the benefits it generates, will not be 
found to be the least restrictive means of achieving the government's 
interest. In either case, the Court would almost certainly strike down 
the law as unconstitutional. Moreover, it is important to reiterate 
that it is the government's responsibility under the First Amendment to 
demonstrate both the importance of the interest and the precision with 
which the law is tailored.
Intermediate Scrutiny
    Although most privacy laws have been reviewed under strict 
scrutiny, not all have. Some courts have applied various forms of 
intermediate scrutiny, usually on the basis that the expression 
affected by the privacy law was commercial in nature. Although specific 
tests vary in detail, all intermediate scrutiny tests require that the 
government demonstrate that the law is intended to serve an important 
or substantial government interest, and that the law be narrowly 
tailored to achieving that interest. As you know, Professor Volokh 
testified, and I agree with him, that intermediate scrutiny was 
inappropriate for reviewing privacy laws and regulations because, even 
though the expression affected occurred in a commercial context, it was 
not ``commercial speech'' (i.e., it did not propose a commercial 
transaction). Some lower courts have nevertheless reviewed privacy laws 
or regulations under intermediate scrutiny. When they have done so, 
however, they have tended to find that the law or regulation failed 
even this level of scrutiny. In other words, they applied intermediate 
scrutiny because there was no need to apply strict scrutiny: The 
restriction being challenged could not survive even the lower standard 
of review.
    The most recent example of this type of scrutiny was the decision 
of the U.S. Court of Appeals for the Tenth Circuit in U.S. West, Inc. 
v. Federal Communications Commission. The appellate court struck down 
the Commission's rules requiring that telephone companies obtain 
explicit consent from their customers before using data about those 
customers' calling patterns to market products or services to 
them.<SUP>1</SUP> The court found that the FCC's rules, by limiting the 
use of personal information when communicating with customers, 
restricted U.S. West's speech and therefore were subject to First 
Amendment review. Although the court applied intermediate scrutiny, it 
determined that under the First Amendment, the rules were presumptively 
unconstitutional unless the FCC could prove otherwise by demonstrating 
that the rules were necessary to prevent a ``specific and significant 
harm'' on individuals, and that the rules were ``. . . no more 
extensive than necessary to serve [the stated] interests . . .'' 
<SUP>2</SUP>
        Although we may feel uncomfortable knowing that our personal 
        information is circulating in the world, we live in an open 
        society where information may usually pass freely. A general 
        level of discomfort from knowing that people can readily access 
        information about us does not necessarily rise to the level of 
        substantial state interest under Central Hudson [the test 
        applicable to commercial speech] for it is not based on an 
        identified harm.<SUP>3</SUP>
    The court found that for the Commission to demonstrate that the 
``opt-in'' rules were sufficiently narrowly tailored, it must prove 
that less restrictive ``opt-out'' rules would not offer sufficient 
privacy protection, and it must do so with more than mere speculation:
        Even assuming that telecommunications customers value the 
        privacy of [information about their use of the telephone], the 
        FCC record does not adequately show that an opt-out strategy 
        would not sufficiently protect customer privacy. The 
        respondents merely speculate that there are a substantial 
        number of individuals who feel strongly about their privacy, 
        yet would not bother to opt-out if given notice and the 
        opportunity to do so. Such speculation hardly reflects the 
        careful calculation of costs and benefits that our commercial 
        speech jurisprudence requires.<SUP>4</SUP>
    The court found that the FCC had failed to show why burdensome 
``opt-in'' rules were necessary, and therefore struck down the rules as 
unconstitutional. The Supreme Court declined to review the 
case.<SUP>5</SUP>
The Dominance of First Amendment Rights
    The result in U.S. West is not surprising, because, whether 
analyzed under strict or intermediate scrutiny, privacy laws and 
regulations rarely survive constitutional review. For example, the 
Supreme Court has accorded privacy rights little protection when 
confronted with freedom of association claims of groups such as the 
American Communist Party.<SUP>6</SUP> The Supreme Court has struck has 
down ordinances that would require affirmative consent before receiving 
door-to-door solicitations,<SUP>7</SUP> before receiving Communist 
literature,<SUP>8</SUP> even before receiving ``patently offensive'' 
cable programming.<SUP>9</SUP> The words of the Court in the 1943 case 
of Martin v. Struthers--involving a local ordinance that banned door-
to-door solicitations without explicit (``opt-in'') householder 
consent--are particularly apt: ``Whether such visiting shall be 
permitted has in general been deemed to depend upon the will of the 
individual master of each household, and not upon the determination of 
the community. In the instant case, the City of Struthers, Ohio, has 
attempted to make this decision for all its inhabitants.'' 
<SUP>10</SUP>
    Similarly, the Court often has demonstrated little concern for the 
privacy interests of unwilling viewers or listeners, rejecting claims 
against broadcasts of radio programs in Washington, D.C. 
streetcars,<SUP>11</SUP> R-rated movies at a drive-in theater in 
Jacksonville, Florida,<SUP>12</SUP> and a jacket bearing the phrase 
``Fuck the Draft'' worn in the corridors of the Los Angeles County 
Courthouse.<SUP>13</SUP> And plaintiffs rarely win suits brought 
against the press for disclosing private information. When information 
is true and obtained lawfully, the Supreme Court repeatedly has held 
that the state may not restrict its publication without first meeting 
strict scrutiny. Under this requirement, the Court has struck down laws 
restricting the publication of confidential government 
reports,<SUP>14</SUP> and of the names of judges under 
investigation,<SUP>15</SUP> juvenile suspects,<SUP>16</SUP> and rape 
victims.<SUP>17</SUP> Even if information published by the press is 
subsequently proved to be false, the Supreme Court has demonstrated 
extraordinary deference to First Amendment expression rights and little 
concern for the privacy interests involved.<SUP>18</SUP>
    In fact, when privacy rights conflict with free expression rights 
before the Court, the latter prevail, virtually without exception. The 
dominance of the free expression rights over privacy interests is so 
great that Peter Edelman has written:
        [T]he Court [has] virtually extinguished privacy plaintiff's 
        chances of recovery for injuries caused by truthful speech that 
        violates their interest in nondisclosure . . . If the right to 
        publish private information collides with an individual's right 
        not to have that information published, the Court consistently 
        subordinates the privacy interest to the free speech 
        concerns.<SUP>19</SUP>
    This is true irrespective of whether the speaker is an individual 
or an institution.
The Impact on Congress
    So what does this mean for Congress? I believe it necessitates that 
whenever Congress restricts the flow of information in an effort to 
protect privacy it must demonstrate (1) what harms it is acting to 
prevent or remedy, (2) that such harms are serious enough to constitute 
a substantial or compelling government interest, (3) that the law is 
not broader, or does not regulate appreciably more expression, than is 
necessary to achieve that interest, and (4) that there are not other 
tools (such as technologies or market solutions) that would achieve the 
same end with less interference with information flows. The precise 
test (i.e., whether the interest must be ``compelling'' or 
``substantial'' and whether the legislation must be the ``least 
restrictive means'' or merely ``narrowly tailored'' to achieve that 
interest) will depend upon the nature both of the expression restricted 
and of the legislation itself, but effectively all restrictions on the 
collection, use, or disclosure of information by the private sector 
will have to survive this basic First Amendment review.
    This is a very high, but not impossible, burden. As a practical 
matter, it means that Congress cannot legislate to protect individuals 
from embarrassment or a ``general level of discomfort'' as a result of 
the disclosure of true information about them. It also means that 
Congress cannot broadly restrict uses of information that do not cause 
harm in an effort to target those that do.
    On the other hand, the First Amendment does not restrict Congress 
from facilitating the creation and enforcement of private contracts. 
For example, Congress has broad discretion under the First Amendment to 
require disclosures, provided that those requirements do not interfere 
with expression to such an extent, or impose such high costs, that they 
constitute an unconstitutional restraint on expression. The Supreme 
Court has also found that Congress has significantly broader latitude 
to act to protect children, provided that the law is not so overbroad 
that it impinges on adult's expression. This explains why the 
Children's Online Privacy Protection Act may be constitutional under 
the First Amendment as applied to children, but similar restrictions 
would be unconstitutional if applied to adults. Moreover, Congress has 
broad--although not unlimited authority--to regulate the government's 
use of information (i.e., to require privacy policies on government Web 
sites, or to reduce the amount of personal information the government 
collects from citizens). Congress can fund the development of privacy 
protecting technologies (either directly or through tax incentives or 
other subsidies), and sponsor commissions or other research initiatives 
about privacy issues. Congress can help educate citizens about the 
steps that we--and often, only we--can take to protect our own privacy.
Conclusion
    The First Amendment is often lamented as a regrettable restraint on 
the ability of Congress and other governmental bodies to act in the 
best interest of the citizenry and protect the public. It may sometimes 
have that effect. But I view it differently. The First Amendment 
reflects the fact that expression, and the information that is 
essential to expression, are so integral to our democracy and our 
economy, that laws affecting them always pose a great risk to citizens 
and consumers. Even when motivated by the most noble of purposes, those 
laws can result in untold damage, especially if they are not precisely 
targeted. Moreover, laws regulating expression and information are 
often attractive to policymakers and to the public; such laws 
frequently respond to immediate concerns and they usually do not 
require the expenditure of taxpayer dollars.
    The First Amendment reflects a constitutional calculation that 
because of the attractiveness of laws limiting expression and the great 
risks that they pose, the government should only be allowed to enact 
and enforce such laws when they are necessary to prevent or remedy a 
specific, significant harm, and when they are closely tailored to 
affect only that expression that causes the harm. Viewed in this light, 
the First Amendment does not limit Congress' authority to restrict 
expression when necessary to prevent substantial harms. It only limits 
Congress' authority to restrict expression when that restriction is not 
necessary or is designed to serve a less important purpose.

                                 Notes

    <SUP>1</SUP> U.S. West, Inc. v. Federal Communications Comm'n, 182 
F.3d 1224, 1235 (10th Cir. 1999), cert. denied, 528 U.S. 1188 (2000).
    <SUP>2</SUP> Id. at 1235 (quoting Rubin v. Coors Brewing Co., 514 
U.S. 476, 486 (1995)) (emphasis added).
    <SUP>3</SUP> Id. (emphasis added).
    <SUP>4</SUP> Id. (emphasis added).
    <SUP>5</SUP> U.S. West, Inc. v. Federal Communications Comm'n, 528 
U.S. 1188 (2000).
    <SUP>6</SUP> Communist Party of the U.S. v. Subversive Activities 
Control Board, 367 U.S. 1 (1961); Scales v. United States, 367 U.S. 203 
(1961); Noto v. United States, 367 U.S. 290 (1961).
    <SUP>7</SUP> Martin v. Struthers, 319 U.S. 141 (1943).
    <SUP>8</SUP> Lamont v. Postmaster General, 381 U.S. 301 (1965).
    <SUP>9</SUP> Denver Area Educational Telecommunications Consortium, 
Inc. v. Federal Communications Comm'n, 518 U.S. 727 (1996).
    <SUP>10</SUP> Martin v. Struthers, 319 U.S. at 141.
    <SUP>11</SUP> Public Utilities Commission v. Pollack, 343 U.S. 451 
(1952).
    <SUP>12</SUP> Erznoznik v. City of Jacksonville, 422 U.S. 205 
(1975).
    <SUP>13</SUP> Cohen v. California, 403 U.S. 15 (1971).
    <SUP>14</SUP> New York Times Co. v. United States, 403 U.S. 713 
(1971).
    <SUP>15</SUP> Landmark Communications, Inc. v. Virginia, 435 U.S. 
829 (1978).
    <SUP>16</SUP> Smith v. Daily Mail Publishing Co., 443 U.S. 97 
(1979).
    <SUP>17</SUP> Florida Star v. B.J.F., 491 U.S. 524 (1989); Cox 
Broadcasting Corp. v. Cohn, 420 U.S. 469 (1975).
    <SUP>18</SUP> Hustler Magazine, Inc. v. Falwell, 485 U.S. 46 
(1988); Time, Inc. v. Hill, 385 U.S. 374 (1952).
    <SUP>19</SUP> Peter B. Edelman, ``Free Press v. Privacy: Haunted by 
the Ghost of Justice Black,'' 68 Texas Law Review 1195, 1198 (1990).
                                 ______
                                 
   Response for the Record of of Solveig Singleton, The Competitive 
                          Enterprise Institute
    Question (1) Below I will summarize my view of the outer 
constitutional limits of Congressional action on privacy (noting, 
however, that the most Congress can do is probably not what Congress 
should do).
    Opt-in. An opt-in regime is probably a violates of rights of free 
speech as applied to many cases, for it will in effect operate as a ban 
on the exchange of truthful information in many cases.
    Opt-out. Opt-out is more likely to pass constitutional muster. 
There may be some contexts where opt-out is unconstitutional, for 
examples, if it restricts the use of information from public records. 
In addition, the Court might find, consistent with copyright cases, 
that it is inconsistent with free speech principles to create a 
property right in facts.
    Default Contract Terms. Congress could clarify the default rules 
for a contract that is silent on the matter of privacy. This would not 
restrict speech, so long as companies remained free to set their own 
terms differently from the default.
    Notice. Congress could require companies to give notice of their 
privacy practices.
    Question (2) Below I offer information in response to the question 
about consulting clients and my work on privacy.
    Some think tanks such as AEI and Brookings do permit industry 
consulting. But my former employer, the Cato Institute, for whom I 
worked when I first formed my views on privacy, has an explicit rule 
prohibiting consulting related to analysts' policy topics with 
interested for-profit companies or associations that represent for-
profit companies. The Competitive Enterprise Institute, where I 
presently work, also assumes that such consulting is inappropriate. 
Thus I have never worked as an industry consultant on privacy or any 
other topic that I also work on in the policy world.
    I have, worked as a consultant to a number of non-profit public 
policy groups on privacy. These groups are the Mackinaw Center, the 
Foundation for Economic Education (a small market-oriented group that 
works with students and academics), the National Center for Policy 
Analysis (a conservative group based in Texas), and the Democracy 
Online Task Force (meeting in Washington, D.C.). This is an all-
inclusive list.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
